APPENDIX

APPENDIX
TABLE OF CONTENTS
Original Proceeding in Prohibition Writ Denied in the Supreme Court of
Appeals of West Virginia
(May 28, 2020) ................................................................................................. App. 1
Order Denying Rehearing in the Supreme Court of Appeals of West Virginia
(September 3, 2020)....................................................................................... App. 35
Transcript of Proceedings in the Circuit Court of Berkeley County, West
Virginia 23rd Judicial Circuit (November 18, 2019).................................... App. 37
Transcript of Proceedings in the Circuit Court of Berkeley County, West
Virginia 23rd Judicial Circuit (December 10, 2019) .................................... App. 69
Petition for Writ of Mandamus in the Supreme Court of Appeals of West
Virginia (December 3, 2019) ......................................................................... App. 88
Petition for Rehearing in the Supreme Court of Appeals of West Virginia
(June 29, 2020) ............................................................................................ App. 215

i

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
January 2020 Term
No. 19-1160

FILED
May 28, 2020
released at 3:00 p.m.

EDYTHE NASH GAISER, CLERK

STATE OF WEST VIRGINIA ex rel.
JUNE YURISH,
KRISTIN DOUTY,
and CHRISTINA LESTER,
Petitioners

SUPREME COURT OF APPEALS
OF WEST VIRGINIA

v.
THE HONORABLE LAURA V. FAIRCLOTH,
Judge of the Circuit Court of Berkeley County, and
THE STATE OF WEST VIRGINIA,
Respondents
ORIGINAL PROCEEDING IN PROHIBITION
WRIT DENIED
Submitted: March 3, 2020
Filed: May 28, 2020
Christian J. Riddell, Esq.
Stedman & Riddell, PLLC
Martinsburg, West Virginia
Counsel for Petitioners

Patrick Monisey, Esq.
Attorney General
Gordon L. Mowen, II, Esq.
Assistant Attorney General
Charleston, West Virginia
Counsel for Respondents

JUSTICE WALKER delivered the Opinion of the Court.
JUSTICE WORKMAN dissents and reserves the right to file a dissenting opinion.

App. 1

SYLLABUS BY THE COURT
1.

"In determining whether to entertain and issue the writ of prohibition

for cases not involving an absence of jurisdiction but only where it is claimed that the lower
tribunal exceeded its legitimate powers, this Court will examine five factors: (1) whether
the party seeking the writ has no other adequate means, such as direct appeal, to obtain the
desired relief; (2) whether the petitioner will be damaged or prejudiced in a way that is not
correctable on appeal; (3) whether the lower tribunal's order is clearly erroneous as a matter
oflaw; (4) whether the lower tribunal's order is an oft repeated error or manifests persistent
disregard for either procedural or substantive law; and (5) whether the lower tribunal's
order raises new and important problems or issues of law of first impression. These factors
are general guidelines that serve as a useful starting point for determining whether a
discretionary writ of prohibition should issue. Although all five factors need not be
satisfied, it is clear that the third factor, the existence of clear error as a matter of law,
should be given substantial weight." Syllabus Point 4, State ex rel. Hoover v. Berger, 199
W. Va. 12,483 S.E.2d 12 (1996).

2.

"In determining whether to grant a rule to show cause in prohibition

when a court is not acting in excess of its jurisdiction, this Court will look to the adequacy
of other available remedies such as appeal and to the over-all economy of effort and money
among litigants, lawyers and courts; however, this Court will use prohibition in this
discretionary way to co1Tect only substantial, clear-cut, legal errors plainly in contravention

I

App. 2

of a clear statutory, constitutional, or common law mandate which may be resolved
independently of any disputed facts and only in cases where there is a high probability that
the trial will be completely reversed if the e!Tor is not co1Tected in advance." Syllabus
Point I, Hinkle v. Black, 164 W. Va. 112,262 S.E.2d 744 (1979) (superseded by statute on
other grounds as stated in State ex rel. Thornhill Group, Inc. v. King, 233 W. Va. 564, 759

S.E.2d 795 (2014)).
3.

"The right of a criminal defendant to assistance of counsel includes

the right to effective assistance of counsel." Syllabus Point 1, Cole v. White, 180 W. Va.
393, 376 S.E.2d 599 (1988).
4.

"Where a constitutional right to counsel exists under W.Va. Const.

art. III, § 14, there is a co1Te!ative right to representation that is free from conflicts of
interest." Syllabus Point 2, Cole v. White, 180 W. Va. 393, 376 S.E.2d 599 (1988).
5.

"Rule 44(c) of the West Virginia Rules of Criminal Procedure

requires trial courts to 'promptly inquire with respect to such joint representation and ...
personally advise each defendant of his right to effective assistance of counsel, including
separate representation."' Syllabus Point 5, Cole v. White, 180 W. Va. 393, 376 S.E.2d
599 (1988).
6.

"The standard for taking some affirmative action under Rule 44( c) of

the West Virginia Rules of Criminal Procedure is the trial court's belief that a conflict of
11

App. 3

interest is likely to arise. This is a lower standard than the Sixth Amendment's requirement
of demonstrating an actual prejudice." Syllabus Point 6, Cole v. White, 180 W. Va. 393,
376 S.E.2d 599 (1988).

111

App. 4

WALKER, Justice:
Petitioners June Yurish, Kristin Douty, and Christina Lester are charged with
the same crime arising from the same circumstances in three criminal cases pending in the
Circuit Court of Berkeley County. Christian Riddell is counsel for all three, jointly. But
the State moved to disqualify Mr. Riddell from representing Petitioners because, it argued,
the joint representation created a cuTI'ent conflict among Petitioners' interests and
threatened future conflicts that would jeopardize the integrity of the proceedings. The
circuit court granted the State's motion.

Petitioners now seek a writ from this Court to prohibit the circuit court from
enforcing that order. They contend that the disqualification of Mr. Riddell is a clear
violation of their Sixth Amendment right to choose their own counsel, regardless of the
conflicts that exist or that may arise. We disagree. The circuit court did not clearly ell'
when it applied Rule 44( c) of the West Virginia Rules of Criminal Procedure to disqualify
Mr. Riddell from representing Petitioners, jointly, at this early stage of the proceedings.
So, we deny the requested writ.

I. FACTUAL AND PROCEDURAL BACKGROUND

In August 2019, authorities filed three criminal complaints in the Berkeley
County Magistrate Court against Petitioners June Yurish, Kristin Douty, and Christina

1
App. 5

Lester. 1 The complaints charged each Petitioner with a single violation of West Virginia
Code§ 49-2-812(a), Failure to Report. 2 All three charges arise from the same set of facts.
Christian Riddell appeared in magistrate court as counsel for each Petitioner. At his
request, the magistrate court transfen-ed the cases to circuit court, which then scheduled an
initial hearing for October 21, 2019.
The State moved to disqualify Mr. Riddell from appearing in Petitioners'
cases immediately before the October 21 initial hearing.

In its motion, the State

represented that it had offered plea agreements to Petitioners which, as a condition of
acceptance, required each to assist the State's investigation and, if necessary, to testify
against her codefendants. The State argued in its motion that the offer created a concurrent
conflict of interest for Mr. Riddell under West Virginia Rule of Professional Conduct 1.7. 3
Petitioners' case numbers in the Circuit Court of Berkeley County are Nos. 19-M7, 19-M-8, and 19-M-9.
1

2

West Virginia Code§ 49-2-812(a) states:
Any person, official or institution required by this
article to report a case involving a child known or suspected to
be abused or neglected, or required by section eight hundred
nine of this article to forward a copy of a report of serious
injury, who knowingly fails to do so or knowingly prevents
another person acting reasonably from doing so, is guilty of a
misdemeanor and, upon conviction, shall be confined in jail not
more than ninety days or fined not more than $5,000, or both
fined and confined.

3

Rule of Professional Conduct 1.7 states:
(a)
Except as provided in paragraph (b ), a lawyer
shall not represent a client if the representation involves a
2

App. 6

The parties then appeared for the previously scheduled hearing on October 21. There, Mr.
Riddell produced conflict waivers 4 from each of his clients in which they represented that,
3.
My attorney has further informed me that it is
probable that the prosecutor will offer me a plea agreement

concurrent conflict of interest. A concurrent conflict of interest
exists if:
(1)
the representation of one client will be directly
adverse to another client; or
(2)
there is a significant risk that the representation
of one or more clients will be materially limited by the lawyer's
responsibilities to another client, a former client or a third
person or by a personal interest of the lawyer.
(b)
Notwithstanding the existence of a concurrent
conflict of interest under paragraph (a), a lawyer may represent
a client if:
(1)
the lawyer reasonably believes that the lawyer
will be able to provide competent and diligent representation
to each affected client;
(2)

the representation is not prohibited by law;

(3)
the representation does not involve the assertion
of a claim by one client against another client represented by
the lawyer in the same litigation or other proceeding before a
tribunal; and
(4)
each affected client gives informed consent,
confmned in writing.
Each Petitioner signed her waiver on October 4, 2019. The signatures were not
notarized, however, until December 3, 2019.
4

3

App. 7

[that] requires my cooperation and testimony against my codefendants in exchange for a more lenient sentence.
4.
My attorney has informed me that, pursuant to
Rule 1.7 of the West Virginia Rules of Professional Conduct,
the possibility of such a plea agreement creates for him a
concurrent conflict of interest as to joint representation because
he will be able unable to negotiate any such plea agreement on
my behalf because of his ongoing representation and duties to
my co-defendants.
Petitioners responded to the State's motion the next month. They urged the
circuit court to approach the State's motion with extreme caution out of deference to their
rights under the Sixth Amendment of the United States Constitution to be represented by
the counsel of their choice. They reasoned that their waivers cured any concurrent or future
conflicts that may arise as the case progressed and that the State had not met its heavy
burden to prove that disqualification was necessary and justified. 5

The circuit court reconvened the parties on November 18, 2019.

After

argument, the circuit court granted the State's motion from the bench. The court found
that regardless of any actual conflicts of interest, Mr. Riddell's joint representation of
Petitioners created two likely future conflicts. First, one Petitioner may want to share
information with Mr. Riddell that she did not want him to share with her codefendants.
Mr. Riddell could not comply with that instruction if he continued to represent all three
Petitioners also called the circuit court's attention to a 1990 criminal case in the
Circuit Court of Berkeley County that they contended enabled the circuit court to assign
each defendant individual counsel to conduct plea negotiations. A thirty-year old circuit
court case is not relevant to our consideration of the circuit court's order.
5

4

App. 8

Petitioners. Second, Mr. Riddell could not advise one Petitioner on any proposed plea
agreement that would obligate her to assist the State in the prosecution of her codefendants.
The court recognized Petitioners' position that they would never accept a plea agreement
but observed that that position could change. And, the circuit court observed that Mr.
Riddell's participation in plea negotiations in any of Petitioners' cases could easily give
rise to a direct appeal or a habeas petition, regardless of Petitioners' conflict waivers.

The parties gathered once again on December 10 so that the circuit court
could ask each Petitioner about the joint representation and to advise her of her rights, as
required by West Virginia Rule of Criminal Procedure 44(c). 6 During the hearing, the
court questioned each Petitioner individually and in near-identical fashion. Each Petitioner
affirmed to the circuit court that she understood that she had a right to be represented by
counsel.

Each Petitioner also affirmed her understanding that because of the joint

representation, Mr. Riddell had to meet with Petitioners simultaneously or obtain the
others' pennission to keep confidential information she shared with him. Each Petitioner
also affirmed that she understood that if the State offered a cooperation plea agreement, or
if she decided to approach the State about a plea agreement, Mr. Riddell would have to
withdraw from the joint representation arrangement. Each Petitioner also informed the

On November 19, the circuit court entered an order confirming that it had granted
the State's motion to disqualify Mr. Riddell during the hearing the day before and
scheduling another hearing for November 21 to conduct the colloquy mandated by Rule
44(c). Before the November 21 hearing, Petitioners filed supplemental briefing, so the
circuit court continued the matter until December 10 to allow the State to respond.
6

5

App. 9

circuit court that no conflict of interest existed or could occur in the future that would
justify disqualification of Mr. Riddell from her case.

Following the colloquy, the court addressed the applicability of Rule 44(c)
to the case at hand. The court found that the rule applied to potential conflicts as well as
actual ones and concluded that good cause existed under Rule 44(c) to believe that a
conflict of interest would likely arise in Petitioners' cases that would disqualify Mr. Riddell
from representing Petitioners jointly. The court explained that while a conflict may not
arise immediately in Petitioners' cases, it would certainly arise
once the Court moves forward and the Court makes a ruling
about the admissibility of that tape that has been circulating, as
the Court goes through different hearings and different matters
are addressed, I cannot fathom a situation where a conflict of
interest would not likely arise in this case. And as a result of
that in order to protect the defendants according to Rule 44( c)
the Court will grant or has already granted the state's motion
and I just wanted to re-affirm that decision here today.
Even though the individual defendants have been I think
sincere in their statements to the Court and certainly want you,
Mr. Riddell, to represent them I don't believe that they're
making decisions that are in their best interest and even when
I heard one of the defendants say I don't feel that there would
be any conflict that's not saying there couldn't possibly be and
that's the standard the Court employs.
Petitioners' counsel then asked the circuit court to clarify its ruling and
advise whether it intended to disqualify him from representing one Petitioner or all of them.
The court responded:
No, you're not permitted to represent any of them. A
conflict for one is a conflict for all. I have no idea what shared
6

App. 10

information you've been given nor would I even go so far as to
ask that is not a province of the Court but you have clearly met
with your clients in an effort to be of assistance to them. They
have engaged you. They have spoken with you and you've
been their attorney for several months now. So the perception
is there that you have information that they have shared with
you that may be adverse at some point to any one of the other
defendants. So this Court does adopt the pretty standard
requirement that if you have a conflict for one you have a
conflict for all.
The circuit court entered an order on December 11, 2019, memorializing its
oral rulings from the December 10 hearing. Petitioners seek a writ from this Court
prohibiting the enforcement of the December 11 order.

II. STANDARD OF REVIEW

A writ of prohibition is an extraordinary remedy reserved for extraordinary
causes. 7 When a party argues that a court has acted beyond its legitimate authority, rather
than its jurisdiction, we look to five factors to guide our determination as to whether the
party's case is extraordinary and, therefore, deserving of relief by extraordinary writ.
Those factors are:
( 1) whether the party seeking the writ has no other adequate
means, such as direct appeal, to obtain the desired relief; (2)
whether the petitioner will be damaged or prejudiced in a way
that is not correctable on appeal; (3) whether the lower
tribunal's order is clearly erroneous as a matter of law; (4)
whether the lower tribunal's order is an oft repeated error or
manifests persistent disregard for either procedural or
substantive law; and (5) whether the lower tribunal's order
7

(2019).

State ex rel. Vanderra Res., LLC v. Hummel, 242 W. Va. 35, 829 S.E.2d 35, 40

7

App. 11

raises new and important problems or issues of law of first
impression. [&J
The third factor-whether the tribunal's order is clearly erroneous as a matter
oflaw-carries substantial weight. As we explained in Syllabus Point 1 of Hinkle v. Black,
this Court will use prohibition in this discretionary way to
correct only substantial, clear-cut, legal errors plainly in
contravention of a clear statutory, constitutional, or common
law mandate which may be resolved independently of any
disputed facts and only in cases where there is a high
probability that the trial will be completely reversed if the error
is not corrected in advance} 9l
We will not intrude in an ongoing proceeding in a lower tribunal to correct a
simple abuse of discretion. 10 We keep this standard in mind as we consider Petitioners'
arguments and the law that applies to them.

Sy!. Pt. 4, in part, State ex rel. Hoover v. Berger, 199 W. Va. 12, 483 S.E.2d 12
(1996). "Under this and similar standards applied in the past, the Court has consistently
found that a party aggrieved by a trial court's decision on a motion to disqualify may
properly challenge such ruling by way of a petition for a writ of prohibition." State ex rel.
Keenan v. Hatcher, 210 W. Va. 307,311,557 S.E.2d 361,365 (2001).
8

Sy!. Pt. 1, in part, Hinkle v. Black, 164 W. Va. 112, 262 S.E.2d 744 (1979)
(emphasis added) superseded by statute as stated in State ex rel. Thornhill Grp., Inc. v.
King, 233 W. Va. 564,570, 759 S.E.2d 795,802 (2014). See also State ex rel. W. Va. Reg'l
Jail Auth. v. Webster,_ W. Va._, 836 S.E.2d 510, 518 (2019) ("Moreover, a court
commits clear legal error when it incorrectly chooses, interprets, or applies the law.")
(internal quotation omitted).
9

See Sy!. Pt. 2, in part, State ex rel. Peacher v. Sencindiver, 160 W. Va. 314, 233
S.E.2d 425 (1977) ("A writ of prohibition will not issue to prevent a simple abuse of
discretion by a trial court.").
10

8

App. 12

III. DISCUSSION
Petitioners contend that the circuit court's order disqualifying Mr. Riddell
from representing them in their criminal cases is a clear violation of their right to the
assistance of counsel, guaranteed by the Sixth Amendment to the federal constitution and
article III, § 14 of the West Virginia Constitution. They argue that the circuit court
erroneously rejected their waivers of any current and potential conflicts that may arise due
to the joint representation. They also argue that the circuit court did not approach the
State's motion with the caution demanded by this Court's earlier decisions, including State

ex rel. Blake v. Hatcher, 11 Garlow v. Zakaib, 12 and State ex rel. Postelwaite v. Bechtold. 13
They contend that the circuit court erred by granting the State's motion before they had an
opportunity to conduct discovery and determine their strategy for trial.

Finally, they

contest the circuit court's decision to disqualify Mr. Riddell from all three of their cases,
rather than permitting him to continue to represent at least one of them. After considering
each of these arguments in view of the applicable law, we easily discern that Petitioners
have not shown that theirs is an extraordinary cause that merits extraordinary relief.

11

218 W. Va. 407, 624 S.E.2d 844 (2005).

12

186 W. Va. 457,413 S.E.2d 112 (1991).

13

158 W. Va. 479,212 S.E.2d 69 (1975).
9

App. 13

A. Petitioners' Rights to the Effective Assistance of Counsel
The Sixth Amendment to the United States Constitution and article III, § 14
of the West Virginia Constitution guarantee a criminal defendant the right to the assistance
of counsel. "The right of a criminal defendant to assistance of counsel includes the right
to effective assistance of counsel. " 14 "Where a constitutional right to counsel exists under
W.Va. Const. art. III, § 14, there is a con-elative right to representation that is free from
conflicts ofinterest." 15 A criminal defendant's "right to the effective assistance of counsel
is recognized not for its own sake, but because of the effect it has on the ability of the
accused to receive a fair trial." 16

"Given the necessarily close working relationship between lawyer and client,
the need for confidence, and the critical importance of tmst," the United States Supreme
Court "has held that the Sixth Amendment grants a defendant 'a fair opportunity to secure
counsel of his own choice. "' 17 Our cases recognize that right, too. 18 But, our cases also
recognize that a criminal defendant's right to choose her own counsel is not absolute.

14

Sy!. Pt. 1, Cole v. White, 180 W. Va. 393,376 S.E.2d 599 (1988).

15

Id. at Sy!. Pt. 2.

16

United States v. Cronic, 466 U.S. 648,658 (1984).

Luis v. United States, _ U.S. _ _, 136 S. Ct. 1083, 1089 (2016) (quoting
Powell v. Alabama, 287 U.S. 45, 53 (1932)).
17

See State ex rel. Blake, 218 W. Va. at 413, 624 S.E.2d at 850 (recognizing the
Sixth Amendment right to the counsel of one's choice and various limitations upon that
right).
18

10

App. 14

'" [W]hile the right to select and be represented by one's preferred attorney is
comprehended by the Sixth Amendment, the essential aim of the Sixth Amendment is to
guarantee an effective advocate for each criminal defendant rather than to ensure that a
defendant will inexorably be represented by the lawyer whom he prefers. "' 19 A defendant
has no right, for example, to an attorney who is not a member of the bar, or who has a
conflict of interest due to a relationship with an opposing party."20A criminal defendant
may waive her chosen counsel's conflict of interest with another party, but a trial court
may reject that waiver "where a potential for conflict exists which may or may not burgeon
into an actual conflict as the trial progresses."21 That is particularly true in cases where
one attorney represents criminal codefendants-an arrangement that is suspect even where
codefendants waive potential conflicts that may arise from the joint representation and not
just actual ones. Joint representation can, for example, "'preclude[] defense counsel ...
from expl01ing possible plea negotiations and the possibility of an agreement to testify for
the prosecution, provided a lesser charge or a favorable sentencing recommendation would

19

20

Id. (quoting Wheat v. United States, 486 U.S. 153, 159 (1988)).
Luis, 136 S. Ct. at 1089.

Wheat, 486 U.S. at 163. See, e.g., Sy!. Pt. 4, State ex rel. Michael A.P. v. Miller,
207 W. Va. 114, 529 S.E.2d 354 (2000) ("In a juvenile proceeding, the decision whether
to grant or deny a motion to disqualify a lawyer due to a conflict of interest is within the
sound discretion of the circuit court, even where the interested parties have waived any
conflict.").
21

11

App. 15

be acceptable. "' 22

The West Virginia Rules of Professional Conduct recognize the

potential conflicts created by joint representation in criminal cases and advise attorneys
that "[t]he potential for conflict of interest ... is so grave that ordinarily a lawyer should
decline to represent more than one codefendant." 23 So, while a single attorney may
represent criminal codefendants without necessarily violating "constitutional guarantees of
effective assistance of counsel" the arrangement's tendency to create conflicts of interest
requires a court to "take adequate steps to ascertain whether the conflicts warrant separate
counsel. " 24

Cole, 180 W. Va. at 399 n.11, 376 S.E.2d at 605 n.11 (quoting Holloway v.
Arkansas, 435 U.S. 475, 489-90 (1978)).
22

23

W. Va. R. Pro. Conduct 1.7, Cmt. 23.

24

Wheat, 486 U.S. at 60 (quotations omitted).

12

App. 16

West Virginia Rule of Criminal Procedure 44(c)25 mandates a circuit court
to act when a single attorney represents criminal codefendants. 26 The rule "requires trial
courts to 'promptly inquire with respect to such joint representation and ... personally
advise each defendant of his right to effective assistance of counsel, including separate
representation. ,,,27 The rule also requires a court to protect each criminal defendant's right
to counsel when required by the facts and circumstances of a particular case. "The standard
for taking some affirmative action under Rule 44( c) of the West Virginia Rules of Criminal
Procedure is the trial court's belief that a conflict of interest is likely to arise. This is a
lower standard than the Sixth Amendment's requirement of demonstrating an actual

25

The rule states,
Joint representation. - Whenever two or more
defendants have been jointly charged pursuant to Rule 8(b) or
have been joined for trial pursuant to Rule 13, and are
represented by the same retained or assigned counsel or by
retained or assigned counsel who are associated in the practice
of law, the court shall promptly inquire with respect to such
joint representation and shall personally advise each defendant
of the right to effective assistance of counsel, including
separate representation. Unless it appears that there is good
cause to believe no conflict of interest is likely to arise, the
court shall take such measures as may be appropriate to protect
each defendant's right to counsel.

Specifically, Rule 44(c) applies where "two or more defendants have been jointly
charged pursuant to Rule 8(b) or have been joined for trial pursuant to Rule 13, and are
represented by the same retained or assigned counsel or by retained or assigned counsel
who are associated in the practice of law .... " The State represented in its motion to
disqualify Mr. Riddell that it plans to try Petitioners jointly. Petitioners do not assert
otherwise.
26

27

Syl. Pt. 5, Cole, 180 W. Va. at 393,376 S.E.2d at 599 (emphasis added).
13

App. 17

prejudice." 28 That holding and the rule's clear language direct a court to take appropriate
action to prevent a conflict of interest that threatens a criminal defendant's right to counsel
even if that conflict has not yet materialized. And, the rule requires a court to "promptly
inquire" about joint representation in a particular case; so, a court should not wait until the
eve of trial to determine whether the multiple representation is likely to give rise to a
conflict of interest. 29 With this law in mind, we take up Petitioners' arguments as to why
this Court should grant the requested writ.

B.

No Relief in Prohibition
We make several observations before analyzing the circuit cou1t's order for

°

clear legal error or a flagrant abuse of discretion. 3 First, Petitioners acknowledge that their
right to the counsel of their choice is not absolute. Second, they acknowledge that the joint
representation arrangement in this instance creates both a concurrent and potential conflict
of interest for Mr. Riddell, as their conflict waivers demonstrate.

Finally, they

Id. at Sy!. Pt. 6 (emphasis added). See also Wheat, 486 U.S. at 163 (stating that
court does not have to accept criminal defendant's waiver of defense counsel's conflict of
interest "where a potential for conflict exists which may or may not burgeon into an actual
conflict as the trial progresses").
28

29

See Wheat, 486 U.S. at 162 (stating that "a district court must pass on the issue
whether or not to allow a waiver of a conflict of interest by a criminal defendant ... in the
murk[y] pre-trial context when relationships between parties are seen through a glass,
darkly").
Petitioners do not argue the remaining four Hoover factors, or they make only
passing reference to them. Thus, we limit our analysis to whether the circuit court
committed clear legal error or a flagrant abuse of its discretion by granting the State's
motion to disqualify Petitioners' counsel.
30

14

App. 18

acknowledge that West Virginia Rule of Criminal Procedure 44(c) applies to cases like
theirs, where one attorney represents two or more defendants jointly charged or joined for
trial.

Petitioners' primary argument in support of the requested writ is that the
circuit court's order is a clear, legal error or a flagrant abuse of discretion because they
waived any current or potential conflicts that may arise due to the joint representation
arrangement with Mr. Riddell. But that argument fails because Petitioners acknowledged
that the joint representation arrangement in this case had the potential to create a conflict
of interest for Mr. Riddell, and, in fact, already had. There is no dispute that the State
offered cooperation plea agreements to Petitioners before October 21, 2019, when the State
first moved to disqualify Mr. Riddell. So, the State's offer of cooperation plea agreements
created an actual conflict of interest for Mr. Riddell because he could not advise one
Petitioner without violating his professional obligations to the other. And, Petitioners
admitted in their conflict waivers that the State would likely offer plea agreements as their
cases progressed, demonstrating the strong possibility that future conflicts would arise.

Our cases provide that there is a presumption in favor of Petitioners' choice
of Mr. Riddell as counsel. But, those cases also recognize that the presumption '"may be
overcome not only by a demonstration of actual conflict but by a showing of a serious

15

App. 19

potential for conflict. "'31 Because Mr. Riddell's joint representation of Petitioners had
already created an actual conflict of interest, and threatened additional serious conflicts in
the future, we cannot say that the circuit court clearly erred as a matter of law or flagrantly
abused its discretion when it granted the State's motion to disqualify Mr. Riddell,
regardless of Petitioners' waivers.

Petitioners next make several arguments to support the same conclusion: that
the circuit court clearly erred because it did not approach the State's motion to disqualify
with appropriate caution. They warn that, if left unchecked, the circuit court's order will
upset the apple cart of our earlier decisions regarding motions to disqualify criminal
defense counsel. They forecast that the circuit court's order and its reliance on potential
conflicts signals the end of joint representation in any criminal case. We do not agree with
Petitioners' assessment of our earlier opinions nor do we agree with Petitioners' gnm
projection for the future of multiple representation arrangements.

Petitioners rely primarily on State ex rel. Blake v. Hatcher for their argument
that the circuit court clearly erred as a matter of law when it granted the State's motion to
disqualify because "[ s]uch motion should be viewed with extreme caution because of the

31

Blake, 218 W. Va. at 415, 624 S.E.2d at 852 (quoting Wheat, 486 U.S. at 164).
16

App. 20

interference with the lawyer-client relationship."32 We easily distinguish Blake and the
portion of that opinion heralded by Petitioners.

We do not find it necessary to recount the particulars of Blake because the
syllabus points originated in that case make clear the circumstances in which they apply:
"circumstances where there appears to be an actual conflict of interest or where there is a
significant potential for a serious conflict of interest involving defense counsel's former (or

current) representation of a State witness" 33 and motions to disqualify "a criminal
defendant's counsel of choice due to counsel's former representation of a State witness ..
. . " 34

Indisputably, the circuit court disqualified Mr. Riddell due to the likelihood that

conflicts of interest would arise due to his joint representation of Petitioners, not because
he formerly represented a State's witness.

That is a critical distinction.

It places

Petitioners' cases in the Rule 44(c) basket rather than the Blake basket. So, while our
discussion of a criminal defendant's right to effective counsel in Blake is informative, the
particular holdings relied upon by Petitioners are not applicable to their case and do not

See id. at Sy!. Pt. 2 ("'A circuit court, upon motion of a party, by its inherent
power to do what is reasonably necessary for the administration of justice, may disqualify
a lawyer from a case because the lawyer's representation in the case presents a conflict of
interest where the conflict is such as clearly to call in question the fair or efficient
administration of justice. Such motion should be viewed with extreme caution because of
the interference with the lawyer-client relationship.' Syllabus Point 1, Garlow v. Zakaib,
186 W.Va. 457,413 S.E.2d 112 (1991).").
32

33

Id. at Sy!. Pt. 3, in part (emphasis added).

34

Id. at Sy!. Pt. 4, in part (emphasis added).
17

App. 21

demonstrate that the circuit court's order is a clear error of law or a flagrant abuse of its
discretion.
Petitioners also point to Syllabus Point 3 of State ex rel. Postelwaite v.
Bechtold. In that case, the circuit court had granted habeas relief to jointly-represented

criminal defendants on the ground that that arrangement rendered their trial counsel's
assistance ineffective and so violated the defendants' Sixth Amendment rights. 35 We
reversed the circuit court and held that "joint representation by counsel of two or more
accused,jointly indicted and tried is not improper per se; and, one who claims ineffective

assistance of counsel by reason of conflict of interest in the joint representation must
demonstrate that the coriflict is actual and not merely theoretical or speculative." 36

Petitioners seize on this language from Postelwaite and conclude that the
circuit court improperly disqualified Mr. Riddell based on a likely conflict rather than an
actual one. However, "[t]he Postelwaite standard applies in reviewing a conviction of a

criminal defendant on appeal. Pursuant to Rule 44(c) of the West Virginia Rules of
Criminal Procedure, a different standard must be applied by the trial court in initially
determining whether joint representation is proper." 37 Obviously, Petitioners have not been
convicted nor do we review the circuit court's order on direct appeal. So, under the
35

158. W. Va. at 480,212 S.E.2d at 70.

36

Id. at Sy!. Pt. 3.

37

State v. Reedy, 177 W. Va. 406,411 n.6, 352 S.E.2d 158, 163 n.6 (1986).

18

App. 22

circumstances of Petitioners' cases, the circuit court c011'ectly applied "[t]he standard for
taking some affirmative action under Rule 44(c) of the West Virginia Rules of Criminal
Procedure [that] is the trial court's belief that a conflict of interest is likely to arise." 38
Postlewaite, just like Blake, is inapposite.

We briefly address Petitioners' remaining arguments. They contend that the
circuit court flagrantly abused its discretion because it granted the State's motion to
disqualify Mr. Riddell before discovety. This argument overlooks that Rule 44( c) requires
a trial court to inquire promptly into potential conflicts of interests in cases of joint
representation as well as the purpose of the rule: to avoid "the occurrence of events which
might othetwise give rise to a plausible post-conviction claim that because of joint
representation the defendants in a criminal case were deprived of their Sixth Amendment
right to the effective assistance of counsel. " 39 That is why, at least in the context of multiple
representation, a circuit court "must pass on the issue whether or not to allow a waiver of
a conflict of interest by a criminal defendant ... in the murk[y] pre-trial context when
relationships between parties are seen through a glass, darkly. " 40

So, based on the

particular facts of this case, we conclude that the circuit court committed neither a clear

38

Sy!. Pt. 6, in part, Cole, 180 W. Va. at 393,376 S.E.2d at 599.

39

Fed. R. Crim. P. 44, 1979 Cmt.

40

Wheat, 486 U.S. at 162.

19

App. 23

error oflaw nor a flagrant abuse of its discretion by granting the State's motion to disqualify
Mr. Riddell before the parties engaged in discovery.

Finally, Petitioners assert that the circuit court erred when it disqualified Mr.
Riddell from representing all three of them, rather than taking a less drastic measure. Rule
44( c) does not specify what particular measures a court must take to preserve a criminal
defendant's right to the effective assistance of counsel. Rather, the 1979 commentary to
the rule's federal counterpart, Federal Rule of Criminal Procedure 44(c), states that "[i]t is
appropriate to leave this within the court's discretion, for the measures which will best
protect each defendant's right to counsel may well vary from case to case." In this case,
the circuit court observed that it was ve1y likely that Petitioners had shared information
with Mr. Riddell because he had represented them for some time. The court reasoned that
if it permitted Mr. Riddell to continue to represent even one Petitioner, an onlooker might
question the fairness of the proceedings because Mr. Riddell had been privy to
conversations with the others. "[C]ourts have an independent interest in ensuring that
criminal trials ... appear fair to all who observe them." 41 Therefore, we do not find that
the circuit court flagrantly abused its discretion by disqualifying Mr. Riddell from this
criminal proceeding, entirely.

41

Wheat, 486 U.S. at 160.
20

App. 24

IV. CONCLUSION

In sum, Petitioners have not shown that the circuit court's order of December
11, 2019 disqualifying Mr. Riddell from representing them further in their criminal cases
is either a clear error of law or a flagrant abuse of the circuit court's discretion.
Accordingly, we deny the requested writ.

Writ denied.

21

App. 25

No. 19-1160 - State of West Virginia ex rel. June Yurish,
Kristin Douty and Christina Lester v. The Honorable
Laura Faircloth, Judge of the Circuit Court of Berkeley County

FILED
May 28, 2020
released at 3:00 p.m.

EDYTHE NASH GAISER, CLERK

SUPREME COURT OF APPEALS

OF WEST VIRGINIA

Justice Workman, dissenting:
Because there is no actual or apparent conflict of interest on the part of
defense counsel in this case, and nothing in the record to suggest that counsel's joint
representation of the petitioners would "call in question the fair or efficient administration
of justice," Sy!. Pt. 2, in part, State ex rel. Blake v. Hatcher, 218 W. Va. 407, 624 S.E.2d
844 (2005), the circuit court's disqualification order unlawfully deprived the petitioners of
their Sixth Amendment right to retained counsel of their choice. Accordingly, I would
grant the writ.

I agree with the majority that as a general rule,
[a] circuit court, upon motion of a party, by its inherent
power to do what is reasonably necessary for the
administration of justice, may disqualify a lawyer from a case
because the lawyer's representation in the case presents a
conflict of interest where the conflict is such as clearly to call
in question the fair or efficient administration of justice.
Sy!. Pt. 1, in part, Garlow v. Zakaib, 186 W. Va. 457,413 S.E.2d 112 (1991). Accordingly,
this Court has properly concluded that in cases where defense counsel has an evident or
actual conflict of interest, the trial court has wide latitude in determining whether a
1

App. 26

defendant's interest in effective representation of counsel overrides his or her interest in
representation by a particular lawyer. See, e.g., State ex rel. Blake v. Hatcher, 218 W. Va.
407,417, 624 S.E.2d 844, 854 (2005) (where defense counsel had previously represented
State's witness, as well as members of witness's family, court is required to hold a hearing
to determine "whether a conflict of interest should overcome the presumption in favor of
defendant's choice of counsel"); State ex rel. Michael A.P. v. Miller, 207 W. Va. 114, 11617, 529 S.E.2d 354, 356-57 (2000) (attorney's representation of two juveniles created
actual conflict of interest where one juvenile was expected to be a witness against the
other); State v. Livingston, 179 W. Va. 206, 208-09, 366 S.E.2d 654, 656-57 (1988)
(clients' interests were not compatible and record contained no evidence that they had
waived any conflict of interest on attorney's part); Cole v. White, 180 W. Va. 393, 399, 376
S.E.2d 599, 605 (1988) (attorney's conflict of interest resulted in his inability to effectively
present evidence and cross examine witnesses); State v. Reedy, 177 W. Va. 406, 411-12,
352 S.E.2d 158, 163-64 (1986) (attorney's conflict of interest not revealed to his client
prior to trial).

This wide latitude, however, is tempered by our admonition that,
[t]he joint representation by counsel of two or more accused,
jointly indicted and tried is not improper per se; and, one who
claims ineffective assistance of counsel by reason of conflict
of interest in the joint representation must demonstrate that the
conflict is actual and not merely theoretical or speculative.

2

App. 27

Syl. Pt. 3, State ex rel. Postelwaite v. Bechtold, 158 W. Va. 479, 212 S.E.2d 69 (1975);

see also State v. Mullins, 181 W. Va. 415, 422, 383 S.E.2d 47, 54 (1989) (where both
defendants had alibi defenses, "their interests were more compatible as opposed to
conflicting" and counsel did not have an actual conflict of interest); State v. Haddix, 180
W. Va. 71, 74, 375 S.E.2d 435, 437-38 (1988) ("[c]onjecture and surmise will not suffice
to brand counsel, appointed or retained, ineffective in the representation of one accused of
crime") (citing Postelwaite, 158 W. Va. at 489,212 S.E.2d at 75)).

In the instant case, the sole ground on which the State moved to disqualify
defense counsel was that he would not be able to advise his clients as to the existence of,
or the desirability of, any proffered plea agreements. Under the facts and circumstances of
this case, the State's argument was woefully insufficient to raise a legitimate concern about
the adequacy of counsel's representation and, thus, to overcome the petitioners' Sixth
Amendment right to select counsel of their choice. In this regard, the United States
Supreme Court has held that"[w ]e have little trouble concluding that erroneous deprivation
of the right to counsel of choice, 'with consequences that are necessarily unquantifiable
and indeterminate, unquestionably qualifies as "structural error.""'

United States v.

Gonzalez-Lopez, 548 U.S. 140, 150 (2006) (citing Sullivan v. Louisiana, 508 U.S. 275,282
(1992)); see also Luis v. United States, 136 S. Ct. 1083, 1089 (2016) ("the constitutional
right at issue here is fundamental: '[T]he sixth Amendment guarantees a defendant the right

3

App. 28

to be represented by an otherwise qualified attorney whom that defendant can afford to
hire. "')(citing Caplin & Drysdale, Chartered v. United States, 491 U.S. 617, 624 (1989)). 1

First, it is troubling that the majority glosses over the critical fact that the
circuit court did not find the existence of an actual conflict of interest on counsel's part,
despite the State's effort to create one. 2 In this regard, the circuit court specifically
concluded that "there is not an actual conflict of interest at this early stage in the
proceedings of discovery but [the court] does believe that sufficient argument and
information has been provided to the Court that the Court can and does find that there is a
significant potential for a serious conflict of interest."3 (Emphasis added.) This belief, in
tum, was based on the State's representation that "it may be willing to make different

Although this Court has never had occasion to discuss this issue in length, we have
recognized that not only the Sixth Amendment to the United States Constitution but also article
III,§ 14 of the West Virginia Constitution guarantees an accused the right to counsel of his or her
choice, within certain constraints. State v. Heater, 237 W. Va. 638, 647, 790 S.E.2d49, 58 (2016);
cf Watson v. Black, 161 W; Va. 46, 51, 239 S.E.2d 664, 667 (1977) (acknowledging that
defendant's right to retain counsel of his or her choice is "absolute").
1

The State sent identical plea offers to each petitioner one day after defense counsel had
refused to disqualify himself and before the petitioners had even been arraigned - suspect timing,
to say the least. Further, no one with any experience in the prosecution or defense of criminal cases
would consider these offers to be genuine attempts to come to an agreement. The offers required
the petitioners to plead guilty and testify against their codefendants, in return for which they would
"have the opportunity to inform the Court that [they] accepted responsibility and fully cooperated
with the state." Indeed, the circuit court apparently did not consider these plea offers to be "real,"
inasmuch as the court did not find them sufficient to create an actual conflict of interest on the part
of defense counsel.
2

3

See transcript of hearing, November 18, 2019, pp. 26-27 (emphasis added).
4

App. 29

cooperation plea offers from those already made."4 In short, the court accepted the State's
invitation to "brand counsel" based on nothing other than conjecture and surmise -specifically, conjecture and surmise that the State might be willing at some time in the
future to propose a better plea deal that might be in one of the petitioners' best interests to
accept. Postelwaite, 158 W. Va. at 489,212 S.E.2d at 75.

Second, disqualification of counsel based on the mere possibility that the
State might, in the future, offer a plea bargain to one or more of the petitioners, will
effectively eliminate joint representation of defendants in a criminal case, because the
possibility exists in every case that the State could offer a plea deal. In this regard, although
no one can deny that joint representation entails very real risks that must be evaluated by
the attorney, the client, and the court, Rules l.7(a) & (b) of the West Virginia Rules of
Professional Responsibility, the State's interest in plea bargaining does not implicate the
"institutional interest in protecting the truth-seeking function of the proceedings ... the
institutional legitimacy of judicial proceedings ... [or] a concern to shield a defendant
from having his defense compromised by an attorney with divided loyalties." Michael A.P.,
207 W. Va. at 120, 529 S.E.2d at 360 (internal citation omitted); see also Syl. Pt. 2, in part,

Blake, 218 W. Va. at 409, 624 S.E.2d at 846 (disqualification of lawyer for conflict of
interest proper only "where the conflict is such as clearly to call in question the fair or

See State's Reply to Defendant's [sic] Response to the State's Motion to Disqualify
Defense Counsel, November 14, 2019, p. 6 (emphasis added).
4

5

App. 30

efficient administration of justice. Such motion should be viewed with extreme caution
because of the interference with the lawyer-client relationship."). Rather, the State has one
of two interests in extending a plea offer: a plea agreement, if accepted, can obviate the
necessity of proving the defendant's guilt beyond a reasonable doubt to a jmy, or, in a
multi-defendant case, a plea agreement with one defendant can strengthen the State's case
against the remaining defendant or defendants. A defendant, on the other hand, has one and
only one interest in accepting a plea offer: eliminating or at least reducing the severity of
the sentence. In short, although both sides in a criminal case have very real interests in the
possibility of a plea bargain, those interests are not sufficient to warrant interference with
a defendant's constitutionally protected right to be represented by a retained lawyer of his
or her own choosing.

Third, while this Court has held that "[t]he failme of defense counsel to
communicate any and all plea bargain proposals to the defendant constitutes ineffective
assistance of counsel, absent extenuating circumstances," 5 we have never held that an adult
defendant, 6 being fully apprised of the consequences of his or her actions, cannot waive
that right. See, e.g., Montgomery v. Ames, 241 W. Va. 615,625, 827 S.E.2d 403,413 (2019)

5

(1999).

See Sy!. Pt. 3, in part, Becton v. Hun, 205 W. Va. 139,144,516 S.E.2d 762,767

In Michael A.P., where the juvenile defendant had executed a waiver of his counsel's
conflict of interest, we noted that "[i]uveniles, who are necessarily of tender years and limited
experience, may be unable to fully understand all the implications of, and the consequences that
may flow from, such a waiver." 207 W. Va. at 121, 529 S.E.2d at 361.
6

6

App. 31

("An accused may waive sundry constitutional rights and privileges, if he or she does so

intelligently and voluntarily.") In the instant case not only did each petitioner sign a
detailed waiver, but also the circuit court held a W. Va. R. Crim. P. 44( c)7 colloquy with
each, with detailed explanations and warnings concerning the perils of joint representation.
The following is representative of the probing nature of the colloquies held with each of
the three petitioners:
THE COURT: Do you understand that the state is always
allowed to offer a plea to any defendant and may choose to
offer a plea to any one of you for example but not by way [of]
limitation in exchange for cooperation against the other
defendants specifically for example in this case about any
intent or reason that certain conduct did or did not occur?
DEFENDANTDOUTY: Yes.
THE COURT: Do you understand that you may desire at some
point in the process to speak with the state about a plea and are
being advised by your attorney that he may need to withdraw
from representing all of you because of that request?
DEFENDANT DOUTY: Yes.

'Rule 44(c) of the West Virginia Rules of Criminal Procedure provides:
Joint representation. - Whenever two or more defendants have been
jointly charged pursuant to Rule 8(b) or have been joined for trial
pursuant to Rule 13, and are represented by the same retained or
assigned counsel or by retained or assigned counsel who are
associated in the practice of law, the court shall promptly inquire
with respect to such joint representation and shall personally advise
each defendant of the right to effective assistance of counsel,
including separate representation. Unless it appears that there is
good cause to believe no conflict of interest is likely to arise, the
court shall take such measures as may be appropriate to protect each
defendant's right to counsel.

7

App. 32

THE COURT: And finally are you sure that there can be no
set of circumstances that may atise that would cause a conflict
for your attorney to represent all three of you?
DEFENDANT DOUTY: Yes, there's not any conflict.
THE COURT: And you're sure moving forward in the future
there would never be one?
DEFENDANT DOUTY: No ma'am. 8
Finally, it should be noted that if the legal landscape in this case were to
change in the future, and an actual conflict of interest were to arise, then our system of
justice must rely upon the integrity of counsel to do what he specifically assured the circuit
court he would do:
[A ]t the moment that one of [the defendants] comes to me with
information that I feel like using or not using will hurt them
and help their codefendants I think I have a conflict that would
probably cause me to have to withdraw but at this point each
one of them has a right to have their chosen defense counsel. 9
Although a late-stage withdrawal of defense counsel under such circumstances could result
in some inconvenience to the court, i.e., the necessity of rescheduling deadlines, hearing
dates and/or even a trial date, there can be no principled argument that possible
inconvenience to the court in the future is sufficient to overcome the petitioners' Sixth
Amendment rights in the here and now.

Transcript of December 10, 2019, Hearing, p. 6.
'TranscriptofNovember 18, 2019, Hearing,p.13.
8

8

App. 33

In summary, the circuit court's order disqualifying defense counsel deprived the
petitioners of their Sixth Amendment right to retained counsel of their choice - a choice
they made in full appreciation of all relevant facts and circumstances, and with full
knowledge of the attendant risks. Accordingly, I respectfully dissent.

9

App. 34

STATE OF WEST VIRGINIA
At a Regular Term of the Supreme Court of Appeals continued and held at Charleston,
Kanawha County, on September 3, 2020, the following order was made and entered:
State of West Virginia ex rel.
June Yurish, Kristin Douty, and Christina Lester,
Petitioners
vs.) No. 19-1160
The Honorable Laura V. Faircloth,
Judge of the Circuit Court of Berkeley County,
and The State of West Virginia,
Respondents

ORDER
The Court, having maturely considered the petition for rehearing filed by the petitioner's,
June Yurish, Kristin Douty, and Christina Lester, by counsel, Christian J. Riddell, Riddell Law
Group, is of opinion to and does hereby refuse said petition for rehearing.Justice Workman would
grant the petition.

A True Copy

Attest: /s/ Edythe Nash Gaiser
Clerk of Court

App. 35

STATE OF WEST VIRGINIA
At a Regular Term of the Supreme Court of Appeals, continued and held at Charleston,
Kanawha County, on the nth day of September, 2020, the following order was made and entered:
State of West Virginia ex rel.,June Yurish,
Kristin Douty, and Christina Lester,
Petitioners
vs.)

No. 19-1160

The Honorable Laura V. Faircloth,Judge of the
Circuit Court of Berkeley County, and
The State of West Virginia,
Respondents

MANDATE
Pursuant to Rule 26 of the Rules of Appellate Procedure, the opinion previously issued in
the above-captioned case is now final and is hereby certified to the Circuit Court of Berkeley
County (Case Nos.19-M-7, 19-M-8, 19-M-9) and to the parties. The writ of prohibition prayed for
by the petitioner is hereby denied. The Clerk is directed to remove this action from the docket of
this Court.
A True Copy
Attest: / sf Edythe Nash Gaiser
Clerk of Court

App. 36

1

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
23rd Judicial Circuit

1
2
3

STATE OF WEST VIRGINIA,
PLAINTIFF,

4

Case Numbers:
19-M-7,
19-M-8, 19-M-9

5

V.

6

KRISTIN DOUTY, CHRISTINA LESTER, &

7

JUNE YURISH,

8

DEFENDANTS.

9

10

TRANSCRIPT OF PROCEEDINGS HELD before the Honorable

11

Laura V. Faircloth, Judge, on the MOTION in the above-styled

12

matter on Thursday the 18th day of November 2019, at 9:30 a.m.

13
14
15

APPEARANCES:
On Behalf of the State of West Virginia:

16

CATIE WILKES-DELLIGATTI, PROSECUTING ATTORNEY

17

KEVIN WATSON, ASSISTANT PROSECUTING ATTORNEY

18
19

On Behalf of the Defendant(s):
CHRISTIAN RIDDELL, ESQUIRE

20
21
22
23
24

(Monday, November 18, 2019, 9:30 a.m.)
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 37

2

1

THE COURT:

Good morning, counsel.

We are on the record

2

now in cases 19-M-7 Kristin Douty, 19-M-8 Christina Lester,

3

19-M-9 June Yurish.

4

for the record and whom it is they represent.

5
6
7
8
9

MR. WATSON:

Could I have counsel identify themselves

Catie Delligatti and Kevin Watson for the

state.
MR. RIDDELL:

Chris Riddell on behalf of defendants

Lester, Douty, and Yurish, your Honor.
THE COURT:

All right.

Thank you so much.

Now we are

10

here this morning I believe on the state's motion so Mr.

11

Watson I'll allow you and Ms. Delligatti to open and close on

12

your motion.

13

MR. WATSON:

Thank you, your Honor.

The motion to

14

disqualify defense counsel we filed briefs.

15

make sure your Honor has those our motion and responsive

16

brief.

17

THE COURT:

18

MR. WATSON:

I just want to

I do.
I think the gravamen of that motion -- we

19

put everything in writing for,

your Honor -- is that our job

20

is to seek justice and we want to make sure that if a

21

conviction is made by the state that the conviction can stand

22

and I would note that we at a bare minimum would need a

23

colloquy with these defendants noting that defense counsel

24

cannot guarantee whether that recording will be admissible or
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 38

3

1

not admissible that the defendant -- that when we don't have

2

discovery yet defendants, you know, defendants can't guarantee

3

whether if that's the only way we can prove our case and that

4

they understand that they're giving up a lot in this but maybe

5

we need more than that, Judge.

6

disqualification.

7

thing I do want to note is defense counsel's reference to Mr.

8

Steven Askin I think is wholly misplaced.

9

no longer has a law license based on some activities.

We made need a

I'll leave it up to your Honor and the one

I believe Mr. Askin
I also

10

want to note that in that very case he cited about the

11

defendants' counsel representing multiple defendants there was

12

a mistrial declared in that case, Judge, and defense counsel's

13

own firm is currently making a claim that Mr. Askin was

14

ineffective in that case under 16-C-209 which is before your

15

Honor.

16

asking for disaster.

17

Judge.

18

So for us to follow the model I think is frankly
That brings me back to the main point,

We want to make sure that if we have a trial and obtain a

19

conviction that that conviction can stand and that's the

20

gravamen of our motion and we think the motion was necessary

21

so that at a minimum it would be a colloquy and, you know, if

22

necessary we can have independent attorneys for each of these

23

criminal defendants.

24

THE COURT:

Thank you, Judge.

All right.

Thank you.

Mr. Riddell, what

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 39

4

1

about the Askin's

2

MR. RIDDELL:

Your Honor, yeah, that's what I'd like to

3

begin with.

I find that response flippant and beside the

4

point, your Honor.

5

defense counsel in that case.

6

party there should have been of interest to the Court and the

7

decision -- the reason that I cited it it was Judge Patrick

8

Henry who decided to initiate the proceedings to ascertain the

9

nature of whether there would be an actual conflict and what

Mr. Askin essentially is simply the
The principal actor, the moving

10

the trial strategies were to be imposed.

11

Judge Mike Lorensen and retired Judge David Sanders who were

12

appointed to that case who conferred independently with the

13

codefendants and both returned their professional opinions

14

that no conflict was actually present because the codefendants

15

did not intend to testify against each other as part of their

16

trial strategy in any way.

17

18

And current Chief

Whatever Mr. Askin did --

THE COURT: -- wait a minute, Mr. Riddell, when I
interrupt you have to be quiet.

19

MR. RIDDELL:

20

THE COURT:

Yes, your Honor.

I'm sorry.

So, when you're talking about the appointment

21

of these individuals to confer privately with the current

22

defendants at that time what stage in the proceedings was it?

23

Was it before discovery?

24

because that's a pretty important point at this juncture.

Was it in the middle of discovery

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 40

5

1

MR. RIDDELL:

I cannot remember exactly, your Honor, but

2

I think it was significantly further along than we are right

3

now at initial appearance I can tell you that.

4

also tell you is before this had happened there had been a

5

mistrial declared because it had become known that one of

6

those two individuals had hired the same lawyer, that there

7

was an opportunity that one of them may testify against the

8

others.

9

want to do so and so a mistrial was declared on that basis.

In fact,

What I can

I think at one point one of them did in fact

10

However, subsequently Judge Henry decided to engage in a

11

colloquy and hold a hearing on the issue of conflict, appoint

12

individual counsel for the two co-defendants who discussed the

13

potential conflict issue, and have those lawyers return there

14

opinion as to whether a conflict existed.

15

codefendants essentially changed their mind I think it was,

16

decided that they did not wish to call the other to testify,

17

and that's kind of how that went so and, you know --

18
19
20

THE COURT:

At that time the

Explain to the Court again why there was a

mistrial if it's not relevant to the issues before the Court.
MR. RIDDELL:

So I found this case by simply digging

21

through the records and in court hearings and the court

22

records downstairs.

23

It was actually in a previous case that a mistrial was

24

declared.

So I am not privy to every single fact.

The state brought the case again but I believe
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 41

6

1

based on the context of what I was reading that one of the

2

codefendants at the prior trial decided that he wanted to call

3

another codefendant as witness who may have been adverse to

4

him in some way and Mr. Askin had represented both of them.

5

I'm not a hundred percent on that.

6

THE COURT:

But isn't that always a danger in cases where

7

there are more than one defendant that in fact they may at

8

some point during discovery decide that it's in their best

9

interest to change their plea perhaps and enter a no contest

10

plea with no time as often I see the state do in exchange for

11

testimony and shouldn't they be secondarily if that was the

12

defendant -- any one of defendants' choice shouldn't that be

13

their right and shouldn't they not be constricted in having

14

the same attorney who does find himself in conflict at some

15

point?

16

MR. RIDDELL:

It is absolutely their right, your Honor,

17

and I noted so in my brief.

However, it is also their Sixth

18

Amendment right to have the counsel of their choice and at

19

this point they have decided that they would wish to forego

20

any opportunities to entertain a cooperative plea agreement in

21

exchange for having full representation by me the counsel of

22

their choice.

23

and I have told them so and if at any point any one of you --

24

forget about actually taking a plea and actually testifying

They can change their mind on that at any point

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 42

7

1

all you have to do is decide that they would like to entertain

2

that option and I have told them I'll have to withdraw.

3

withdraw from all three of them but we are not there yet and

4

the state does not get to force that decision upon these

5

defendants who have a Sixth Amendment right to counsel which

6

has been stated to be of a constitutional dimension.

7
8
9

THE COURT:

All right.

I'll

Did you have anything else you

wanted to say -MR. RIDDELL:

I mean I could go through

I was prepared

10

to go through all the factors that I list in my brief today if

11

you'd like to hear them.

12

THE COURT:

13

MR. RIDDELL:

Go right ahead.
There's some case law very much on point

14

for this and I cite as much in my brief.

The Sixth Amendment

15

guarantees a defendant the right to be represented by an

16

otherwise qualified attorney who that defendant can afford to

17

hire that believes the United States -- they say further we

18

have consistently recognized that the rights of a defendant to

19

retain counsel to be represented by that counsel is wholly a

20

right of constitutional dimension.

21

think is really the seminal case from the West Virginia

22

Supreme Court as to what this Court should consider when

23

evaluating a motion by the state for disqualification it

24

states that while the state does have the right to challenge

In Rees v. Hatcher which I

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 43

8

1

the defendant's choice of representation or when the conflict

2

is such as to freely call into question the fair

3

administration of justice such an objection should be viewed

4

with caution for it can be misused as a technique of

5

harassment.

6

part of a divide and conquer strategy and that they do feel

7

harassed about it.
THE COURT:

8
9

And the defendants very much believe that this is

All right.

Let's go to the points then in

Hatcher.

10

MR. RIDDELL:

11

THE COURT:

Yes, your Honor.
I did read your response and looking at page

12

3 you're quoting the factors and accordingly the Hatcher case

13

says that there are factors which the circuit court should -MR. RIDDELL:

14
15
16

Yes, your Honor, I'll go through them right

now.
THE COURT:

in conducting this status let's go one at

17

a time and I want to hear from the state -- they go last -- so

18

I want to hear from the state what other factors they believe

19

the Court ought to raise.

20

for confidential information by defendants' counsel in

21

cross-examining state's witnesses.

22

difficult thing for you to be able to actually weigh in on at

23

this point.

24

MR. RIDDELL:

The first one is the potential use

Seems like a very

It sure would be and if the state had a

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 44

9

1

witness that they intended to produce for testimony who were

2

my former clients I think I'd have a big problem, your Honor,

3

but they have no such witness.

4

witness but that's not their right.

5

to one of these defendants and say that's my potential witness

6

you can't represent them.

7

Amendment right to remain silent and to not testify in their

8

case, that's clear black letter law.

9

that --

10

THE COURT:

11

though yet, correct?

12
13
14

MR. RIDDELL:

They would like to have a
They do not get to point

These defendants have a Sixth

There is no witness here

Well, they haven't identified their witnesses

They can't use these individuals as a

witness without consent.
THE COURT:

I understand but, Mr. Riddell.

The potential

15

use of confidential information by the defendants' counsel

16

cross-examining the state's witnesses that doesn't necessarily

17

mean that these defendants have to be called by the state.

18

There are other witnesses that the state may call and you may

19

have gathered confidential information from one of your

20

clients that would be adverse to another one them and you

21

might back off on your cross-examination.

22

this --

23
24

MR. RIDDELL:

No, your Honor.

I think that's what

I am pretty certain that

this refers specifically to the confidential information that
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 45

10

1

a lawyer might obtain through the attorney/client

2

relationship.

3

THE COURT:

4

MR. RIDDELL:

Absolutely.
So the witness that we are speaking of

5

the hypothetical witness here -- would have to be someone that

6

I represented who has an attorney/client relationship with me

7

who shared a confidential relationship with me.

8

duty of confidentiality between any one of these defendants

9

and some other potential witness who I did not represent,

10

There is no

that's not what this is about.
THE COURT:

11

Well, what are you going to do if one of your

12

defendants comes to you privately and says I need to talk to

13

you.

14

the beginning of that representation.

15

interest to let you know about it.

16

that information in a way that you're not perhaps vigorously

17

cross-examining one of the state's witnesses because it may

18

hurt that one of your defendants who's come to you but it

19

would be helpful with regard to the other two.

20

going to balance that?

21

MR. RIDDELL:

I have some information that maybe I didn't disclose in
I think it's in my best

They tell you and you use

How are you

If that were to happen I would have an

22

ethical obligation to potentially withdraw from

23

representation.

24

reason to believe that it will but, yes, I suppose at any time

That has not happened at all and there is no

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 46

11

1

my representation of one client limits my ability to represent

2

another.

3

could potentially solve that problem through an informed

4

consent waiver again --

5

I suppose -- allowing me to backtrack -- I suppose I

THE COURT:

Well, and I have those.

They're not under

6

oath so I have some issues about that but I have read them.

7

The second point in the Hatcher case says the potential for

8

less than zealous cross-examination by defendants' counsel of

9

the state's witness and I believe we've covered that --

10

MR. RIDDELL:

And again the law of history of these kinds

11

of cases indicate that that's really about when the witness in

12

question and that's the former client of the defense attorney

13

not simply that the defense attorney has some sort of

14

information that might be detrimental to one client --

15

THE COURT:

All right.

Stop right there because we've

16

already discussed that but then when we go onto the third

17

point the defendant's interest in having the undivided loyalty

18

of his or her counsel.

19

through discovery one of these defendants pulls you aside and

20

says I need to talk to you confidentially shouldn't that throw

21

flags at that point because whatever they want to say that

22

they don't want the other two persons to hear seems to the

23

Court to absolutely throw the flag and tell you you have a

24

conflict and you can't even hear that information if they

So back to my example what if mid-way

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 47

12

1

believe they want to talk to you confidentially.

2

shouldn't they have the right to do that with any person who's

3

representing them without fear?

4
5

6

MR. RIDDELL:

And

If that were to happen -- and we're getting

pretty far afield on our hypotheticals, your Honor.
THE COURT:

Oh, no we're not and in the Askin case and

7

his litany of issues that he had with federal court he was

8

representing as the Court understands it more than one

9

defendant associated with certain drug charges and those

10

people he -- as I understand it -- were advised that they

11

should maintain their right to remain silent whereas other

12

defendants represented by other attorneys decided not to do

13

that and they testified or they took a plea.

14

than the ones Mr. Askin was representing.

15

he found himself in a tremendous ethical problem.

16

license suspended ultimately for contempt of court and I don't

17

think you want to travel down that path so it's not a good

18

case to cite.

19

MR. RIDDELL:

Did less time

As a result of that
Had his

Well, your Honor, I cited it because Judge

20

Henry -- I mean really what I was trying to do was provide

21

examples of the way conflict like this had been handled by

22

this and other courts in the past.

23

examples of it although I know it has happened because it's

24

not the kind of issue that will often find itself on appeal

It's not so easy to find

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 48

13

1

before the Supreme Court but that was a case where a

2

long-standing circuit judge decided to invoke this process

3

where two other judges participated in that process and

4

decided that there was in fact no conflict here.

So I think

5

that we, you know, I cited it for other reasons.

I mean, Mr.

6

Askin did a lot of cases in his day and if we can use any

7

cases that he was ever involved in for anything we're going to

8

be frankly devoid of a whole lot of important case law.

9

it's unfortunate that we had to get into that issue to discuss

10
11

this other issue.
THE COURT:

So

I understand what the Court's saying but -Hold on.

The Court's point is it is a

12

slippery slope not only for the attorney but more importantly

13

for the defendants who have an absolute right to know without

14

question that their attorney is working in their best interest

15

and would throw anybody under the bus that he needs to in

16

order to make sure that they prevail in court.

17

right; don't they?

18

MR. RIDDELL:

Absolutely.

They have that

And at the moment that one of

19

them comes to me with information that I feel like using or

20

not using will hurt them and help their codefendants I think I

21

have a conflict that would probably cause me to have to

22

withdraw but at this point each one of them has a right to

23

have their chosen defense counsel.

24

conflict.

I don't perceive any such

The only conflict that exits is really the
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 49

14

1

potential conflict where the state wants to offer them

2

cooperation agreements and they don't want to take them and

3

that is absolutely their right because under the rules of

4

criminal procedure they get to decide whether they plead

5

guilty or whether they plead innocent or any other options.

6

7

THE COURT:

They do but here in lies the Court's concern

I've read both sets of briefs -- the Court's concern is

8

when defendants in any civil case are given an offer by the

9

state to testify in exchange for certain recommendations that

10

the state might make to the Court in sentencing or an ultimate

11

outcome they depend greatly upon the expertise and advice of

12

their attorney.

13

14
15

MR. RIDDELL:

Wouldn't you agree?
Sure.

It is ultimately their decision

there but of course an attorney's counsel on that question
THE COURT:

And so then that would move on to, I think,

16

points four and five in the Hatcher case which speak to the

17

defendant's interest in having the undivided loyalty of his or

18

her lawyer because that lawyer would have to be totally

19

dedicated to to one client perhaps at the disadvantage of

20

another.

21

the appearance of impropriety should the jury learn of the

22

conflict through testimony.

23
24

And then that flows into the final point number five

MR. RIDELL:

Well, I mean the jury would -- although

obviously the jury would be made aware that all the
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 50

15

1

codefendants are represented by the same counsel at trial if

2

I'm representing all three of them the grounds for

3

disqualification alleged in the instant motion would never

4

come up at all.

So I don't think there's any chance of a jury

5
6

THE COURT:

Well, wait a minute, Mr. Riddell.

Hold on.

7

Because these

I'm quoting -- these aren't the points that

8

I've created.

These are the points that the Supreme Court has

9

created.

So they must believe that at some point in dual or

10

multiple representation that might be an issue.

11

with that.

12

MR. RIDDELL:

Right.

They came up

And in the normal situation where

13

this comes up in most of the cases that was cited involved

14

this is when there is actually a witness who's actually going

15

to testify that was represented by the same counsel as the

16

defendant and if the jury learns that the state's witness is a

17

client of the defendant's attorney that could potentially

18

create an appearance of impropriety.

19

moment any one of these individuals decides to seriously

20

entertain a cooperating plea agreement obviously accept a

21

cooperating plea agreement and offer testimony I'm conflicted

22

out of this case.

23

your Honor, and they have a right to have their counsel until

24

we have an actual problem.

And I would agree the

We're just not even close to there yet,

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 51

16

1

THE COURT:

2

MR. WATSON:

3

THE COURT:

All right.

Let me hear from the state.

Thank you, your Honor.
Mr. Watson, let me ask you to address if you

4

don't mind first the parameters of Judge Henry's case the one

5

that was in front of him where he did appoint independent

6

counsel it appears for the purpose of separately and

7

independently inquiring of the defendants, number one, I

8

presume whether or not they truly understood all of the issues

9

that were involved.

Number two, if they wanted to continue

10

with their representation under this one attorney and then

11

report back to the Court.

12

that we might be able to entertain without today making a

13

decision that none of these defendants are going to be

14

entitled to the representation of Mr. Ridell.

15
16
17

18
19

MR. WATSON:

Would that be at least something

Well, it certainly was a creative idea by

former the judge there but
THE COURT:

It was never overturned on that issue,

correct?
MR. WATSON:

I don't believe so but I'm not as familiar

20

with that case, your Honor.

Frankly, when I -- I couldn't get

21

past that first issue that you've already raised that it

22

obviously had a lot of conflicts.

23

of ineffective assistance of counsel based on that fact that

24

caused the mistrial.

There was a current claim

I think those are the issues that really

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 52

17

1

concern the state.

2

manner?

3

give you on that issue, Judge, is that it might be and, your

4

Honor, the issues that you've raised already, I think, are a

5

lot of the points that gave the state some grave concern.

6

Is it possible to move past that in that

It might be.

I think that's the best answer I can

Defense counsel mentioned it's hard to find cases of good
I think

7

examples of this because it doesn't get litigated.

8

it's because it doesn't happen very often because it's not a

9

good idea.

You know, you and he mentioned the waivers and,

10

Judge, I'm just concerned that even if you were to find

11

waivers sufficient which again we believe this is potentially

12

a non-consentable matter that the waivers say you could choose

13

to lay blame at the feet of your codefendants but that's not

14

I mean, what if I put that language in a plea agreement,

15

Judge, I mean, the jury and the Court would find that pretty

16

inappropriate.

17

come be honest about your involvement and testify truthfully

18

not to point the blame at anyone else.

19

waivers are even sufficient.

20

THE COURT:

I mean, the cooperation plea agreements are to

So I'm not sure the

The troubling thing for the Court in the

21

Hatcher decision is what defense counsel quoted in his

22

response and you did as well at page two of eight that such a

23

motion as the one that the state has before the Court should

24

be viewed with extreme caution because of the interference
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 53

18

1

with the lawyer/client relationship and that's a syllabus

2

point and that's black letter law.

3

with extreme caution?

4

MR. WATSON:

How do you get around that

Well, we recognize that's the law, Judge,

5

and frankly that was the discussion that my co-counsel and I

6

had over and over before making this motion.

7

motion we typically make.

8

appropriate and I think that extreme caution is a reference to

9

the fact that typically we wouldn't get involved in who the

This is not the

In this case we found it to be

10

defendant's chosen counsel is but to respond to defense

11

counsel saying this is clearly a Sixth Amendment level issue

12

-- depriving these clients of the Sixth Amendment -- Hatcher

13

says specifically otherwise and that's a mandatory verdict

14

from our Supreme Court.

15

essential aim of the Sixth Amendment is to guarantee an

16

effective advocate for each criminal defendant rather than to

17

ensure that a defendant won't inexorably be represented by a

18

lawyer who he prefers and so when we come to this many, I

19

think, issues -- this many potential ineffective assistance of

20

counsel issues that may arise -- I mean what if these

21

defendants during trial decide you know what I want to get up

22

there and testify.

23

before trial say that.

24

entire schedule and type of this case?

He says -- the Hatcher case says the

You know, what if these defendants just
Are we going to, you know, change the
I just think there are

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 54

19

1

too many issues and the ones you've already raised, Judge,

2

that we get to the fair administration of justice which is,

3

you know, what you regulate, Judge, and I think we get to a

4

point where we're really in the area of the appearance of

5

impropriety in a trial.

6

later.

7

first plea offer.

8

interested in negotiating on this issue at this time and I was

9

deprived of that opportunity because I was told -- I told him

The issue that a claim could be made

You know, I wasn't able to have any advice from that
The state in its motions said we would be
,

10

I didn't want to lay blame at the feet of my codefendants, but

11

that's not what that's about it's about being honest and I

12

just think we're at a point now where there's too many issues.

13

There are too many situations that could cause a claim of

14

ineffective assistance in the future and so

15

THE COURT:

All right.

Let me ask one other question and

16

then I'll allow you to finish.

17

three and you've done a good job of quoting the essence of the

18

Hatcher decision and at point four that you've highlighted it

19

says, "a heavy burden of proving disqualification is necessary

20

and justified and the state bears that burden.''

21

In looking at pages two and

So if we were on a preponderance of the evidence a little

22

more likely than not the Court would have very little problem

23

in ruling in favor of the state but when Hatcher the case that

24

both sides agree upon to be controlling in this case says a
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 55

20
1

heavy burden is on the state to prove disqualification and the

2

presumption is in favor of the defendant's choice of counsel,

3

would you agree with that, Mr. Watson?

4

MR. WATSON:

5

THE COURT:

That's what the case says, yes, your Honor.
And so to overcome it the state has to

6

demonstrate, number one, an actual conflict of interest or

7

that there's a significant potential for a serious conflict of

8

interest.

9

arguing any actual conflict at this point; is that correct?

10

So let me understand correctly the state is not

MR. WATSON:

Well, I think there could be argument and we

11

do make that with regard to the plea agreements already made.

12

I think that under the Becton case and its progeny the defense

13

and I put some quotes in there -- defense counsel only has

14

to provide as counsel what is required at a minimum level to

15

provide competent advice to them but he's also precluded from

16

doing so.

17

right now related to that I think there's an actual conflict.

18

But you're right the bigger issue is this extreme risk of a

19

serious conflict going forward and they included that

20

specifically in there.

21

you know, I thought about that.

22

You know, we have a lot of different burdens in different

23

types of cases.

24

preponderance and clear and convincing or somewhere between

So because there's plea agreements on the table

I realize it says heavy burden and,
I don't know where that lies.

I don't know if that lies somewhere between

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 56

21

1

clear and convincing and beyond a reasonable doubt.

2

says heavy and, you know, I would agree with the Court

3

certainly it's more than preponderance but I don't know where

4

more than preponderance.

5
6

7

THE COURT:

It just

I think that's fair and I appreciate that

honesty with the Court.
MR. WATSON:

But I think at the end of the day you've got

8

to make the call about whether this is going to create a fair

9

situation for everybody and I don't think it does.

10

THE COURT:

So then succinctly tell the Court what it is

11

if we can agree that there is no actual conflict that we can

12

point to I understand that you're telling the Court that you

13

have made some offers and they're outstanding; correct?

14

MR. WATSON:

15

THE COURT:

Yes.
All right.

So let's agree that we can't

16

point to any actual conflict of interest.

17

specifically what the significant potential for a serious

18

conflict of interest is.

19

MR. WATSON:

Tell the Court

Well, Judge, I think the situation you

20

already discussed.

One of these clients comes to their

21

attorney and says I have something confidential.

22

that point he can't even hear it and if it's on the eve of

23

trial it's hard for you to let him out because we have trial

24

set and now we're in a situation where we either create

I think at

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 57

22

1

unnecessary delay and frankly prejudice the defendants' rights

2

to a speedy trial in that way or we prejudice their rights to,

3

you know, have this particular attorney whatever level of that

4

right that is.

I think that's one of the main issues.

I think the other issue would be advice.

5

I mean these

6

clients are entitled to independent advice about what their

7

respective roles are and explore every avenue.

8

criminal matter where, you know, I think it carries ninety

9

days in jail so you know it's a serious matter and I think

This is a

10

they're entitled to advice about what other options they have.

11

He is unable to advise them about or discuss with the state

12

who or what we would want from them in order to get a better

13

plea agreement and I don't think we're going to give some

14

sweetheart plea agreement in here.

15

these are based on proffers typically is how it works.

I don't know yet.

If

Typically, there's a proffer from counsel about what they

16
17

may say that would be kept confidential.

We're not in that

18

world at all because of one attorney rather than two -- rather

19

than three -- and we're here in a situation where we're going

20

to be moving forward with a contested hearing on the

21

evidentiary issues and a contested trial where if the state's

22

successful that success may be overturned simply because of

23

this.

24

my mind that's what they're talking about can the state even

So I think that when we talk about that heavy burden in

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 58

23

1

be successful.

2

situation where the state might not be successful because of

3

an ineffective claim later.

4

later that it wasn't true.

5

THE COURT:

You know I think that's a motion made for that

All right.

How do we prove it if we claim

So explain that one more time

6

because that seems to be the last thing that the Hatcher

7

decision addresses that it would be the appearance of

8

impropriety which leads into the state's right to a fair

9

trial.

10
11

So explain that.

Break it down so that we understand

exactly the state's position on that.
MR. WATSON:

Well, let's say the state is successful and

12

we obtain convictions against these individuals.

They would

13

then have a right to appeal or have a right of habeas corpus

14

petitions or other collateral attacks on that conviction.

15

Those claims often include a claim of ineffective assistance

16

of counsel saying I wasn't afforded appropriate advice on this

17

issue.

18

to do was be honest about what happened so I could get a

19

better deal and the Becton case is right on point on that,

20

Judge.

21

advice on it and so the conviction is overturned and so, you

22

know, the point is we want to have a situation where if we're

23

successful the conviction actually stands and that's what it

24

comes down to, Judge.

I wasn't afforded the opportunity to explore all I had

I didn't know about this offer.

I didn't have good

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 59

24

1
2
3

THE COURT:
arguments.

All right.

Thank you.

Appreciate the

Counsel --

MR. RIDDELL:

Your Honor, I have a few points I'd like to

4

make in response but obviously still, you know, afford the

5

moving party the right to close but there's a couple of points

6

that would be in a short rebuttal.

7

THE COURT:

Less than five minutes.

Well, we're already past the time that the

8

Court has allotted.

I have read everything and I can't

9

imagine that you'd have anything to say different because Mr.

10

Watson, I think, has explained only what was shared to counsel

11

and to the Court in his reply.

12
13

MR. RIDDELL:

There is a couple of statements that I

didn't make in my brief.

14

THE COURT:

15

MR. RIDDELL:

I'll give you two minutes.
Thank you, your Honor.

Just very very

The Becton case states literally an exception.

16

briefly.

It

17

says "objective professional standards dictate that a defense

18

attorney absent extenuating circumstances must communicate to

19

the defendant any and all plea bargain offers made by the

20

prosecution.

1
'

21

I would say that these defendants wishing to retain

22

representation by the same counsel knowing full well that that

23

means they will not be able to consider cooperative plea

24

agreements would constitute just that kind of extenuating
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 60

25

So I think we can throw Becton right out the

1

circumstances.

2

window in our analysis here in terms of forcing me to do

3

something that my ethical obligations permit me to do.

4

Number two, you mentioned a very heavy burden that the

5

state must meet here in this case that has been stated by

6

multiple decisions.

7

motion from the state with such a heavy burden you would think

8

that they would need to provide at least some case that

9

provides guidance to this Court of a situation where this has

If we are going to disqualify me on a

10

happened in the past.

11

THE COURT:

12

MR. RIDDELL:

Well, haven't you both in Hatcher?
There is no case that they can point to as

13

an example where an attorney was disqualified merely because

14

he represented codefendants who had been offered plea

15

agreements.

16

in the annals of West Virginia jurisprudence and probably not

17

federal jurisdiction prudence either.

18

That has never happened as far as I know anywhere

Number three.

There is no -- obviously the comments

19

suggest that joint representation in criminal cases is

20

unfavorable and there are some circumstances where it should

21

not be allowed at all but there is no rule that says that a

22

joint representation simply is not allowed in criminal cases

23

and the way these statements frame the issue it would seem

24

that that is what they are suggesting that we are simply
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 61

26

1

barred at any time from joint representation of criminal cases

2

and that's not the case, that is why we have the factors
THE COURT:

3

4

All right.

And your clients are all charged

with -- they're all charged with failure to report; correct?

5

MR. RIDDELL:

6

is another issue.

7

terms of the elements of these charges that I intend to speak

8

on on a motion to dismiss -THE COURT:

9

10

questions.

11

up.

A failure to report and, your Honor, that
I think we have fundamental failings in

Understand.

You've answered the Court's

We're not here to argue anything else your time's

12

MR. RIDDELL:

13

THE COURT:

Thank you, your Honor.
All right.

I do want to thank counsel for

14

very detailed case specific briefing on the issue and I

15

believe that counsel have both responded very appropriately

16

and zealously.

17

its paycheck which is to make a decision on a case that hasn't

18

necessarily ever been decided on these facts and the Court is

19

out of a great deal of caution going to grant the state's

20

motion, that means that all defendants will need to find

21

separate counsel and here are the reasons that the Court is

22

using and, Mr. Watson, I'll ask you to prepare today's order

23

noting Mr. Ridell's exception and objections.

24

And so now it comes time for the Court to earn

First of all, the Court notes that there is not an actual
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 62

27

1

conflict of interest at this early stage in the proceedings of

2

discovery but does believe that sufficient argument and

3

information has been provided to the Court that the Court can

4

and does find that there is a significant potential for a

5

serious conflict of interest and in going through the various

6

points of the Hatcher case the Court makes the following

7

findings.

8
9

The defendants' right to be represented by the counsel of
her choice is not absolute if it were then the Hatcher case

10

would have been decided differently.

11

defense conducted by an attorney who is free of conflicts of

12

interest is absolute.

13

of its proceedings is paramount and to be concerned that at

14

some point during the proceedings a conflict would arise that

15

would put this Court's impartiality in question or the manner

16

in which the cases are handled is something that the Court

17

cannot abide.

18

The defendants' right to

The Court's interest in the integrity

The witnesses' interests and protection of confidential

19

information is paramount.

Each of these defendants have the

20

right to come to their attorney with confidential information

21

that may or may not incriminate that defendant or any other

22

codefendant and when one attorney is representing all on the

23

same charge in this type of a proceeding the Court does not

24

find that the witness' interests in the protection of
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 63

28

1

2

confidential information is adequately protected.
The public's interest in the proper administration of

3

justice is also paramount and the Court believes that it is

4

critical that each of these defendants receive independent and

5

unbiased and unfettered representation and that includes their

6

ability to speak independently on the spur of the moment to

7

their own attorney without having to have everyone else

8

present or everyone else including the codefendants' advised

9

of the content of that conversation.

To even be told that the

10

attorney needs to hear a defendant privately and separately

11

clearly would prevent that attorney from proceeding in the

12

best interest of any in and all of the persons he represents.

13

The probability that continued representation by counsel

14

of choice will provide grounds for overturning a conviction is

15

also problematic to the Court even though at this point in the

16

proceedings all of the defendants apparently have advised Mr.

17

Ridell that they do not seek and will not accept any sort of

18

an agreement does not mean that they won't change their mind

19

in the future and if they do then the Court would have to

20

either throw out a plea agreement or ultimately on appeal the

21

Supreme Court would be asked to do that.

22

Riddell's very good advocacy for his clients we are not

23

throwing the Becton dialogue out in this case.

24

ignored.

And in spite of Mr.

It cannot be

And the likelihood that the state is attempting to
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 64

29

1

create a conflict in order to deprive the defendant of his

2

counsel of choice has not been demonstrated to this Court even

3

by a preponderance of the evidence.

4

that the state has persuaded this Court that there is a

5

significant potential for a serious conflict of interest such

6

that Mr. Riddell would not be able to represent any of these

7

defendants in the criminal matter.

8

something entirely different.

9

clarification on behalf of the state, Mr. Watson?

10

MR. WATSON:

11

THE COURT:

12

MR. RIDDELL:

So the Court does find

The civil matter is

All right.

No, your Honor.

Any questions or

Thank you.

Mr. Riddell.
Your Honor, for the record could the Court

13

make a finding as to why it would not solve this issue to

14

appoint counsel to communicate the plea agreements to these

15

defendants as was done in the Markely case?

16
17

THE COURT:

If we're going to do that we might as well

have them all have separate counsel.

18

MR. RIDDELL:

19

THE COURT:

They don't want to have separate counsel.
The Court has ruled.

So the Court would ask

20

that that finding be made.

If we're going to go to the effort

21

to find other attorneys to weigh in on whether or not there's

22

a conflict at this early stage in the proceedings the best

23

course and in the best interest of justice it should just

24

proceed now separately and independently.

All right.

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 65

30
.

1

MR. WATSON:

2

THE COURT:

3

Yes, your Honor.
Thank you.

We're off the record.

(Hearing concluded at 10:13 a.rn.)

4

5
6

7
8
9

10
11
12
13

14
15
16

17
18
19
20
21
22

23
24
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 66

31

1

STATE OF WEST VIRGINIA

2

COUNTY OF BERKELEY, TO-WIT:

3

I, Pamela Patterson, an Official Reporter of the Circuit

4

Court of Berkeley County, West Virginia, do hereby certify

5

that the foregoing is a true and correct transcript of the

6

proceedings had and testimony taken in the action of State of

7

West Virginia versus Kristin Douty, Christina Lester, June

8

Yurish, Defendants, Case Numbers 19-M-7, 19-M-8, 19-M-9 on

9

the 18th day of November 2019.

10

I hereby certify that the transcript within meets the

11

requirement of the Code of the state of West Virginia, 51-7-4,

12

and all rules pertaining thereto as promulgated by the Supreme

13

Court of Appeals.

14

Given under my hand this 2nd day of December 2020.

15
16
17
18
19

Official Reporter, Circuit Court of
Berkeley County, West Virginia

20
21

22
23

24

App. 67

32

1

2
3

4
5
6

7
8
9

10
11

12
13
14
15
16

17
18
19
20
21
22
23
24

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 68

1

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
23rd Judicial Circuit

1

2
3

STATE OF WEST VIRGINIA,
PLAINTIFF,

4

Case numbers:
19-M-7,
19-M-8, 19-M-9

5

V.

6

KRISTIN DOUTY, CHRISTINA LESTER,

7

JUNE YURISH,

&

DEFENDANTS.

8
9

10

TRANSCRIPT OF PROCEEDINGS HELD before the Honorable

11

Laura V. Faircloth, Judge, on the COLLOQUY HEARING in the

12

above-styled matter on Tuesday the 10th day of December 2019,

13

at 3:10 p.m.
APPEARANCES:

14

15

On Behalf of the State of West Virginia:

16

CATIE WILKES-DELLIGATTI, PROSECUTING ATTORNEY

17

KEVIN WATSON, ASSISTANT PROSECUTING ATTORNEY

18
19

On Behalf of the Defendant(s):
CHRISTIAN RIDDELL, ESQUIRE

20
21

22
23
24

(Tuesday, December 10, 2019 3:10 p.m.)
THE COURT:

All right.

We are on the record in case

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 69

2

1

number 19-M-7 Kristen Douty, 19-M-8 Christina Lester, and

2

19-M-9 June Yurish.

3

for the record please and whom it is they represent.

4
5
6
7

8
9

Could I have counsel identify themselves

MS. DELLIGATTI:

Catie Wilkes-Delligatti and Kevin Watson

for the state.
MR. RIDDELL:

Christian Riddell on behalf of defendants

Douty, Yurish, and Lester, your Honor.
THE COURT:

All right.

Thank you very much.

Now, the

Court set this out originally the last time to be able to go

10

forward with the colloquy that is required under West Virginia

11

Rules of Criminal Procedure Number 44 and that raised a

12

question for the Court when Mr. Riddell suggested that that

13

should be done in chambers.

14

proceedings and continued it forward until today so that the

15

Court could take a little time to research that matter and at

16

this time I want to report that my judicial clerk has done

17

considerable research and cannot find where this is a required

18

matter in West Virginia at all and in shephardizing the case

19

that Mr. Riddell cited which is United States v. Foster a

20

First Circuit case 1972 there are no West Virginia cases that

21

reference or use Foster for this particular procedure and

22

further when the Court read the actual Foster case the

23

suggestion that the proceedings occur in the judge's chambers

24

as opposed to open court was merely that.

And so we took a break from the

It was not a

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 70

3

I'm reading specifically from the Foster case

1

requirement.

2

where it says there may be unusual circumstances that where to

3

avoid the possibility of prejudicial disclosures to the

4

prosecution the Court may exercise its discretion to pursue

5

making inquiry with defendants and their counsel on the record

6

but in chambers.

7

not find that Foster is controlling.

8

that any special circumstances would exist given the nature of

9

the colloquy that the Court intends to go through so we will

10
11

So in this case first of all the Court does
Second, it does not find

do the colloquy in open court.
All right.

I need to have all three of the defendants if

12

you would please stand raise your right hand to be sworn to

13

your oath by the clerk.

14

(All three witnesses sworn by the Clerk.)

15

THE COURT:

All right.

Now in order to avoid any

16

potential -- I guess it would be conformance of conduct or

17

conformance of answers -- I'm going to do the colloquy with

18

each one of the defendants individually.

19

because I'll be asking questions that are the same to all of

20

you but for the first one I apologize I'm just going to go by

21

the numbers.

22

So listen carefully

So, could I have Kristen Douty please stand.

It's all

23

right this isn't the hardest part I promise.

All right.

24

There is a rule of criminal procedure and it's called Rule 44.
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 71

4

1

You've heard us talking about it last time, correct?

2

DEFENDANT DOUTY:

3

THE COURT:

Yes.

All right.

So it simply says that whenever

4

I'm going to try to read from it as correctly as possible

5

that whenever two or more defendants have been jointly

6

charged and I'm going to leave out the part that I don't think

7

necessarily applies to our discussion today.

8

or more defendants have been jointly charged -- and in this

9

case three of you have -- and have been joined for trial

So whenever two

10

meaning all of you will be tried at the same time and are

11

represented by the same retained or assigned counsel which in

12

this case would be Mr. Riddell then the Court shall promptly

13

inquire with respect to such joint representation and shall

14

personally advise each defendant of the right to effective

15

assistance of counsel including separate representation.

16

the purpose of this colloquy, the question and answer, is so

17

that the Court can be assured that you have been advised of

18

your right to effective assistance of counsel.

19

do that I have a series of questions I'm going to ask you.

20

Do you understand that you're charged with a criminal

21

matter that could result in a guilty verdict if the matter

22

were to go forward to trial and it may carry with it a jail

23

sentence?

24

So in order to

Do you understand that?

DEFENDANT DOUTY:

Yes, ma'am

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 72

So

5

THE COURT:

1
2

Do you understand that you're charged with

the offense of failing to report child abuse?

3

DEFENDANT DOUTY:

4

THE COURT:

Yes.

Do you understand that you're charged along

5

with two other persons who were alleged to be present at the

6

time that the conduct occurred?

7

DEFENDANT DOUTY:

8

THE COURT:

9

Yes.

Do you understand that you are entitled to

legal representation during all phases of the proceedings?

10

DEFENDANT DOUTY:

11

THE COURT:

Yes.

Do you understand that you have the right to

12

expect that the communication with your attorney is privileged

13

unless you allow your attorney to discuss it with someone

14

else?

Do you understand that?

15

DEFENDANT DOUTY:

16

THE COURT:

Yes, ma'am.

And do you understand that the point of

17

privileged conversation with your attorney is so that you can

18

be truthful, forthright, and without concern that anything you

19

say could be used against you?

20

DEFENDANT DOUTY:

21

THE COURT:

Do you understand that?

Yes, ma'am.

Do you understand that when you have only one

22

attorney representing all three of you Mr. Riddell is under an

23

obligation to either have all meetings with his clients at the

24

same time or be free to share with your codefendants anything
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 73

6

1

that you say in a private meeting with him?

2

DEFENDANT DOUTY:

3

THE COURT:

Yes.

Do you understand that the state is always

4

allowed to offer a plea to any defendant and may choose to

5

offer a plea to any one of you for example but not by way

6

limitation in exchange for cooperation against the other

7

defendants specifically for example in this case about any

8

intent or reason that certain conduct did or did not occur?

9

10

DEFENDANT DOUTY:
THE COURT:

Yes.

Do you understand that you may desire at some

11

point in the process to speak with the state about a plea and

12

are being advised by your attorney that he may need to

13

withdraw from representing all of you because of that request?

14

DEFENDANT DOUTY:

15

THE COURT:

Yes.

And finally are you sure that there can be no

16

set of circumstances that may arise that would cause a

17

conflict for your attorney to represent all three of you?

18

DEFENDANT DOUTY:

19

THE COURT:

Yes, there's not any conflict.

And you're sure moving forward in the future

20

there would never be one?

21

DEFENDANT DOUTY:

22

THE COURT:

23
24

No, ma'am [sic).

All right.

Is the state satisfied that

colloquy has been completed?
MS. DELLIGATTI:

Yes, your Honor.

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 74

7

1

THE COURT:

All right.

Thank you.

You may have a seat.

2

Christina Lester, would you please stand.

Thank you,

3

ma'am.

I have asked all of the questions that I intend to ask

4

of you as well but I'm going to go through each one of them

5

with you now and your answer should be your answers and not

6

simply the answers that you heard your codefendant express to

7

the Court.

Fair enough?

8

DEFENDANT LESTER:

9

THE COURT:

Yes, ma'am.

All right. Do you understand that you are

10

charged with a criminal matter that could result in a guilty

11

verdict which may carry a jail sentence.

12

DEFENDANT LESTER:

13

THE COURT:

14

Yes, ma'am.

Do you understand that you are charged with

the offense of failing to report child abuse?

15

DEFENDANT LESTER:

16

THE COURT:

Yes, ma'am.

Do you understand that you're charged along

17

with two other persons who are alleged to have been present at

18

the time that the conduct occurred?

19

DEFENDANT LESTER:

20

THE COURT:

21

Do you understand that you are entitled to

legal representation during all phases of the proceedings?

22

DEFENDANT LESTER:

23

THE COURT:

24

Yes, ma'am.

Yes, ma'am.

Do you understand that you have the right to

expect that communication with your attorneys are privileged?
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 75

8

1

DEFENDANT LESTER:

2

THE COURT:

Yes, ma'am.

And following up on that do you understand

3

that you have the right to expect that anything you say to him

4

you can say with complete honesty without any fear of

5

repercussion?

6

DEFENDANT LESTER:

7

THE COURT:

Yes, ma'am.

Do you understand that when you have only one

8

attorney representing all three of you, Mr. Riddell in this

9

case, is under an obligation to either have all meetings with

10

his clients at the same time or be free to share with your

11

codefendants anything that you may have said to him in a

12

private meeting.

Do you understand that?

13

DEFENDANT LESTER:

14

THE COURT:

Yes, ma'am.

Do you understand that the state is always

15

allowed to offer pleas to any defendant and may chose to offer

16

a plea to any one of you and for example again not by way of

17

any sort of limitation 'cause there could be a whole host of

18

pleas that are offered with different requirements in exchange

19

in this example for your cooperation against the other

20

defendants about any intent or reason that certain conduct

21

occurred or did not occur?

22

DEFENDANT LESTER:

23

THE COURT:

24

in the opposite way.

Yes, ma'am.

All right.

And you understand the same works

So for example but not by way of

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 76

9

1

limitation any one of your codefendants might express a desire

2

to speak with the state or the state may express a desire to

3

speak with them about a potential plea that may be against

4

your interest and you understand that Mr. Riddell would be

5

representing all of you.

6

DEFENDANT LESTER:

7

THE COURT:

Do you understand that?
Yes, ma'am.

Do you understand that you may desire at some

8

point in the process to speak with the state about a plea and

9

are being advised by your attorney that he may need to

10

withdraw from representing all of you because of that request?

11

Do you understand?

12

DEFENDANT LESTER:

13

THE COURT:

Yes, ma'am.

Are you sure that there can be no

14

circumstances that may arise that would cause a conflict for

15

your attorney to represent all three of you?

16
17
18

DEFENDANT LESTER:

I do not feel there is any conflict in

this case so I understand.
THE COURT:

All right.

But my question is and it's a

19

little different and I appreciate the fact that you might be a

20

little nervous.

21

circumstances in the future that would arise that would cause

22

a conflict for Mr. Riddell to represent all three of you

23

especially if the state is offering a deal for any one of you

24

to tell them more about the case?

Are you sure that there can be no set of

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 77

10

1

2
3
4
5

DEFENDANT LESTER:

I don't feel that would be an issue.

So I don't feel that there -- I understand what you're saying
but I don't feel that there will be a conflict.
THE COURT:

All right.

Thank you so much.

Is the state

satisfied?

6

MS. DELLIGATTI:

7

THE COURT:

Yes, your Honor.

All right.

And finally, Ms. Yurish, would

8

you please stand.

All right.

9

questions I've asked of your two codefendants; correct?

10

DEFENDANT YURISH:

11

THE COURT:

You've heard all of the

Yes, ma'am.

So I'll be asking the same questions

12

essentially of you that might be a little different because

13

I'm not reading verbatim.

14

sure and ask the Court, okay?

15

DEFENDANT YURISH:

16

THE COURT:

So if you have any questions be

Yes, ma'am.

All right.

Do you understand that you are

17

charged with a criminal matter that could result in a guilty

18

verdict from a jury which may carry a jail sentence with it?

19

DEFENDANT YURISH:

20

THE COURT:

21

Do you understand that you are charged with

the offense of failing to report child abuse?

22

DEFENDANT YURISH:

23

THE COURT:

24

Yes, ma'am.

Yes, ma'am.

Do you understand that you are charged along

with two codefendants who were alleged to be present at the
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 78

11

1

time that conduct either did or did not occur?

2

DEFENDANT YURISH:

3

THE COURT:

4

Yes, ma'am.

Do you understand that you are entitled to

legal representation during all phases of the proceedings?

5

DEFENDANT YURISH:

6

THE COURT:

Yes, ma'am.

Do you understand that you have the right to

7

expect that the communication you have with your attorney is

8

privileged and not to be divulged to anyone unless you give

9

your permission?

10

DEFENDANT YURISH:

11

THE COURT:

Yes, ma'am.

Do you understand that when you only have one

12

attorney who represents all three of you Mr. Riddell is under

13

an obligation to either have all meetings with his clients at

14

the same time or be free to share any communication he has

15

with any of your codefendants even if that conversation was in

16

a private meeting with him?

17

DEFENDANT YURISH:

18

THE COURT:

Yes, ma'am.

Do you understand that the state is always

19

allowed to offer a plea agreement to any defendant in any case

20

and may choose to offer a plea to any one of you perhaps to

21

you, perhaps to any one or both of your codefendants, for

22

example but not by way of limitation, in exchange for

23

cooperation against you or if the offer's being made to you in

24

exchange for your cooperation against your codefendants about
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 79

12

1

any intent or reason that certain conduct did or did not

2

occur?

3

DEFENDANT YURISH:

4

THE COURT:

Yes, ma'am.

Do you understand that you may desire at some

5

point in the process to speak with the state about a plea and

6

are being advised by your attorney who also represents your

7

two codefendants that he may need to withdraw from

8

representing all of you because of your request?

9

10

DEFENDANT YURISH:
THE COURT:

Yes, ma'am.

All right.

Are you sure that there can be no

11

set of circumstances that may arise that would cause a

12

conflict for your attorney to represent all three of you?

13

DEFENDANT YURISH:

14

THE COURT:

Positive.

All right.

Yes, ma'am.

Thank you.

You may have a seat.

15

Now, the only other thing and I'll probably need all three of

16

you to stand on this one.

17

of you understand that you do have the right to have separate

18

counsel.

So I will ask Ms. Douty do you understand that?

19

DEFENDANT DOUTY:

20

THE COURT:

21

DEFENDANT LESTER:

22

THE COURT:

23
24

I want to make sure that each one

Yes, ma'am.

Do you understand that Ms. Lester?
Yes, ma'am.

And do you understand, Ms. Yurish, that you

have that right?
DEFENDANT YURISH:

Yes, ma'am.

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 80

13

1

THE COURT:

And all of you would prefer to keep Mr.

2

Redding -- I'm sorry

3

DEFENDANT YURISH:

4

DEFENDANT DOUTY:

5

DEFENDANT LESTER:

6

THE COURT:

7

All right.

Mr. Riddell with you; correct?
Yes, ma'am.
Yes, ma'am.
Yes, ma'am.

I just elevated you to judge, Mr. Riddell.

Thank you so much you may have a seat.

8

Is the state satisfied with the colloquy?

9

MS. DELLIGATTI:

10

THE COURT:

Yes, your Honor.

All right.

Thank you.

All right.

The only

11

purpose for today was to make sure we went through the

12

colloquy although I do believe that each one of the defendants

13

have honestly and sincerely answered the questions posed them

14

by the Court the Court is still of the opinion that it does

15

not need to find an actual conflict exists or that an actual

16

conflict will exist in order to rule that joint representation

17

is impermissible in this matter.

18

MR. RIDDELL:

You Honor, before the Court renders its

19

opinion would I have the opportunity to make argument on the

20

briefs that have been submitted?

21

THE COURT:

I think the arguments have all been

22

developed.

There's nothing new.

The only argument that was

23

new was whether or not we were going to have this colloquy in

24

chambers or that we were going to do it in open court.
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 81

14

1

MR. RIDDELL:

Well, we haven't had oral argument on some

2

of the issues that were raised by the Court at the prior

3

hearing.

4

conflict with the potential of material confidential

5

information being shared with counsel which a defendant may

6

not want to share with other individuals and the Court had

7

identified a concern that joint representation in this matter

8

would give rise to a habeas.

9

addressed in the brief which the state responded to.

10
11

For instance, the Court had identified it's own

These are issues that I
I'd like

to make argument on those points, your Honor.
THE COURT:

Well, I think it's been fully briefed and

12

quite frankly I didn't set this out for argument.

13

just to fulfill the obligation of the Court under Rule 44.

14

Both arguments have been made and I think that it's a no

15

brainer that you don't agree.

16

arguments under consideration and the Court is in the middle

17

of rendering its decision and I know that you have the ability

18

to take it up on appeal.

19

all here to make sure justice is done.

20

longer for the Supreme Court to take a look at it so be it but

21

I'm prepared to make my ruling.

22

MR. RIDDELL:

This was

So the Court has taken the

Certainly no hard feelings.

We're

It if takes a little

I was in the middle of it.

I would just ask to make the record that I

23

be given the opportunity to conduct a proffer on the record

24

after the Court has ruled for the purposes of any appeal or
Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 82

15

1

2
3

4

writ.
THE COURT:

The proffer would be different from what

you've argued in your brief?
MR. RIDDELL:

No I -- yes, I think it would address some

5

of the points made by the state.

6

I wish to put on the record today and if the Court's going to

7

render a decision, the Court's going to render a decision, but

8

I'd like the opportunity to express those things on the record

9

for the purpose of any appeal or writ that is necessary

10
11

I have prepared remarks that

thereafter, your Honor.
THE COURT:

All right.

Well, you certainly can in your

12

writ -- or your brief make that proffer that the Court did not

13

allow you to make today but we're not going to take up the

14

time of the Court to do that.

15

MR. RIDDELL:

From what I understand the Court is

16

permitted to recess into chambers and I could speak to the

17

court reporter and put in on the record, your Honor.

18

THE COURT:

I understand but it's her time as well.

So

19

we're going to finish this up.

You can put anything in your

20

writ that you need to, arguments that you would have made that

21

the Court didn't hear.

22

arguments have been made to the Court that it needs and the

23

Court does find that there is good cause to believe that a

24

conflict of interest is likely to arise.

The Court finds that all of the

Perhaps not today,

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 83

16

1

perhaps not tomorrow, but certainly once the Court moves

2

forward and the Court makes a ruling about the admissibility

3

of that tape that has been circulating, as the Court goes

4

through different hearings and different matters are

5

addressed, I cannot fathom a situation where a conflict of

6

interest would not likely arise in this case.

7

of that in order to protect the defendants according to Rule

8

44(c) the Court will grant or has already granted the state's

9

motion and I just wanted to re-affirm that decision here

10

11

And as a result

today.
Even though the individual defendants have been I think

12

sincere in their statements to the Court and certainly want

13

you, Mr. Riddell, to represent them I don't believe that

14

they're making decisions that are in their best interest and

15

even when I heard one of the defendants say I don't feel that

16

there would be any conflict that's not saying there couldn't

17

possibly be and that's the standard the Court employs.

18

MR. RIDDELL:

Two things, your Honor.

One, I believe

19

that if you give Ms. Lester the opportunity she would clarify.

20

I don't think that she thinks there's any possibility that

21

there's a conflict.

22

She may have misspoke.

Number two, I'd ask that the Court clarify.

It seems

23

clear that we're all in agreement that there's no actual

24

conflict at least right now.

Based on that I don't think

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 84

17

1

there's any reason to preclude me from representing at least

2

one of the defendants upon the, of course, informed consent of

3

the others.

4

permitted to do in reference to that?

Is that the Court's finding that I would be

THE COURT:

5

No, you're not permitted to represent any of
I have no

6

them.

A conflict for one is a conflict for all.

7

idea what shared information you've been given nor would I

8

even go so far as to ask that is not a province of the Court

9

but you have clearly met with your clients in an effort to be

10

of assistance to them.

11

spoken with you and you've been their attorney for several

12

months now.

13

information that they have shared with you that may be adverse

14

at some point to any one of the other defendants.

15

Court does adopt the pretty standard requirement that if you

16

have a conflict for one you have a conflict for all.

They have

So the perception is there that you have

MR. RIDDELL:

17

They have engaged you.

So this

Your Honor, I believe that the relevant

18

case law does require an evaluation of whether confidential

19

information which would prejudice the non-represented

20

defendant has been divulged.

21

law State ex rel Sanders and I think there are additional

22

ones.

23

hearing, conduct another colloquy, perhaps this one for sure

24

in camera where the defendants can be questioned as to the

I think that exists in the case

So I would ask that the Court perhaps hold another

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 85

18

1

information that has been disclosed and if there is in fact

2

information which has been shared --

3

THE COURT:

This Court -- let me stop you right there.

4

This Court cannot possibly -- cannot possibly even with your

5

consent and your clients' consent invade that private

6

confidential conversation because this Court must sit as a

7

neutral body and cannot have any confidential information that

8

was shared with you by your clients and will not ask.

9

Court has ruled.

10
11

So the

The state will have the order please.

Please note Mr. Riddell's objections.

We're off the record.

(Hearing concluded at 3:53 p.m.)

12
13

14
15
16
17
18
19
20

21
22
23
24

Pamela A. Patterson, CR (304) 264-1947 ext. 3733

App. 86

19

1

STATE OF WEST VIRGINIA

2

COUNTY OF BERKELEY, TO-WIT:

3

I, Pamela Patterson, an Official Reporter of the Circuit

4

Court of Berkeley County, West Virginia, do hereby certify

5

that the foregoing is a true and correct transcript of the

6

proceedings had and testimony taken in the action of State of

7

West Virginia versus Kristin Douty, Christina Lester, June

8

Yurish Defendants, Case Number 19-M-7, 19-M-8, 19-M-9 on

9

Tuesday the 10th day of December 2019.

10

I hereby certify that the transcript within meets the

11

requirement of the Code of the state of West Virginia, 51-7-4,

12

and all rules pertaining thereto as promulgated by the Supreme

13

Court of Appeals.

14

Given under my hand this 2nd day of January 2020.

15
16
17
18
19

Official Reporter, Circuit Court of
Berkeley County, West Virginia

20
21
22

23
24

App. 87

The Law Offices of

Stedman & Riddell
Jason M. Stedman

Christian J. Riddell

December 3, 2019

Dylan Batten

FILE COPY

Honorable Edyth Nash Gaiser
Office of the Clerk
West Virginia Supreme Court of Appeals
State Capitol Building, Room E3 l 7
1900 Kanawha Boulevard East
Charleston, WV 25305·
Re:

State ex rel June Yurish, Kristin Douty and Christina Lester
Circuit Court of Berkeley County, West Virginia Civil Action Nos: 19-M-7,
19-M-8 and 19-M-9

Dear Ms. Nash Gaiser:
Enclosed please find, herewith, for filing with the Court, the following:
1. An original and ten (10) copies of the Petition for Mandamus in the above
referenced matter; and
2. An Original and one (1) copy of the Appendix in this matter; and

I thank you for your kind consideration in this matter.
Sincerely,

/

eh nr:r1t1nCl &11J11!1t1

Christian J. Riddell

CJR/cd
Enclosures as Stated
cc: Honorable Laura V. Faircloth
Kevin Watson, Esquire

329 South Queen Street
Martinsburg, WV 25401

1

App. 88

Phone: 304-267-3949 I Fax: 304-267-5411
sted111a nriclclel I@g111a i I.com

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No.
State of West Virginia, ex rel June Yurish, Kristin Douty and
Christina Lester
Case No: 19-M-7
Case No: 19-M-8
Case No: 19-M-9

v.

The Honorable Laura Faircloth
Sittings as Judge of the Circuit Court of Berkeley County

PETITION FOR WRIT OF MANDAMUS

Christian J. Riddell
W.Va. Bar No. 12202
Stedman & Riddell, PLLC
329 South Queen Street
Martinsburg, West Virginia 25401
(304) 267-3949
(304) 267-5411 facsimile

App. 89

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

Case No. 19-M-7

vs.
KRISTIN LYNN DOUTY,

Defendant.

VERIFICATION
I, Kristin Douty, Defendant in the foregoing Action, after being duly sworn, says that the
facts and allegations contained in the "Petition for Writ of Mandamus" are true, except insofar as
they are therein stated to be upon information and belief, and that insofar as they are therein stated,
th~ey
are believed to be true.

d~
~,L~
istin Douty

=

Taken, subscribed and sworn to before the undersigned authority this

My Commission expires:

sA

day of December 2019.

l J /J. 0JJ( .

1

OFFICIAL SEAL
NOTARY PUBLIC, STATE OF WEST VIRGINIA

Chanon Defelice
Law Office of S1edman &Riddell

GJht/D(\ !}if A

NOTARY PUBLIC

329 South Queen Street, Martinsburg, VN25401
My Commission Expires January 07, 2024

App. 90

.

---'

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

Case No. 19-M-9

vs.
JUNE ELIZABETH YURISH,

Defendant.

VERIFICATION
I, June Yurish, Defendant in the foregoing Action, after being duly sworn, says that the facts
and allegations contained in the "Petition for Writ of Mandamus" are trne, except insofar as they are
therein stated to be upon infmmation and belief, and that insofar as they are therein stated, they are
believed to be true.

C

urish
Taken, subscribed and sworn to before the undersigned authority this

My Commission expires:

,

"

!

Or!J- day of December 2019.

_\_,/f--J--->-+/~UJ~t:-uf_

OFFICIALS
NOTARY PUBLIC, STATEOFWESTVIRGINIA

Chanon Defelice
Law Office of Stedman &Riddell

UQttnV\ Ot?~=

NOTARYPUBLIC

329 SoU!h Queen Street, Martinsburg, VN 25401

My Commission Expires January 07, 2024
<,...,..,...,..,...,._...,.,...;,..,._~,,...-,....,_

App. 91

INTHEC
IRCU
ITCOURTOF BERKELEYCOUNTY
,WEST V
IRG
IN
IA
IRG
IN
IA
,
STATEOF WEST V

Ca
s
eNo
. 19
-M
-8

v
s
.
CHR
IST
INAV
ICTOR
IALESTER
,

D
e
f
endan
t
.

VER
IF
ICAT
ION
I
,Ch
r
i
s
t
in
aL
e
s
t
e
r
,D
e
f
end
an
tinth
efo
r
ego
ingA
c
t
ion
,a
f
t
e
rb
e
ingdu
lyswo
rn
,s
ay
sth
a
t
th
e
fM
and
amu
s
"a
r
et
ru
e
,ex
c
ep
tin
so
f
a
ra
s
f
a
c
t
sanda
l
l
eg
a
t
ion
scon
t
a
in
edinth
e"P
e
t
i
t
ionfo
rW
r
i
to
th
eya
r
eth
e
r
e
ins
t
a
t
edt
ob
euponin
fo
rm
a
t
ionandb
e
l
i
e
f
,andth
a
tin
so
f
a
ra
sth
eya
r
eth
e
r
e
ins
t
a
t
ed
,
th
eya
r
eb
e
l
i
ev
edt
ob
et
r
u
e
.

~

Ch
r
i
s
t
in
aL
e
s
t
e
r

~

A

T
ak
en
,sub
s
c
r
ib
edandswo
rnt
ob
e
fo
r
eth
eund
e
r
s
ign
edau
tho
r
i
tyth
i
s

!2.f21<1L£
Jo:J.-0

d
ayo
fD
e
c
emb
e
r2
0
1
9
.

My Comm
i
s
s
ionexp
i
r
e
s
:

9
,
~

App
.92

I.

TABLE OF CONTENTS

III. Questions Presented .............................................................................. .I
IV. Statement of the Case ............................................................................. 1
V.

Summary of Argument ............................................................................. 4

VI. Statement Regarding Oral Argument and Decision .......................................... .4
VII. Argument .......................................................................................... .4
VIII. Conclusion ......................................................................................... 10
Ce1iificate of Service ............................................................................... 12

App. 93

II.

TABLE OF AUTHORITIES

WV Rules of Criminal Procedure for Magistrate Courts:
Rule 1.. .................................................................................................... 10

WV Rules of Criminal Procedure:
Rule 44(c) ............................................................................ I, 3, 4, 5, 6, 7, 9, 10
Rule 8(b) ................................................................................................... 5
Rule 13 ...................................................................................................... 5
Federal Rules of Criminal Procedure:
Rule 44(c) ................................................................................................... 7
WV Code:
49-2-812 .................................................................................................... 1
Cases:
State ex rel. Board o(Educ. o(Kanawha County v. Dyer, 179 S.E.2d 577, 154 W.Va.,
840 (W.Va., 1971) ........................................................................................ 5

State ex rel. Kucera v. City of Wheeling, 153 W.Va. 538, 170 S.E.2d 367 (1969) ............... 5
Stowers v. Blackburn, 141 W.Va. 328, 90 S.E.2d 277 (W.Va., 1955) .............................. 5
Cole v. White, 180 W.Va. 393 (1988) ............................................................... 6, 7
State v. Mullins, 181 W.Va. 415 (1989) ................................................................ 6
Blake v. Hatcher, 624 S.E.2d, 218 W.Va. 407 (W.Va. 2005) ...................................... 6
Fryar v. United States, 404 F.2d 1071 (I oth Cir. 1968) .............................................. 7
Holloway v. Arkansas, .................................................................................. 7
Campbell v. United States, 352 F.2d 359 (D.C. Cir. 1965) ....................................... 7, 8
United States v. Foster, 469 F.2d 1 (1' 1 Cir. 1972) .................................................... 8
ii

App. 94

United State v. Alberti, 470 F.2d 878 (2d Cir. 1972) ............................................. , .... 8
State v. Haddix, 375 S.E.2d435, 180 W.Va. 71 (W.Va. 1988) .................................. 8, 9
State ex rel. Postelwaite v. Bechtold, 158 W.Va. 479,212 S.E.2d 69 (1975) .................... 9

iii

App. 95

III.

Questious Presented

Q:

Should the Circuit Court be compelled to allow codefendants who have chosen joint

representation the opportunity to receive and review discovery prior to conducting the inquiry
required under Rule 44(c) of the West Virginia Rules of Criminal Procedure.
A:

Yes. The Court must allow this because a central issue of the Rule 44( c) inquiry is

whether the co-Defendants contemplated trial strategy creates the likelihood of a conflict for
joint counsel, and said strategy cannot be properly formulated without access to the claims and
evidence the state intends to make.

IV.

Statement of the Case
Comes now Defendants Christina Lester, June Yurish, and Kristin Douty, by counsel,

Christian J. Riddell, and Petitions this Comt for a Writ of Mandamus and Prohibition compelling
the Circuit Court of Berkeley County to Order production of discovery and a response to
Defendants Request for a Bill of Particulars prior to the Comt's colloquy regarding joint
representation under W.Va. Rules of Criminal Procedure Rule 44(c).
The instant petition concerns ce1tain aspects of Circuit Comt' s preliminary decisions
regarding the State's Motion to Disqualify undersigned counsel from joint representation of the
named Petitioners. The cases originated in the Berkeley County Magistrate Court on charges of
Failure to Repo1t under W.Va. Code §49-2-812, but were transferred to the Circuit Court upon
Motion of the Defendants and which not opposed by the State.
Discovery was requested by Petitioners in the instant case in August of 2019, and,
because the charging documents did not specify what the act of abuse or suspected abuse was
which gave rise to Petitioners' alleged duty to report, a Requests for a Bill of Particulars was

1

App. 96

filed on October 15, 2019. (AR pg. 1-4). On October 21, 2019, the State moved to have
undersigned counsel disqualified from joint representation on a single basis, to wit, that said joint
representation was preventing the State from negotiating plea agreements which would require
cooperation and potential testimony of the plea bargaining defendant. This motion was made
despite the State being aware that all three defendants had signed informed consent waivers
which specifically stated that they understood and waived any conflicts related to the fact that
undersigned counsel would be unable to present them any plea bargains which required that they
testify against each other because of his duties to the other codefendants (AR pg. 5-13). This
matter was briefed and oral argument was held before the Berkeley County Circuit Court on
November 18, 2019.
During said hearing, the Court came up with a new basis for disqualification not
previously argued by the State, to wit, that one of the Defendant's could potentially have
confidential information pertinent to the case that they wished to relay to counsel, whose duties
to the other co-defendants would prevent him from keeping said information confidential vis-avis the other co-defendants. The Comt reasoned further that, in such a hypothetical situation,
counsel might be limited, to the detriment of one or more of the codefendants, in how he cross
examined a pe1tinent witness based on the material information that another of the codefendants
1

had provided him. There was nothing in the record or the discovered materials which might
have indicated that such a scenario was likely (because discovery had not been produced), but
the Court neve1theless determined that undersigned counsel should be disqualified on the basis
of this hypothetical conflict.
1

As an aside, Petitioners would note that such a theoretical potentiality always exists in every criminal defense
case involving joint representation of codefendants, and if such a concern were sufficient to disqualify a counsel

from joint representation, than joint representation would never be allowed under any circumstance - a result

clearly at odds with federal and state jurisprudence on the matter which allows for joint representation of criminal
defendants under a variety of circumstances.

2

App. 97

However, prior to the entry of an Order, the Circuit Court convened a second hearing on
disqualification and held its November 18th order in abeyance in order to engage in the Colloquy
required under Rule 44(c) of the West Virginia Rules of Criminal Procedure, which it set for
three days later on November 21, 2019. (AR pg. 14). In anticipation of said colloquy, Petitioners
drafted a Supplemental Memorandum of Law to (a) address some of the conflict issues the Court
had raised sua sponte at the November 18 111 hearing, (b) to inform the Court as to the appropriate
procedure and standard of review under Rule 44( c), and (c) to request that, because the Rule
44(c) colloquy requires a discussion of Defendants potential trial strategy and the likelihood of a
conflict under said strategy, the state provide responses to Petitioners' Request for Discovery
and an answer to Defendants Request for a Bill of Particulars prior to said Colloquy so that
Defendants could have an oppmiunity to fully formulate their trial strategy before relaying the
same to the Comt. (AR pg. 17). Petitioners noted that it would be impossible to truly formulate a
trial strategy before receiving discovery, and that, as a consequence, the colloquy required under
Rule 44(c) would have little value if conducted prior to receipt and review of the same. (AR pg.
17)
At a hearing held on November 21, 2019, The Court continued oral argument so as to
allow the State time to respond to Petitioners brief on Rule 44( c), and set a subsequent hearing
for December I 0, 2019 at which time it was expected that the Rule 44( c) colloquy would
commence. (AR pg. 14). However, despite the additional time provided to the State, the Court
denied Defendants request that discovery and a Bill of Particulars be provided prior to
conducting the Rule 44(c) colloquy and permitted the state to delay the production of discovery
until 21 days prior to trial per the Rules of Criminal Procedure for Magistrate Court even though
the case and all attendant hearings were now being held in the Circuit Court.

3

App. 98

Petitioners now request a Writ of Mandamus compelling the Court to Order the State to
produce discovery and a response to Petitioner's Request for Bill of Particulars prior to
conducting the Rule 44(c) colloquy.

V.

Summary of Argument
The Court has original jurisdiction over this matter because Petitioners have a right to the

reliefrequested, the Court has a duty to provide the relief requested, and there are no other
equally beneficial remedies.
The Court should be compelled to grant Petitioners' request for discovery and a bill of
particulars because the case law shows that it is necessary, in engaging in the dialogue required
under Rule 44(c) of the West Virginia Rules of Criminal Procedure, for Petitioners to outline
their trial strategy to the Court in order for the Court to determine whether a conflict is likely to
arise from their joint representation, which Petitioners are incapable of doing properly absent
their receipt of discovery. It is impossible to plot a defense strategy before a defendant knows
what the claims and evidence are which will be used against them.

VI.

Statement Regarding Oral Argument
Petitioners aver that Oral Argument is not necessaiy in this case because the law is clear

and the time requirements under which Petitioners are operating are not conducive to oral
argument.

VII.
A.

Argument
THIS COURT HAS ORIGINAL JURISDICTION OVER THE INSTANT
PETITION BECAUSE PETITIONERS ARE ENTITLED TO MANDAMUS
RELIEF.

4

App. 99

Mandamus lies to control the actions of an administrative body in the exercise of its
duties when such action is arbitrary or capricious. State ex rel. Board of Educ. of Kanawha
County v. Dyer, 179 S.E.2d 577, 154 W.Va. 840 (W.Va., 1971). A writ of mandamus will not
issue unless three elements coexist-(!) a clear legal right in the petitioner to the relief sought;
(2) a legal duty on the part ofrespondent to do the thing which the petitioner seeks to compel;
and (3) the absence of another adequate remedy." Sy!. pt. 2, State ex rel. Kucera v. City of
Wheeling, 153 W.Va. 538, 170 S.E.2d 367 (1969). Mandamus will not be denied because there
is another remedy, unless such other remedy is equally beneficial, convenient and effective.
Syllabus, Point 2, Stowers v. Blackburn, 141 W.Va. 328, 90 S.E.2d 277 (W.Va. 1955).
The West Virginia Rules of Criminal Procedure provide no avenue for the taking of an
interlocutory appeal. Moreover, even if such an appeal were permitted under the law, the time
frames under which appeals are perfected, responded to, and heard would be inadequately long
to address the Petitioners issues. As such, there is no equally beneficial remedy available to
Petitioners outside of Mandamus Relief.
Additionally, as will be made clear in the arguments below, Petitioners have a clear right
under the law to the relief requested, and the Circuit Court has a clear duty to act in accordance
with Petitioner's request.
B.

THE BERKELEY COUNTY CIRCUIT COURT IS IN ERROR IN REFUSING TO
ALLOW DEFENDANTS TO OBTAIN DISCOVERY PRIOR TO CONDUCTING
THE RULE 44(C) COLLOQUY BECAUSE IT WILL PREVENT DEFENDANTS
FROM PROPERLY FORMULATING THEIR RESPECTIVE TRIAL
STRATEGIES

W.Va. Rule of Criminal Procedure 44(c) states that:
Whenever two or more defendants have been jointly charged pursuant to Rule 8(b) or
have been joined for trial pursuant to Rule 13, and are represented by the same retained
or assigned counsel or by retained or assigned counsel who are associated in the
5

App. 100

practice oflmv, the court shall promptly inquire with respect to such joint representation
and shall personally advise each defendant of the right to effective assistance of counsel,
including separate representation. Unless ii appears that /here is good cause to believe
no conflict of interest is likely to arise, /he court shall take such measures as may be
appropriale to protect each defendant's right to counsel.

"The standard for taking some affirmative action under subdivision (c) is the trial court's belief
that a conflict of interest is likely to arise." Cole v. White, 180 W.Va. 393 (1988). Moreover,
"When a trial court fails to follow the requirements of subdivision (c) the court will review the

record to determine if any conflict likely existed between the jointly represented parties rather
than to determine whether there was an actual conflict. If, after reviewing the record, the court
determines no conflict likely existed between the jointly represented parties, such representation
will not be deemed reversible error." Id. at 605; State v. Mullins, 181 W.Va. 415 (1989)
(Emphasis added).
The West Virginia Supreme Court has further noted that Rule 44(c) contemplates
potential use of alternatives other than disqualification, such as appointment of separate counsels
or the execution of written waivers. "The rule does not specify what actions may be taken, but
presumably may include disqualification of counsel, appointment of separate counsel, or
requiring the defendants to execute written waivers of the right to counsel." Cole, supra, 276
S.E.2d at 605 (quoting 8B J. Moore, Moore's Federal Practice§ 44.08 at 73). Disqualification of
a defendant's chosen counsel is generally disfavored where other alternatives exists. "Because
disqualification of a criminal defendant's chosen counsel raises problems of a constitutional
dimension, it is a harsh remedy that should be invoked infrequently." ex rel. Blake v. Hatcher,
624 S.E.2d 644,218 W.Va. 407 (W.Va. 2005). In additional alternative, separate trials of
codefendants, has also highlighted as a prefetTed alternative to disqualification. "The utilization
of separate trials has been recognized in Cuyler as a technique that may "significantly reduce the
6

App. 101

potential for a divergence in [codefendants] interests." Cole, supra, 180 W.Va. at 604. The
potentiality of these alternatives shows why it is so important for the Court to make a detailed
inquiry ofa defendants contemplated trial strategy during a rule 44(c) colloquy. In other words,
it will be impossible for the Court to determine whether a less drastic alternative to
disqualification would suffice
Because our state rules were modeled, and in fact copied virtually verbatim, on the
federal rules, it is instructive to look at the precedent which has developed around Federal Rule
of Criminal Procedure 44(c). In fact, the West Virginia Supreme Comi has expressly linked our
state's own Rule 44(c) to its federal counterpati, and has used the federal Advisory Committee
commentary as legal authority. See Cole, supra, 376 S.E.2d at 603 ("Our Rule 44(c) is the same
as Rule 44(c) of the Federal Rules of Criminal Procedure. In 8B J. Moore, Moore's Federal
Practice§ 44.08 at 73, this statement is made with regard to the purpose of the rule and a
summary of the rather lengthy commentary made by the Advisory Committee:"). Federal
jurisprudence on the issue similarly requires a comi to look at what is likely (not speculative or
conjectural, but likely based on the evidence and record available) prior to trial to determine
whether action need be taken. "Although joint representation 'is not per se violative of
Constitutional Guarantees of effective assistance of counsel, Holloway v. Arkansas, supra, it
would not suffice to require the court to act only when a conflict of interest is then apparent, for
it's not possible "to anticipate with complete accuracy the course that a criminal trial may take."

Fryar v. United States, 404 F.2d 1071 (101h Cir. 1968).
As such, the Court must make an inquiry of Defendants and of their counsel regarding the
possibility of a conflict of interest developing based on the nature of the contemplated defenses.

Rule 44 Notes ofAdvismy Committee on Rule -1944. See also Campbell v. United States, 352

7

App. 102

F.2d 359 (D.C. Cir. 1965) (where joint representation, court "has a duty to ascetiain whether
each defendant has an awareness of the potential risks of that course and neve1iheless has
knowingly chosen it"). Whenever it is necessary to make a more particularized inquiry into the
nature of the contemplated defense, the court should "pursue the inquiry with defendants and
their counsel on the record but in chambers" so as to "avoid the possibility of prejudicial
disclosures to the prosecution." United States v. Foster, 469 F.2d 1 (1st Cir. 1972). See also

Notes on Advisory Committee on Rules -1979 Amendment. In doing so, "it is impotiant that each
defendant be 'fully advised of the facts underlying the potential conflict and is given an
oppotiunity to express his or her views."' United State v. Alberti, 470 F.2d 878 (2d Cir. 1972).
From the back end of this inquiry, i.e. on petition for habeas relief, The West Virginia
Supreme Court has made clear that ineffective assistance of counsel claims deriving from joint
representation and potential conflicts of interest revolve around whether, at the outset of the case,
a Defendant's trial strategy was likely to create a conflict of interest for the attorney. The
analysis must be based on the evidence available at the time of trial and cannot be based on
theoretical speculation or conjecture - which thereby necessitates an inquiry into trial strategy.
The W.Va. Supreme Court stated as much in State v. Haddix, 375 S.E.2d 435, 180 W.Va. 71
(W.Va. 1988) when it held that,
The joint representation by counsel of two or more accused, jointly indicted and tried is
not improper per se; and, one who claims ineffective assistance of counsel by reason of
conflict of interest in the joint representation must demonstrate that the conflict is actual
and not merely theoretical or speculative.

The Haddix Court, in determining that trial counsel was not ineffective because of a conflict of
interest, found so expressly on the basis that counsel's trial strategy was sound and presented no
conflict. Said the Comi:

8

App. 103

Appellate counsel's retrospective theory of the case simply does not correlate with the
evidence available to trial counsel at the time of trial. It is pure conjecture to assume that
the dual representation caused Haddix to testify as he did.
Haddix maintained his innocence, contrary to the testimony of his alleged coconspirators, Workman and Kennedy. Moore did not testijj, against Haddix, and in fact,
all evidence in the record suggests that during the investigation of the burglary, Moore
never implicated Haddix.

Id. at 437.
As such, a Circuit Coutt, in reviewing the likelihood of a conflict under Rule 44(c), is to place its
primary focus on evaluating a Defendant's trial strategy, and must base its perception of a
conflict on actual facts in the record, and not on pure speculation or conjecture. Such a focus on
trial strategy and likelihood of conflicts at the time of said strategy's creation has been upheld by
the West Virginia Supreme Coutt even where actual conflicts arose later during the Course of
trial, so long as the trial strategy was sound and free of conflicts at the time it was formulated. In
State ex rel. Postelwaite v. Bechtold, 158 W.Va. 479,212 S.E.2d 69 (1975), a conflict was

alleged based on joint counsel's inability, following some highly damaging trial testimony, to
shift blame from one codefendant to another because of his joint representation. Said the Court:
When damaging testimony developed in trial, counsel felt 'hampered' and obliged to
pursue 'a middle-of-the-road course,' so as not to prejudice either client for the possible
benefit of one. All these considerations could have been of crucial significance if the
defense strategy had been to place blame upon the other codefendant. That, however, was
not the game plan adopted and pursued by these experienced trial counsel with the
acquiescence of their clients ... The courts have not bee11 too receptive to retrospective
appraisals of trial strategy ... A total appraisal of the evidence in this case, we believe,
clearly indicates /I decisive mu! i11formed choice to unijj1 the defe11se against the
prosecution along the defense lines of credibility and vemcity, giving 110 quarter to
admission, defectio11 1 or consortium. Under such circumstances, therefore, it is difficult
if not impossible to perceive how, other than by conjecture or surmise, defense counsel,
by the dual representation, slighted the defense of one defendant in favor of the other.
Id. at 73-76 (emphasis added).

It was with the above law in mind that undersigned moved, prior to the Court's planned
Rule 44(c) inquiry, to have the state produce its discovery and its bill of particulars prior to the
Coutt's colloquy. Petitioners argued that it would be difficult if not impossible to fully articulate
9

App. 104

a trial strategy prior to reviewing discovery, and it therefore would be of little benefit to the
Court to conduct said inquiry without it.
The state, for its part, argued that The Rules of Procedure for Magistrate Comt did not
require the production of discovery until 21 days prior to trial. However, Petitioners are not
before the Berkeley County Magistrate Coutt. They are before the Berkeley County Circuit
Court upon a motion to transfer to which was granted unopposed. Rule 1 of the W.Va. Rules of
Criminal Procedure for Magistrate Courts, Titled "Scope," states that, "These rules govern the
procedure in all criminal proceedings in the magistrate courts of the State of West Virginia." As
such, the magistrate court rules have no bearing whatsoever on the issue. Moreover, Petitioner
requested discovery months prior, in August of 2019, and its request for a bill of Paiticulars in
October of 2019. There is no legitimate reason that these discovery requests have not yet been
provided, as The Rules of Criminal Procedure place no time constraints whatsoever on a
Defendants request for discovery.
Nevettheless, the Court flatly denied Petitioners request for discovery prior to the Rule
44(c) colloquy, and stated that it would not demand production of discovery any earlier than was
required under the rules (apparently making the same misapprehension as to the relevant rules as
the State). In response to Petitioners' ai·guments regarding the need for such discovery in order to
determine and communicate to the Court its pretrial strategy, the Comt stated only, "I disagree,"
and gave no fmther basis for its rejection of this request.

VIII. Conclusion
For all the reasons stated above, Petitioners request that this Honorable Comt GRANT its
Petition for Writ of Mandamus and compel the Berkeley County Circuit Comt to Order the
production of Discovery and a Bill of Particulai·s as requested by Petitioners with sufficient time
10

App. 105

to allow a thorough review of the same prior to conducting the Colloquy under Rule 44(c) of the
West Virginia Rules of Criminal Procedure.
Respectfully,
Defendants Lester, Douty, and Yurish,

By Counsel:

Isl Clu·istian J. Riddell
Christian J. Riddell (#12202)

Law Offices of Stedman and Riddell
329 S. Queen Street Martinsburg, WV 25401
(304)267-3949

11

App. 106

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No.

State of West Virginia, ex rel June Yurish, Kristin Douty and
Christina Lester
Case No: 19-M-7
CaseNo: 19-M-8
Case No: 19-M-9

v.

The Honorable Laura Faircloth
Sittings as Judge of the Circuit Court of Berkeley County
CERTIFICATE OF SERVICE
I, Christian J. Riddell, Esq., do swear that a copy of the Petition for Writ of Mandamus in
this matter was served upon the Honorable Laura V. Faircloth, Circuit Court Judge, by United
States Mail, postage pre-paid to her address of380 West South Street, Martinsburg, WV, 25401
and upon Kevin Watson, Esquire at his address of 30 West South Street, Martinsburg, WV
25401 by United States Mail, postage pre-paid, this 3rd day of December, 2019.
ls/Christian J. Riddell
Christian J. Riddell (WV Bar # 12202)
Stedman & Riddell
329 S. Queen Street
Martinsburg, WV 25401
(P): (304) 267-3949 (F) (304) 267-5411
Email: stedmanriddell@gmail.com

App. 107

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No.
State of West Virginia, ex rel June Yurish, Kristin Douty and
Christina Lester
Case No: 19-M-7
Case No: 19-M-8
Case No: 19-M-9

v.

The Honorable Laura Faircloth
Sittings as Judge of the Circuit Court of Berkeley County

J

APPENDIX TO PETITION FOR WRIT OF PROHIBITION

Christian J. Riddell
W.Va. Bar No. 12202
Stedman & Riddell, PLLC
329 South Queen Street
Martinsburg, West Virginia 25401
(304) 267-3949
(304) 267-5411 facsimile

App. 108

TABLE OF CONTENTS
December 10, 2019 Hearing Order ........................................................................ 1
Herald Mail article February 19, 2019 ............................................................ 5
Criminal Complaint. .................................................................................. I 0
Informed Consent Conflict Waiver. ......................................... , ......... , ........... 13
State's Motion To Disqualify Defense Counsel.. ................................................ 22
Defendants' Consolidated Response to State's Motion To Disqualify ........................ 27
State's Reply to Defendants' Consolidated Response to State's Motion To Disqualify ... 69
Defendants' Supplemental Consolidated Memorandum Regarding Disqualification of
Joint Representation ........................ , ...... , .... , ..... , ...................................... 78
State's Response To Defendant's Supplemental Consolidated Memorandum Regarding
Disqualification of Joint Representation ... ,, ........ ,,, .... , ..................... ,,, .... , .... , .... 89
November 21, 2019 Hearing Order................................................................ 100
Order Setting Arraignment Hearing ... , ... ,, ..... , .... ,, .......... , ........... ,, .... ,, ............ I 02
Certificate of Service .... ,, ...... , .... , ......... ,,, ......... ,, .............. , ... , .... , .......... , ..... 104

ii
App. 109

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No.
State of West Virginia, ex rel June Yurish, Kristin Douty and
Christina Lester
Case No: 19-M-7
Case No: 19-M-8
Case No: 19-M-9

v.

The Honorable Laura Faircloth
Sittings as Judge of the Cil'cuit Cou1t of Berkeley County

CERTIFICATION
I, Christian J. Riddell, Esq., do hereby swear and affirm that the documents enclosed in

.,.;/ lw··'

this appendix are true and accurate copies of items contained in the record of the lower tribunal.

//

'

_://t}f

/

, /f.' Ii: .t?(/

/1·
I'. //1
( /.-- ,,./ '{/ [/ ''/.
Christian J. Riddell (WV Bar#l2202)
Stedman & Riddell PLLC
329 S. Queen Street
Ma1tinsburg, WV 2540 I
(P): (304) 267-3949
(F) (304) 267-5411
,'

App. 110

In the Circuit Court of Berkeley County, West Virginia

)
)
)
)
)
)
)
)

State of West Virginia,
Plaintiff,

vs.)
Kristin Lynn Douty,
Defendant

Case No. CC-02-2019-M-7

DECEMBER 10, 2019, HEARING ORDER

On December 10, 2019, the State, by Berkeley County Prosecuting Attorney Catie
Wilkes Delligatti and Assistant Prosecuting Attorney Kevin Watson, and the Defendants, June
Yurish, Kristen Douty, and Christina Leste1; in person and by counsel, Christian Riddell,
appeared before this Court for a hearing.
The purpose of the hearing was to conduct a colloquy on the record pursuant to Rule
44(c) of the West Virginia Rules of Criminal Procedure. The Court addressed Defendants'
contention that the colloquy should be conducted in chambers, and indicated that based upon the
research available, there is no requirement in West Virginia that a Rule 44(c) colloquy be
conducted in chambers. Specifically, the Comt found that the case cited by the Defendants,

United States v. Foster, 469 F.2d 1 (1st Cir. 1972), is not controlling on this Court, that the
suggestion to conduct a colloquy in chambers was merely that, a suggestion, and that no special
circumstances exist that would warrant conducting the colloquy in chambers.
The Court then had the Defendants sworn to testify and conducted individual colloquys
with each Defendant pursuant to Rule 44( c) to ensure that each Defendant was advised of her
right to counsel. Specifically, the Court confirmed that each Defendant understood she was
charged with an offense that could result in jail time, was being represented by the same attorney
as her two co-defendants, that she had a right to expect communication with her attorney would
be privileged but, that in this case, counsel for Defendants would be obligated to meet with all

I
App. 111

Defendants together, or to provide all information from each Defendant to her co-defendants,
that the State is always able to offer pleas for any reason, including for cooperation, and that one
Defendant may choose to speak with the State regarding a plea offer and if that were to occur,
counsel for Defendant would have to withdraw from representation. The Court inquired of each
Defendant if she was sure no set of circumstances could arise in the future that would cause a
conflict to develop with counsel. Each Defendant confirmed that she understands she has the
right to separate counsel.
The Court found that each Defendant honestly and sincerely answered the Comt's
inquiries. The Court further stated that no actual conflict need exist for disqualification.
Counsel for Defendants requested time for argument, and the Court found that all
arguments have been made and considered, both in writing and in oral argument before the
Court. Defendants' objection is noted.
The Court then found that there is good cause to believe a conflict is likely to arise in
this case once the Court moves forward and makes rulings on admissibility and the case is set for
trial; that the Court believes it very likely in this case that a conflict will arise and consequently
counsel for Defendants is disqualified. The Court found that each Defendant being represented
by the same counsel would not be in that Defendant's best interest, and the Court must act in the
interest of justice. Defendants' objection is noted.
Counsel for Defendants then asked ifhe was disqualified from representing all
Defendants, or ifhe could continue to represent one of the Defendants. The Court ruled that
since counsel for Defendants has counseled each Defendant on this case, he must be disqualified
from representing all Defendants. The Court also notes that counsel for Defendant previously
conceded that failure of joint representation will require withdrawal from all three cases.
Defendants' objection is noted.

App. 112

Consequently, this Court affirmed its prior ruling that counsel for Defendants is
disqualified from representiog any Defendant in this matter, and each Defendant must seek
separate counsel.
The Clerk shall provide copies of this Order to all counsel, as well as to Defendants
individually by mail.
Prepared by:

ls/Catie Wilkes Delligatti
Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney
380 West South Street, Suite l 100
Ma1tinsburg, WV 25401
PH: (304) 264-1971
FX: (304) 263-6092

/s/ Laura Faircloth

Circuit Court Judge
23rd Judicial Circuit

Note: The electronic signature on this order can be verified using the reference code that appears in the
upper-left corner of the first page. Visit www.courtswv.gov/e-file/ for more details.

3
App. 113

West Virginia E-Filing Notice

CC-02-2019-M-7
Judge: Laura Faircloth

To: Christian John Riddell
stedmanriddell@gmail.com

NOTICE OF ELECTRONIC FILING
IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
State of West Virginia v. Kristin Lynn Douty
CC-02-2019-M-7
The following order - case was FILED on 12/11/2019 3:06:05 PM

Notice Date:

12/11/2019 3:06:05 PM
Virginia Sine

CLERK OF THE CIRCUIT
Berkeley
380 W. South Street
MARTINSBURG, WV 25401
(304) 264-1918
belinda.parsons@courtswv.gov

App. 114

12/20/2019

W.Va. attorney genernl flies human rights action, says students were verbally abused I West Virginia I heraldmailmedia.com

https:/lwww.heraldmailmedla.com/news/tri_stale/wes\_virglnla/w-va-attorney-generaHiles-human-rlghts-actlon-saysstudents/artlcte_ 17b39b97-3ec7-5281-b8b1-36a00acb6111 .html

cyt,s'{a· attorney general files human rights action, says students were
verbally abused

By Matthew Umstead mumstead@herald-mall.com
Feb 19, 2019

West Virginia Attorney General Patrick Morrisey is shown In this file photo. Morrisey in an Interview Monday urged residents
to report suspected Medicaid fraud in whatever form it might surface
By Matthew Umstead

MARTINSBURG, W.Va. -

West Virginia Attorney General Patrick Morrisey in Martinsburg on

Tuesday announced the filing of a human rights action against three former employees at a
Martinsburg elementary school, where they allegedly verbally assaulted two nonverbal children with
autism.

https://www.heraldma~medla.com/news/tri_s tate/wesLvirgin!a/w-va-attomey-genera\-files-human-rlghts-action-says-students/artlcle_ 17b39b97-3ec7-5. . . 1/6

App. 115

12/20/2019

W.Va. attorney general files human rights action, says students were verbally abused I West Virginia I heraldmallmedla.com

The complaint for injunctive relief and civil penalties filed against former Berkeley Heights
Elementary School teacher Christina Lester and teacher aides June Yurish and Kristin Douty asks a
circuit judge to declare that they violated the West Virginia Human Rights Act.

CLOSE
The civil action also asks the court to order each defendant to pay a $5,000 penalty for each
violation and to impose injunctions to block Lester, Yurish and Douty from holding any position, paid
or volunteer, in which they could supervise or care for children.

The complaint also seeks to block the former staff members from having contact with the students in
question or their family.

"Now, this action is just the first step," Morrisey said in announcing the civil action outside the
Berkeley County Judicial Center in Martinsburg. "But our investigation continues and we reserve the
right to add more defendants (to this case}, both individuals and organizations, once our
investigation is complete."

Morrisey said he is working with Berkeley County Prosecuting Attorney Catie Wilkes Delligatti on an
investigation.

"We have other entities and individuals who we are investigating. We're going to leave the names
out at this time," Morrisey said. "But it's my intent to ensure that justice is delivered, that all
appropriate parties are addressed in this matter."

Delligatti announced on Feb. 8 that a police investigation could not prove that a criminal offense
occurred after reviewing an audio recording of numerous instances of verbal abuse in the
classroom. The recording was made in early October with a device that Amber Pack, a mother of
one of the special needs students, hid in her child's hair.

Pack said last week that she became convinced something wasn't right in late September. She went
to pick up her child for a doctor's appointment and discovered she had been crying a lot before she
arrived.

lJ)

https ://www.heraldmailmed la.cam/news/trLstate/wesLvirglnla/w-va-attomey-general-files-human-rig
hls-action-says-students/art!cle_ 17b39b97-3ec7-5 .. , 2/6
App. 116

12/20/2019

W.Va. attorney general flies human rights action, says students were verbally abused I West Virginia I heraldmailrnedla.com

Her daughter and at least two other children in the classroom were placed at other schools in the
district. The mothers all of three said last week that their children improved substantially since they
were transferred.
CLOSE

Delligatti, who was on hand for Morrisey's announcement, confirmed in a short interview that she is
cooperating with the attorney general's investigation.

Should Morrisey's investigation provide further evidence, Delligatti said, her office would take that
into account and bring any prosecution "allowable under the law to keep these kids safe."

Delligatti reiterated that verbal abuse of a child is not a crime in state law, but she has been working
with state lawmakers to address the issue.

Morrisey noted that comments by the former teacher and teacher aides included talk about "busting
in someone's teeth," "tearing out their ears" and other "barbaric" comments made by people in a
position of trust.

He said the comments are particularly heinous because autistic children perceive comments "quite
literally."

"If there are credible allegations where a teacher or a teacher aide is inappropriately threatening
someone under the statute, we will step in, we will take action and we will work to make sure you
never teach in West Virginia ever again," Morrisey said.

The action by Morrisey's office came less than 24 hours after dozens of people crowded into the
Berkeley County Board of Education meeting room to voice their concerns about the handling of the
abuse allegations.

Some who attended the meeting called for the resignation or termination of Berkeley County
Schools Superintendant Manny Arvon, Deputy Superintendent Margaret Kursey, the elementary
school principal and other administrative staff.

7
https://www.heraldma II media ,com/news/tri_state/west_virginia/w-va-attomey-general-flles-human-rights-action-says-students/artlcle
_ 17b39b97-3ec7-5. . . 3/6
App. 117

12/20/2019

W.Va. attorney general files human rights action, says students were verbally abused I West Virginia I heraldma\lmedla.com

Others questioned why the teacher and aides were not removed from the classroom more quickly
and terminated, instead of being allowed to resign.

Cl:.\?siter's resignation was effective Dec. 4. The resignations of Douty and Yurish was made effective
on Thursday, when the Berkeley County Board of Education voted 4-1 to accept them.

Board member Michelle Barnes-Russell voted against the personnel action. She was praised
Monday night by some in the audience who perceived her vote to be against allowing Douty and
Yurish to resign.

Barnes-Russell declined to comment about her vote last week.

The school board, per its policy, did not respond to audience questions Monday night. Board
President William F. "Bill" Queen, after hearing comments from more than 30 people, told the crowd
that he appreciated everyone who shared concerns and opinions.

"I respect that," Queen said.

School board member Pat Murphy pointed to pages of notes that he took while listening to
comments. He said he could tell there is a lot of frustration in the community.

"I think this is going to have an impact on our (school) system," Murphy said.

SPONSORED CONTENT

Deal of the Day: Kindle Unlimited-Up to 40°/o off unlimited
reading
By Reviewed.com

https:1/www.heraldmailmedia.com/news/tr!_state/wesLvlrginia/w-va-attorney-general-flles-human-rlghts-aclf
on-says-students/article_ 17b39b97-3ec7-5., . 4/6
App. 118

12/20/2019

W. Va. attorney general files human rights 8ction, says students were verbally abused l West Virginia Ihera!dmallmedla.com

}ii~~~

CLOSE

.,~ ..·..

.'

Morrisey comP.laint
Feb 19, 2019

Matthew Umstead
Matthew Umstead has reported on Berkeley, Jefferson and Morgan counties in West Virginia for Herald"Mail Media since 2006. He
can be reached by email at mumstead@herald"mall.com. Follow him on Twitter @matthewumstead.

You May Like

Sponsored Links by Taboola

Jennifer Aniston No Makeup Photo Confirms The Rumors
Trading Blvd

How To Properly Empty Your Bowels Every Morning • Top Surgeon Explains How
Gundry MD I Supplements

Tragic Reason Judy Was Drugged For 'Wizard Of Oz'
Hooch

Honeylove - Official Website of the Next Generation of Shapewear
Honeylove Sculptwear, Inc.

Man Transformed a Barely-Standing Wreck into Something Utterly Extraordinary
lcePop

q

Unsold 2018 SUVs Going for Pennies On The Dollar: Great For Seniors! Search For
https://WWW. heraldmailmedia.com/news/tri_state/west_vlrglnia/w-va"attomey-ge neral-files-human-rlghts-aclion-says-stu den ts/article_ 17 b39b97-3ec7-5. . . 5/6

App. 119

IN THE MAGISTRATE COURT OF

BERKELEY

COUNTY, WEST VIRGINIA
<)f/tJ/t)

/1/ r!tJ;w-J.r4lfl'l19

S1lltc of West Virginia

Case No.

J\llle Elizabeth Yurish
Defendant (full W1me)

XXX-XX- 8793
Social S<:curity Nwnber

v.

0

Misdemeanor/

El15842

502 Gant Prive

0

Felony

01 / 26 I
Date of Birth

.

1962

Driver's License/ Identification Number

A4dreJls

Martinsburg, WV 25403

Phone Number(•)

City, State & Zip Code

CRIMINAL COMPLAINT

{Mag. Ct. Criminal Pracedt1re Rule 3,4; 18 U.S.C. § 92I(a)(33}]

I, the undersigned colllplainant, upon my oath or affinnation, state the following is true and cotrtct to 1hc
bestofmyknowledgcandbellef. On or about 10 / 04 / 2018 , in
B~ley
County, West Virginia, in violation of West Virginia Code§ (cite specific section, subsection, and/ar subdlvl.sion,
ifapplicable) §49-2-812. Failure to rq)(Jrt
the defendant did (state statutory language ofthe offense)
sec attached

I further state that dtls colllplaint is based upon the following facts:

0 Check ifcontinued on attached sheet.

(Jf thts complaint Involves misdemeanor assault/battery [West Virginia Code§ 61-1-9] or misdemeanor domestic
assault/battery [West Virginia Code§ 61 -1-28}, check all that apply. The defendant:
0 is/was the victim's spouse.
D is/was living with the victim as a spouse, plll'ent, or glla)'dian.
D is/was a pllfent or guardia.u of the victim. D is a person who ls like a spouse, parent, or guardian of the victim.
O has a child in common with the victim. D basoonc of the above connections to the victim,
Comp.lairumt (wbo appears before Maglslrate):
Britney E. Conner
Compla.iruuit (full Wllllo)

232 N. Queen Street

Addre,g

Martinsburg, WV 25401
City, S!llte &. Zip Code

304-264-2)00

Phone Numbet(s)

Patrolwoman

On this complaint, swom or affirmed before me and
signed in my presc:nce on this date by the complainant,
the ltetn(s) checked below apply:
Fipdh!8

0

{l1

Issuance

No probable cause found 0 Slllllmons issued
Probable cause found
~arrant issued
0 Wamllltless am:st

App. 120

§49-2-812. Failure to report; penalty.

(a) Any person, official or institution required by this article to report a case involving a
child known or suspected to be abused or neglected, or required by section eight hundred
nine of this article to forward a copy of a report of serious injury, who knowingly fails to do
so or knowingly prevents another person acting reasonably from doing so, is guilty of a
misdemeanor and, upon conviction, shall be confined in Jail not more than ninety days or
fined not more than $5,000, or both fined and confined.

I\
App. 121

Case No.

-------------

BERKELEY
COUNTY, WEST VIRGINIA
----------

IN THE MAGISTRATE COURT OF

CRIMIN.AL COMPLAlNT (CONTINUATION PAGE)

. On Octobcr 5, 2018, Aml>er Pack reported to Martinsburg Police Depamnent to file a complaint rcgardin~ her

daughter, AP. AP is a 6--year..Qld, autistic, non-verbal, female juvenile who attends Bedceley Heights EIClllClllBI)'.
. Amber Pack advised Ptlw. B. E. Conner that she had noticed a drastic cqe in her daughter's behavior over the
. past month. Ms. Pack advised that AP is in a special needs class with two olhcr children. Ms. Pack advised the
teacher is Christina Lester and the two aides are Jillie Yurisb and Kristin Douty.
Betause the mother was concerned for the well-being of her child, she placed an audio recording device in the
child's hair on October 4, 2018. While at the police station, Ms. Pack played back Ptlw. B. E. Conner an 8-mlnutc
audio clip frtltn her cell phone in wbkh you can hear someone say, "l am going to punch you in the lace" and
"shut up". Pllw. B. E. Conner recorded the audio using her body-worn camera.
On this same date,Jamt:s Pack:, the filther of AP emailed a link t<l the full 8-hour audi<l file. I, Ptlw. B. E. Conner

located the segment of the recording that I had reviewed ftom Mrs. Pack's cell phone. The audfo quality was
slightly better than that heard 011 the cell phone.

on this same date, October 5, 2018, I Ptlw. B. E. Conner rcsjl()ndcd t<l Bakeley Heights Elementary and met widt
Administrator, Amber Boeckman, and the two aides, June Yurish Md Kristin D<luty. I utilized my body-worn
camera to playback the 8-minute audio clip. Kristin Douty and June Yurish denied having said those things to
AP. They advised Ptlw. B. E. Conner that they may speak to each odlct like this, but would never speak to the
cllildJen in this matter.
The recording from October 4, 2018, occurred when June Yurlsb, Kristin D<luty, and Christina Lester were
present togclher.
Upon review of the full 8-hours of audio, this Officer found no evidence of felony physical child abuse. The
audio recording did provide evidence of verbal abuse as defuled nuder the civil abuse and neglect code in Chapter
49, and failure to report that is a misdemeanor.
. Based on dlese facts, this Officer respectfully xcquests warrants be issued for failure to report suspected abuse and
neglect in violation of WV Code 49-2-812(11).
,, "

J.

.........::;.::'/

MCJlCRCO: Crbnln•t Complalllt (pr.vlou•ly MCRCOMI'J
Revision Date: 06/2012; lPwvscA Approved: 06/06/2012; Docket Code(s): MFFCF / MMFCF

I'2.

App. 122

'
.

''

v; '<I··. "\.

i ,...

J

Pagel

INFORMED CONSENT CONFLICT WAIVER
With my signature below, I acknowledge my understanding of the following:
1. I, Christina Lester, am aware that my co-defendants, June Yurish and Kristin Douty, and

I have all retained the same lawyer, Christian J. Riddell, to defend us against charges
brought by the Berkeley County Office of the Prosecutor for failure to report under
W.Va. Code§ 49-2-803.
2. My attorney has informed me that a potential conflict of interest may exist between my
co-defendants and I because it may, at some point, be to my advantage to defend
accusations against me by placing the blame at the feet of my co-defendants.
3. My attorney has further informed me that it is probable that the prosecutor will offer me a
plea agreement which requires my cooperation and testimony against my co-defendants
in exchange for a more lenient sentence.
4. My attorney has informed me that, pursuant to Rule 1.7 of the West Virginia Rules of
Professional Conduct, the possibility of such a plea agreement creates for him a
concurrent conflict of interest as to joint representation because he will be unable to
negotiate any such plea agreement on my behalf because of his ongoing representation
and duties to my co-defendants.
5. My attorney has further informed me that it is my right to waive this conflict of interest,
after being fully appraised of the existence of these potential and actual conflicts, if I so
choose.
WHEREFORE, having been made fully aware of the actual and potential concurrent
conflict of interests that exist in this case, I hereby waive all such conflicts and exercise my

I".7
App. 123

right to continue with Mr. Riddell as my attorney, knowing full well that he will also be
representing my co-defendants, June Yurish and Kristin Douty.

I

\L\App. 124

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,
Case No. 19-M-8

vs.

CHRISTINA VICTORIA LESTER,
Defendant.

VERIFICATION
I, Christina Lester, Defendant in the foregoing Action, after being duly sworn, says that the

facts and allegations contained in the "Infonned Consent Conflict Waiver" are true, except insofar
as they are therein stated to be upon infonnation and belief, and that insofar as they are therein
stated, they are believed to be true.

~
Christina Lester
Taken, subscribed and sworn to before the undersigned authority this

My Commission expires:

O,jYu-1 ~ !{[);Ji)

IS
App. 125

3 day of December 2019.

INFORMED CONSENT CONFLICT WAIVER
With my signature below, I acknowledge my understanding of the following:
1. I, June Yurish, 8Ill aware that my co-defendants, Christina Lester and Kristin Douty, and
I have all retained the same lawyer, Christian J. Riddell, to defend us against charges
brought by the Berkeley County Office of the Prosecutor for failure to report under
W.Va. Code§ 49-2-803.
2. My attorney has informed me that a potential conflict of interest may exist between my
co-defendants and I because it may, at some point, be to my advantage to defend
accusations against me by placing the blame at the feet of my co-defendants.
3. My attorney has further infonned me that it is probable that the prosecutor will offer me a
plea agreement which requires my cooperation and testimony against my co-defendants
in exchange for a more lenient sentence.
4. My attorney has inf01med me that, pursuant to Rule 1.7 of the West Virginia Rules of
Professional Conduct, the possibility of such a plea agreement creates for him a
concurrent conflict of interest as to joint representation because he will be unable to
negotiate any such plea agreement on my behalf because of his ongoing representation
and duties to my co-defendants.
5. My attorney has further informed me that it is my right to waive this conflict of interest,
after being fully appraised of the existence of these potential and actual conflicts, if I so
choose.
WHEREFORE, having been made fully aware of the actual and potential concurrent
conflict of interests that exist in this case, I hereby waive all such conflicts and exercise my

ILp
App. 126

- right to continue with Mr. Riddell as my attorney, knowing full well that he will also be
representing my co-defendants, Christina Lester and Kristin Douty.

I
I

It
App. 127

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

vs.

Case No. 19-M-9

JUNE ELIZABETH YURISH,
Defendant.

VERIFICATION
I, June Yurish, Defendant in the foregoing Action, after being duly sworn, says that the facts
and allegations contained in the "Infonned Consent Conflict Waiver" are true, except insofar as they
are therein stated to be upon infonnation and belief, and that insofar as they are therein stated, they
believed to be true.

JV

"---·--···

3r4

Taken, subscribed and sworn to before the undersigned authority this __ day of December 2019.

I

My Commission expires:

tio;: '!O MOOIII' "IPB UO[S~WUJOO

/1 /

7..,r)J

Y

,w

wm m'6mqsu1µaw •19&11s uoano iunos ~
U8PPIH 'I utlWpa)S JO aa~o Ml!]

"ilaJaa uoue4~

~

\11NIOBIA!S3Md0 3!V!S ·onend Al!V!ON ~ '
~

ll/3S ,Vi~i±IO
.............. ,.,__,..,,,_..
.
.... "".,._,...~,...

"

App. 128

INFORMED CONSENT CONFLICT WAIYER
With my signature below, I acknowledge my understanding of the following:
I. I, Kristin Douty, am aware that my co-defendants, Christina Lester and June Yurish, and
I have all retained the same lawyer, Christian J. Riddell, to defend us against charges
brought by the Berkeley County Office of the Prosecutor for failure to report under
W.Va. Code§ 49-2-803.
2. My attorney has informed me that a potential conflict of interest may exist between my
co-defendants and I because it may, at some point, be to my advantage to defend
accusations against me by placing the blame at the feet of my co-defendants.
3. My attorney has further informed me that it is probable that the prosecutor will offer me a
plea a!P'eement which requires my cooperation and testimony against my co-defendants
in exchange for a more lenient sentence.
4. My attorney has informed me that, pmsuant to Rule I. 7 of the West Virginia Rules of
Professional Conduct, the possibility of such a plea agreement creates for him a
concurrent conflict of interest as to joint representation because he will be unable to
negotiate any such plea agreement on my behalf because of his ongoing representation
and duties to my co-defendants.
5. My attorney has further informed me that it is my right to waive this conflict of interest,
after being fully appraised of the existence of these potential and actual conflicts, ifl so
choose.
WHEREFORE, having been made fully aware of the actual and potential concurrent
conflict of interests that exist in this case, I hereby waive all such conflicts and exercise my

App. 129

right to continue with Mr. Riddell as my attorney, knowing full well that he will also be
representing my co-defendants, Christina Lester and June Yurish.

DATE: _ _
)iJ_~_1~_/--'-9'-

SIGNED:~~:_/~

I

I

App. 130

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,
Case No. 19-M-7

vs.

KRISTIN LYNN DOUTY,
Defendant.

VERIFICATION
I, Kristin Douty, Defendant in the foregoing Action, after being duly sworn, says that the
facts and allegations contained in the "Informed Consent Conflict Waiver" are true, except insofar
as they are therein stated to be upon information and belief, and that insofar as they are therein
stated, they are belie ced to be true.

'! r(j_

Taken, subscribed and sworn to before the undersigned authority this _'D_ day of December 2019.

My Commission expires:

1[ 1 (J-oJ-ll .

CJ~um r;JJ~,·

NOTARY PUBLI

App. 131

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,
V,

KRISTIN L, DOUTY,
DEFENDANT
and

CASE CC-02-2019-M-7

CHRISTINA LESTER,
DEFENDANT
and

CASE CC-02-2019-M-8

JUNE YURISH,
DEFENDANT

CASE CC-02-2019-M-9

STATE'S MOTION TO DISQUALIFY DEFENSE COUNSEL

The State of West Virginia, by Berkeley County Prosecuting Attorney Catie Wilkes
Delligatti and Assistant Prosecuting Attorney Kevin J. Watson, hereby moves this Honorable
Court to disqualify defense counsel from further representation of these Defendants in each of
the proceeding based upon a current conflict under Rule l, 7 of the W.Va. Rules of Professional
Conduct.
This matter is a pending misdemeanor case originally charged in Magistrate Court.
Recently, the defendants each waived her right to have the matter heard by a Magistrate I and
moved to transfer the case to the jurisdiction of the Circuit Court, The Magistrate Court agreed
and transferred the case to Circuit Court. This matter has been set for an initial hearing, where
the Court has given notice to counsel that defense counsel's representation of the co-defendants
(and potential disqualification) will be taken up by the Court. This matter is one of three
codefendant/companion cases: State v. Douty, 19-M-7; State v. Lester, 19-M-8; and State v.
Yurish, 19-M-9. These are co-defendants for which the State wishes to proceed with a joint trial
1

This will need to be confirmed on the record at the initial hearing.
Page 1 of5

App. 132

i

!·-···

of all three. 2 The defendants' respective interests in this matter, while maybe aligned in some
way, are directly adverse in at least one way: the potential to seek a plea agreement with the
State that requires cooperation against the other co-defendants. This is the type of agreement
explored in almost all cases, and certainly will be explored in this case. In fact, the State has
already made plea offers to each defendant which will expire soon and which require cooperation
against their co-defendants. In this case, the conflict is non-consentable, and justice .and fairness
require disqualification. The State now seeks disqualification of defense counsel, so that the
State may fully negotiate with the each defendant, and so that each defendant is able to have
unbiased counsel on such matters.
Our Court has noted with regard to such a motion:
A circuit court, upon motion of a party, by its inherent power to do
what is reasonably necessary for the administration of justice, may
disqualify a lawyer from a case because the lawyer's representation
in the case presents a conflict of interest where the conflict is such
as clearly to call in question the fair or efficient administration of
justice. Such motion should be viewed with extreme caution
because of the interference with the lawyer-client relationship.
Sy!. Pt. 3, State ex rel. Michael A.P. v. Miller, 207 W.Va. 114, 116, 529 S.E.2d 354, 356
(2000); Sy!. Pt. 1, Garlow v. Zakaib, 186 W.Va. 457,413 S.E.2d 112 (1991). As far as whether
the n:presentation of these clients presents a conflict, Rule 1.7 of the W.Va. Rules of
Professional Conduct states:
Conflict of Interest: Current Clients
(a) Except as provided in paragraph (b ), a lawyer shall not represent a
client if the representation involves a concurrent conflict of interest. A
concurrent conflict of interest exists if:
2

In Magistrate Court, there are no joint criminal complaints

01· other process

akin to a joint indichnent. ln magish·ate

Court a motion can be made to join. The same process is applicable here, and the State intends to make a Rule 13
Motion for Joinder at the initial hearing. W.Va. Rules of Crim Pro. 8(a), 13; See also, Syl. Pt. 5, State v. Mitter, 285
S.E.2d 376,377, 168 W.Va. 531, 532 (W.Va.,1981). Defense counsel has been contacted multiple times about his

position on this issue, but has not responded.

Page 2 of 5

App. 133

(1) the representation of one client will be directly adverse to another
client; or
(2) there is a significant risk that the representation of one or more
clients will be materially limited by the lawyer's responsibilities to
another client, a former client or a third person or by a personal
interest of the lawyer.
(b) Notwithstanding the existence of a concurrent conflict of interest under
paragraph (a), a lawyer may represent a client if:
(1) the lawyer reasonably believes that the lawyer will be able to
provide competent and diligent representation to each affected client;
(2) the representation is not prohibited by law;
(3) the representation does not involve the assertion of a claim by one
client against another client represented by the lawyer in the same
litigation or other proceeding before a tribunal; and
(4) each affected client gives inf01med consent, confirmed in writing.
So, a violation of subsection (a) may only be avoided by fulfilling all of the mandates of
subsection (b). This is often unattainable in co-defendant representation cases. In fact, the official
comments on this Rule directly warn against allowing co-defendant representation:
Paragraph (b)(3) prohibits representation of opposing parties in the
same litigation, regardless of the clients' consent. On the other
hand, simultaneous representation of parties whose interests in
litigation may conflict, such as coplaintiffs or codefendants, is
governed by paragraph (a)(2). A conflict may exist by reason of
substantial discrepancy in the parties' testimony, incompatibility in
positions in relation to an opposing party or the fact that there are
substantially different possibilities of settlement of the claims or
liabilities in question. Such conflicts can arise in criminal cases as
well as civil. The potential for conflict of interest in
representing multiple defendants in a criminal case is so grave
that ordinarily a lawyer should decline to represent more than
one codefendant. ...

Id. at Comment 23 (emphasis added). Also, of note for this consideration, is comment 29, which
provides:

In considering whether to represent multiple clients in the same
matter, a lawyer should be mindful that if the common
representation fails because the potentially adverse interests cannot
Page 3 of5

App. 134

I

I

I

be reconciled, the result can be additional cost, embarrassment and
recrimination. Ordinarily, the lawyer will be forced to withdraw
from representing all of the clients if the common
representation fails. In some situations, the risk of failure is so
great that multiple representation is plainly impossible. For
example, a lawyer cannot undertake common representation of
clients where contentious litigation or negotiations between
them are imminent or contemplated. Moreover, because the
lawyer is required to be impartial between commonly represented
clients, representation of multiple clients is improper when it is
unlikely that impartiality can be maintained. Generally, if the
relationship between the parties has already assumed antagonism,
the possibility that the clients' interests can be adequately served
by common representation is not very good ....
(emphasis added)
Applying these principles to the facts of this case, disqualification is required. The codefendants here are potential adverse witnesses to one another. A single lawyer cannot advise
one of these co-defendants about cooperating against another even if doing so is in her best
interest. If the Court were to allow Counsel to continue this common representation, then the
State's ability to offer cooperation plea agreements is seriously hindered.

In fact, in email communication, defense counsel has admitted that there is conflict here
(assumedly under Rule 1.7), but states that he has a waiver. However, Rule l.7(b) requires more
than a waiver. As the comments to the Rule explain, item (I) of this Rule cannot be met in this
case: Mr. Riddell cannot provide competent and diligent representation to each affected client
because he cannot advise them about cooperation against his other clients. Moreover, he cannot
meet (b)(3 ): this case could and likely will quite possibly involve one claiming the others were
the perpetrators of the abuse, but that possibility will be suppressed merely by defense counsel's
common representation. See, supra, Comment 23. So, defense counsel is unable to satisfy the
requirements of 1.7(b), even with informed consent of the clients.

Page4 of5

App. 135

More than just a technical violation of Rule 1.7, this conflict directly affects the fair
administration of justice: it suppresses each of these defendant's ability to explore their options
and affects the State's ability to explore certain options in plea agreement negotiations. A
defendant's suppressed ability to explore something so obviously fundamental to resolution of
this case is a habeas petition waiting to happen. The State requests that this Court find, out of
fundamental fairness to all parties involved, that this conflict under Rule l .7(a) is nonconsentable under the requirements of subsection (b). Further, the State requests that the Court
finds that the nature of the conflict calls into question the fair administration of justice, and
disqualify Mr. Riddell from further representation of these clients.

WHEREFORE,
The State prays that this Honorable Court order that defense counsel is disqualified from
further representation in each of these cases.

Respectfully Submitted By,
THE STATE OF WEST VIRGINIA,
BY COUNSEL,
Isl Catle Wllkes Delllgatti

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney

Isl Kevln J. Watson
Kevin J. Watson (WVSB #11759)

Assistant Prosecuting Attorney

CERTIFICATE OF SERVICE
I, Catie Wilkes Delligatti, do hereby certify that I have served the attached STATE'S MOTION TO
DISQUALIFY DEFENSE COUNSEL upon counsel of record via the W. Va. E-file system.
Isl Catle Wilkes Delligatti

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney

Page 5 of5

App. 136

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

vs.

Case No. 19-M-9

JUNE ELIZABETH YURISH,
Defendant.

DEFENDANTS' CONSOLIDATED RESPONSE TO STATE'S MOTION TO
DISQUALIFY
Comes now the Defendants, Christina Lester, Kristin Douty, and June Yurish, and jointly
responds, by counsel, to the State's Motion to Disqualify undersigned counsel in this matter.
The State of West Virginia is arguing that undersigned counsel cannot represent the
named Defendants in this case jointly because his ethical obligations preclude him from
brokering a plea bargain which would involve the cooperation of one Defendant against the
others.
In making this argument, the State has offered no case precedent of any kind in support.
Instead, they have proffered only selections from the commentary to the West Virginia Rules of
Professional Conduct. This is likely because, as the cou1i will see below, the case law in question
clearly favors allowing undersigned to remain, subject to Defendants informed consent.
Defendants aver that, although the commentary to the Rules of Professional Conduct are
unquestionably relevant, the holdings of the West Virginia and U.S Supreme Courts are
controlling and overriding authority over this court on this and other questions of Constitutional
significance. As such, a brief overview of the relevant case law is warranted.
"A circuit Court, upon motion of a party, by its inherent power to do what is reasonably
necessa1y for the administration of justice, may disqualify a lawyer from a case because the

;11
App. 137

lawyer's representation in the case presents a conflict of interest where the conflict is such as
clearly to call in question the fair or efficient administration of justice." However, "such motion
should be viewed with extreme caution because of the interference with the attorney client
relationship." State ex rel. Blake v. Hatcher, 624 S.E.2d 644, 218 W.Va. 407 (W.Va. 2005).
"The 61h Amendment guarantees a defendant the right to be represented by an otherwise
qualified attorney whom that defendant can afford to hire." Luis v. United States, 136 S.Ct. 1083,
1089 (2016). While a Defendant's right to choose its counsel is not absolute, it has been
observed that:
This constitutional guarantee generally ensures that a criminal defendant may be
represented by any counsel who will agree to take his case. Although "[a] defendant's
right to counsel of his choice is not an absolute one," United States v. Ostrer, 597 F.2d
337,341 (2d Cir.1979), we have consistently recognized that the right ofa defendant who
retains counsel to be represented by that counsel is "'a right of constitutional
dimension.'" United States v. Wisniewski, 478 F.2d 274, 285 (2d Cir.1973), (quoting
United States v. Sheiner, 410 F.2d 337, 342 (2d Cir.), cert. denied, 396 U.S. 825, 90 S.Ct.
68, 24L.Ed.2d 76 (1969) (emphasis added)).
Ibid.

"The essential aim of the Sixth Amendment is to guarantee an effect advocate for each
criminal defendant rather than to ensure that a defendant will inexorably be represented by the
lawyer whom he prefers." Hatcher, 624 S.E.2d at 850. (Quoting Wheat v. United States, 486
U.S. 153, 159 (1988). As such, "Couits have an independent interest in ensming that criminal
trials are conducted within the ethical standards of the profession and that legal proceedings are
fair to all who observe them. Id. at 851 (quoting Wheat, supra, at 160). Nevertheless, "In making
a motion for disqualification of a criminal defendant's chosen defense counsel, the State bears a
heavy burden of proving disqualification is necessary and justified. Id. at 852 (quoting U.S.

V. Diozzi, 807 F.2d 10, 16 (1' 1 Cir. 1986). (emphasis added). Moreover, "Because
disqualification of a criminal defendant's chosen counsel raises problems of a constitutional

App. 138

dimension, it is a harsh remedy that should be invoked infrequently." Ibid. (emphasis
added). Thus, "Upon the state's motion to disqualify counsel, a trial cout 'must balance two
Sixth Amendment rights: (1) the right to be represented by counsel of choice and (2) the right to
a defense conducted by an attorney who is free of conflicts of interest.'" Ibid.

As such, in determining "whether a conflict of interest should overcome the presumption
in favor of defendant's choice of counsel," the circuit court must balance 7 competing interests:
(1) the defendants right to be represented by the counsel of his choice; (2) the defendants
right to a defense conducted by an attorney who isfi·ee of conflicts of interest; (3) the
court's interest in the integrity of its proceedings; (4) the witnesses interest in protection
ofconfidential information; (5) the public's interest in the proper administration of
justice; (6) the probability that continued representation by counsel of choice will
provide grounds for overturning a conviction; and (7) the likelihood that the state is
attempting to create a conflict in order to deprive the defendant ofhis counsel of choice.
t
I

Id. at 854.

l

Moreover:
Factors which the circuit court should weigh in conducting this balance include, but are
not limited to: {I) the potential for use of confidential information by defendant's counsel
cross-examining the State's witness; (2) the potential for less than zealous cross
examination by D~fendant's counselJo the State's witness; (3) the d,!fendant 's interest in
having the undivided loyalty of/tis or her counsel; (4) the State's right to a fair trial; and
(5) the appearance of impropriety should the jury /earn of the conflict.

Ibid.
While the State does have the right to challenge a defendant's choice of representation, "[w]hen
the conflict is such as to clearly call in question the fair or efficient administration of
justice., .such an objection should be viewed with caution,for it can be misused a technique of
harassment." Hatcher, 624 S.E.2d at 850 (quoting W.V. R.P.C. 1.7 Comments) (emphasis
added).

App. 139

The only such exception to a defendant's right to counsel which is relevant to the case at
bar is an alleged conflict of interest created by the State through their unusually early plea
offerings, and Defendants aver that the State is indeed engaging precisely in the kind of
harassment anticipated by the Rules and the Hatcher opinion in attempting to have Defendants
chosen counsel removed so as to intimidate Defendants into accepting a plea agreement which
they have no interest in- a sort of"divide and conquer" strategy.
As such, unlike nearly every other criminal conflict case which has, to the best of
undersigned counsel's knowledge, ever been raised by the state on motion to disqualify, this
matter does not involve an actual witness who was a former or current client of the alleged
disqualified attorney, and who now objects to said attorneys continued representation of the
adverse party, but involves Defendants who raise no objection whatsoever to joint representation,
but whom the state hopes to one day turn into an adverse witness upon the acceptance of a plea
deal.
Thus, the state alleges in this case a supposed unwavable conflict based on nothing more
than the fact that the state would like to persuade the Defendants to testify against each other in
exchange for a plea deal. In furtherance of this aim, and in order to ensure that such a conflict
arises as quickly as possible, the State has taken the extremely unusual step of offering a plea
agreement to all three defendants before said Defendant's arraignment in Circuit Court. 1 But
each defendant, of course, has an absolute right not to accept a plea offer from the state. See
W.Va. Rule Crim Procedure 11 (a)(l) ("In general. -A defendant may plead not guilty, guilty,

1

Undersigned counsel has never, In his years of criminal defense practice, seen plea deals proffered so early in the
life cycle of a criminal defense case as has been done here ..

App. 140

or nolo contendere."). Moreover, pursuant to Rule 1.7, a Defendant also has a right to waive a
conflict of interest "upon infonned written consent," as has been done in this case.
To turn in more particularity to undersigned counsel's obligation under Rule 1.7, the rule
states that, "Except as provided in paragraph (b ), a lawyer shall not represent a client if the
representation involves a concurrent conflict of interest. A concurrent conflict of interest exists if:
(!) the representation of one client will be directly adverse to another client; or

(2) there is a significant risk that the representation ofone or more clients will be materially limited
by the lawyer's responsibilities to another client, a former client or a third person or by a personal
interest of/he lawyer.

Although none of these clients are mate1ially adverse to each other, undersigned acknowledges
that a concurrent conflict exists in his joint representation of the defendants pursuant to Rule
l .7(a)(2) insofar as his representation of each Defendant is materially limited by the fact that he

l.

cannot broker a cooperation plea agreement for any of the Defendants. However, Defendants have
an absolute right to be fully informed of said limitation in their choice of criminal defense counsel
and to, in tum, agree to joint representation under these conditions by waiving, upon informed
consent, said concm1·ent conflict. Rule l .7(b) states that,
Notwithstanding the existence of a concurrent conflict of interest under paragraph (a), a lawyer
may represent a client if:
(1) the lawyer reasonably believes that the lawyer will be able to provide competent and
diligent representation to each affected client;
(2) the representation is not prohibited by law;
(3) the representation does not involve the assertion ofa claim by one client against another
client' represented by the lawyer in the same litigation or other proceeding before a
tribunal; and

3)
App. 141

•

(4) each affected client gives iriformed consent, confirmed in writing.

Defendants aver that each of the above elements exists fully in the instant case. Undersigned
believes fully that he will be able to provide competent and diligent representation to each affected
client, as the charge which has been brought against them is not provable under the law 2 and, even
if it were, none of the Defendants is well served by taking the plea agreement on offer from the
prosecution. 3 Undersigned representation further is not prohibited by law and does involve the
assertion of a claim by one client against the others. Finally, in reference to the info1med consent
requirement, each defendant has executed an affidavit which states that they are aware that, by
. choosing joint representation through undersigned, they are, in essence, removing from themselves
the ability to enter into a plea agreement which is contingent on their cooperating testimony against
their co-defendants. (Exhibit A).
Moreover, the commentary to Rule 1. 7 plainly contemplates that such consent can be
withdrawn anytime. Comment 21 reads:
A client who has given consent to a cof!flict may revoke the consent and, like any other
client, may tem1inate the lawyer's representation at any time. Whether revoking consent
to the client's own representation precludes the lawyer from continuing to represent other
clients depends on the circumstances, including the nature of the conflict, whether the
client revoked consent because of a material change in circumstances, the reasonable
The only evidence within the State's possession from which this charge derives, and with which they Intend to
meet their burden of proof, Is a recording which is manifestly in violation of and therefore inadmissible under the
West Virginia Wlretrap and Electronic Surveillance Act, W.Va. Code 61-ld-1 et seq. The state knows this, and their
only hope of achieving a conviction In this matter Is to convince one of these Defendants, against their own
interests, to plead guilty and offer incriminating testimony against their Co-Defendants.
3 Although the quality of the deal Is not particularly relevant to counsel's ability to offer diligent representation, it's
worth noting that the deal on offer is, frankly, abysmal. It requires that the Defendants plead guilty and testify against
their co-defendants while offering them not even a recommendation for probation or other quantifiable leniency.
The only concession offered is that "the Defendant will have the opportunity to Inform the Court that she accepted
responsibility and fully cooperated with the state." See Exhibit B.
2

App. 142

expectations ofthe other clients and whether material detriment to the other clients or the
la,vyer would result.

Thus, should any of the Defendants, who have already been made aware, both by the instant motion
as well as by undersigned counsel, that a plea deal is on table which requires their cooperation
against codefendants, decide that they would like to consider such a proposal, they are authorized
to revoke their informed consent at any time and enter into negotiations.
Defendants will turn now Hatcher factors, and will address each in turn

(1) The defendant's right to be represented by the counsel of his choice.
Obviously, this interest weighs heavily against disqualification. Defendants have
made clear that they wish to engage undersigned in joint representation, and have done so
'

even after being informed that such joint representation will have the effect of cutting off
their ability to' negotiate a plea agreement which involves cooperation against their co"
defendants, an alternative which they have made clear they are not interested in.

(2) The defendant's l'ight to a defense conducted by an attorney who is free
of conflicts of interest;
Without informed consent of the issue regarding cooperation plea negotiations,
this interest would weigh in favor of disqualification. However, based on Defendant's
clear choice, made in writing, to forego any such cooperation deal, this interest now
weighs against disqualification.

(3) The court's interest in the integrity of its proceedings;
This interest is neutral as to disquajification because the integrity of these
proceedings are not in any way threatened by the disqualification issue. The Court, in

App. 143

holding a hearing on this matter, has fulfilled its duties under the law and no question can
be raised as to the proceeding's integrity
(4) The witnesses' interest in protection of confidential information;
This interest weighs against disqualification because, although the state would
very much like it to be otherwise, there are no state witnesses for whom undersigned
counsel is in possession of confidential information. None of the Defendants are state
witnesses, and, so long as they continue to remain uninterested in a plea agreement
(which is wholly and entirely their choice) none of them will be.
(5) The public's interest in the proper administration of justice;
This interest weighs against disqualification because the proper administration of
justice requires that these Defendants be allowed to exercise their Sixth Amendment
rights through the retention of their chosen defense counsel. If doing so means that they
will preclude themselves from entertaining plea deals which contemplate state
cooperation and testimony, that is their right (so long as they are properly informed of the
risk and so consent- as they have done in the case at bar).

(6) The probability that continued representation by connsel of choice will
provide gronnds for overturning a conviction;
This interest weighs against disqualification because, as the above analysis
demonstrates, the law clearly inveighs in favor of allowing these defendants to maintain
joint representation for as long as they wish under these circumstances (i.e. until one or
more of them decided to ente11ain the possibility of cooperating against their codefendants).

App. 144

(7) The likelihood that the state is attempting to create a conflict in order to
deprive the defendant of his counsel of choice.
Of all the interests at play, none inveighs more against disqualification than this
one. The state is clearly and unequivocally attempting to create a conflict for undersigned
counsel by offering plea deals well before they would normally be offered in the normal
course of a Circuit Court criminal defense case. This is because, as stated above, their
only hope of securing a conviction in this matter, given that their only evidence is
unequivocally inadmissible, is to persuade one of Defendants to provide inculpato1y
testimony against the others - a ploy which is made more difficult by the joint
representation the defendants have entered into. Of Course, the state is not at all entitled
to have any of these defendants enter into such a deal, and they have no interest in doing

l
I

so.

!

As to the additional factors which must be considered:

(1) The potential for use of confidential information by defendant's counsel
cross-examining the State's witness;
As stated above, the state has no witnesses for which undersigned is in possession
of confidential information, and this Comt is not pennitted to contemplate the potential
for a conflict with witnesses the state does not have but wishes to simply because they
wish it so.

(2) the potential for less than zealous cross examination by Defendant's
counsel of the State's witness;
Again, though they would prefer otherwise, the state is in possession of no
witness for which this would be relevant.

App. 145

(3) The defendants interest in having the undivided loyalty of his or her
counsel;

Because none of the co-defendants in this matter have any interest in entertaining
a cooperation plea agreement in this case, as made plain by the written informed consent
affidavits, there is no undivided loyalty of any kind. In all other respects, the codefendants interests are entirely aligned.
( 4) The State's right to a fair trial;

The state's right to a fair trial is not in any way threatened by their inability to
coerce or persuade these co-defendants into a cooperation plea agreement, because they
have no right to the same. It is the defendants tight, not the states, to decide how they
wish to plead in this matter. As such, in all respects, the State's right to a fair trial is
preserved.
(5) The appearance of impropriety should the jury learn of the conflict.

Although, if the Defendants engage in a joint tJial, the jmy will obviously be
made aware that all three co-defendants are represented by the same counsel, the grounds
for disqualification alleged in the instant motion, to wit, the state's inability to negotiate a
cooperation plea agreement, are not the sort which a jury would discover. Moreover, even
if they did, such knowledge would have no affect whatsoever on the jury's belief in the
propriety of the proceedings.
As a final matter, Defendants would respond directly to some of the highlighted
selection quoted by the State in their motion. The State makes reference to the following
commentary from Rule 1.7,

App. 146

Ordinarily, the lawyer will be forced to withdraw ji'om representing all of the clients if
the common representation fails. In some situations, the risk offailure is so great that
multiple representation is plainly impossible. For example, a lawyer cannot undertake
common representation of clients where contentious litigation or negotiations between
them are imminent or contemplated.
Defendants brief, p. 4 (citing comment 23 from Rule 1. 7)
Defendant does not dispute that, if the common representation fails, he will be forced to
withdraw from all three co-defendants. However, this has not, at this time, occurred.
Perhaps more to the point, though, Defendants adamantly dispute the instant situation is
not one where multiple representation is "plainly impossible." Defendants are not at all in
a situation where contentious litigation or negotiations between them are "imminent or
contemplated." While the State would very much like to make such negotiations
imminent or contemplated, Defendants have not, even for a second, entertained such a
possibility. In fact, they wet'e made keenly aware that their choice of counsel would
preclude this possibility, and agreed in writing to move forward anyway. The Couit is
more than welcome to conduct a colloquy with each co-defendant on this issue should it
so desire.
Moreover, as a final thought, it seems worthy of note that it has long been the
practice of Circuit Courts in West Virginia, when confronted with a criminal case where
co-defendants have chosen to move fotward with joint representation, to appoint
independent counsels to each co-defendant for the express limited purpose of conveying
cooperation plea agreement to said co-defendants or otherwise discussing potential
conflict issues. While examples of this are difficult to come by, given the fact that such a
mechanism would be unlilrnly to come before the West Virginia Supreme Court on

31
App. 147

appeal, undersigned was able to uncover a longstanding example of this practice being
employed here in the Berkeley County Circuit Court.
In State v. Brian Markley and Larry Marldey, Case Nos. 87-F-103 and 87-F-104,
the Defendants had chosen to engage in joint representation by hiring Steve Askin, and a
question had arisen as to whether this was appropriate. 4 In deciding this question, Judge
Patrick Henry held a hearing on the matter on September 4, 1990, wherein two local
attorneys, David Sanders and Michael Lorensen, both of whom, coincidentally enough,
would eventually become Honorable Judges of the 23rd Judicial Circuit, were appointed
to confer with their respective co-defendants privately to determine if they would be
adverse to each other in the upcoming trial. Both Mr. Sanders and Mr. Lorensen
proffered that their respective defendant had expressed an ongoing desire to maintain the
representation of Mr. Askin, and further proffered that they believed the likelihood of a
irreconcilable conflict and the likelihood of prejudice, given the manner in which the case
was proceeding, to be negligible or nonexistent. September 4, 1990 Transcript, ll. 3-14
to 6-13. (Exhibit C). Judge Herny then conducted a colloquy with the Defendants
wherein he ascertained whether they understood the limitations that their choice of
representation would entail, and, upon being satisfied that the Defendants understood and
consented to such representation, allowed Mr. Askin to remain as counsel for both
Defendants. Id. at 6-17 to 9-13. Judge Henry then directed that both Mr. Sanders and Mr.
Lorensen remain as appointed counsels for their respective defendants and to make

4 The

conflict which arose In that case was significantly more egregious than that which has been presented to this
Court on the instant matter. There, one defendant contemplated having Mr. Askin call his co-defendant as a
witness, but Mr. Askins could not do so because of his duties to said co-defendant. Here, there is no contemplation
that any of the named co-defendants will be called to testify for or against any of the other named codefendants.
There Is only a plea deal which the state would like considered.

App. 148

themselves available to their clients "for the purposes if it comes up of conferring with
these gentlemen as to any possible conflict ... and allow him to exercise independently his
rights to testify or not to testify perhaps. Mr. Askin might not be in a position at that point
in time of being able to make that decision ... that's essentially what I anticipate as being
the safeguard of having the two of you available" Id. at 9-16 to 10-24.
Although Defendants aver that their signed informed consent waivers, plus the
lack of any intention by any of them to offer testimony in their upcoming trial, should
preclude any further concem by this Court, Defendants would not object to the above
described process being duplicated, in an abundance of caution, to fully satisfy the Court
that the Defendants are not adverse to each other, that they are aware of the limitations of
joint representation and consent thereto anyway, and that there are 110 other defects
related to undersigned's joint representation that would imperil the interests of justice in
this matter.

Conclusion.
For all the reasons stated above, the Defendants respectfully request that the
State's Motion to Disqualify be denied.
Respectfully,
Defendants Lester, Douty, and Yurish,

By Counsel:

Isl Christian J. Riddell

Christian J. Riddell (#12202)
Law Offices of Stedman and Riddell
329 S. Queen Street Martinsburg, WV 25401
(304)267-3949

App. 149

WEST VIRGINIA DEPARTMENT OF HEALTH AND HUMAN RESOURCES

Bureau for Children and Families

CLIENT CONTACT REPORT
Case ID / Name:
20355152
Contacts/Process:
Record the contact process, Identifying dates, sources of Information, other Important specifics
and general lnfonnatlon which Is deemed Important.
Date: 07/09/2019 at 02:00 pm
Staff: Brlah Doleman
Participants: Jyseem Palmer
Non-Client/Non-Collateral Participants:
Type of Contact: Face to Face with Child in Placement Res
Comments:
Purpose: To supeivlse visit with Carter and his biological mother. Content: Carte~s mother, Courtney,
arrived for the visit 15 minutes early. Dr. Behrmann asked SW Doleman to wait until he was present to
allow Carter to Interact with his mother and Or. Behnnann arrived to the visit about 15 minutes late. When
the visit began Carter did not appear to recognize who Courtney was, but he was very comfortable
around her. At one point during the visit Courtney asked Carter If she was his mother In which he replied
"no." Courtney was appropriate with Carter throughout !he visit and she was very attentive to his needs.
Dr. Behnnann left the visit around 3:30 and SW Doleman allowed Courtney to help carter clean up and
say her last goodbyes before ending the visit. Outcome: or. Behrmann reported that he had all the
Information he needed to conduct his assessment and he would be In touch If he needed anything
further.

Date: 07/30/2019 at 10:00 am
Staff: Brlah Doleman
Participants: Jyseem Palmer
Non•Cllent/Non-Collateral Participants: Robert Mulledy (foster father)
Type of Contact: Face to Face with Child In Placement Res
Comments:
Purpose: To conduct monthly home visit. Content When SW Doleman arrived Carter was playing on his
tablet. Foster dad reported that Carter's family has called 6 times since the last court hearing. One of
those calls was made by carters aunt Andrea, but Carter was sleeping and foster dad had to call her
back once Carter woke up. Another call was missed, but foster parents called back, and after receiving
no answer they texted Mr. Palmer and let him know when would be a good Ume to call back. Foster dad
also reported that Carter has been biting his foster brother for the past couple days despite the fact he
has moved past that phase. Carter presents as a happy and healthy little boy, there are no concerns at
this time. Outcome: SW Doelman will continue to see the child at least twice a month.

GEN-0005 Client Contact Report
Created On 8/2/2019

L\D
App. 150

Page 1 of1

INFORMED CONSENT CONFLICT WAIVER
With my signature below, I acknowledge my unde!'standing of the following:
1. I, June Yurish, am aware that my co-defendants, Christina Lester and Kristin Douty, and
I have all retained the same lawyel', Christian J. Riddell, to defend us against charges
brought by the Bet·keley County Office of the Pl'osecutor for failure to report under
W.Va. Code§ 49-2-803,
2. My attorney has informed me that a potential conflict of inte!'est may exist between my
co-defendants and I because it may, at some point, be to my advantage to defend
accusations against me by placing the blame at the feet ofmy co-defendants,
3. My attorney has further informed me that it is probable that the prosecutot· will offer me a
plea agreement which requires my cooperation and testimony against my co-defendants
in exchange for a more lenient sentence.

I

I

I
I

4. My attorney has informed me that, pursuant to Rule 1.7 of the West Virginia Rules of
Professional Conduct, the possibility of such a plea agreement creates for him a
concurrent conflict of interest as lo joint representation because he will be unable to
negotiate any such plea agreement on my behalf because of his ongoing representation
and duties to my co-defendants.
5. My attomey has fiuther informed me that it is my right to waive this conflict of interest,
afte!' being fully appraised of the existence of these potential and actual conflicts, if I so
choose.
WHEREFORE, having been made fully aware of the actual and potential concurrent
conflict of interests that exist in this case, I hereby waive all such conflicts and exercise my

4\
App. 151

I

right to continue with Mr. Riddell as my attorney, knowing full well that he will also be
representing my co-defendants, Christina Lester and Kl'istin Douty.

L\J
App. 152

INFORMED CONSENT CONFLICT WAlVER
With my signature below, I aclmowledge my unde!'standing of the following:
l. I, K:dstin Douty, am aware that my co-defendants, Christina Lester and Jun\l Yurish, and
I have all retained the same lawyer, Christian J. Riddell, to defend us against charges
brought by the Berkeley County Office of the Prosecutor for failure to rep01t under
W.Va. Code§ 49-2-803.
2. My attorney has informed me that a potential conflict of interest may exist between my
co-defendants and I because it may, at some point, be to my advantage to defend
accusations against me by placing the blame at the feet of my co-defendants.
3. My attorney has further informed me that it is probable that the prosecutor will offer me a
plea agreement which requires my cooperation and testimony against my co-defendants
in exchange for a more lenient sentence.
4, My attorney has infonned me that, pursuant to R,Jle 1.7 of the West Virginia Rules of
Professional Conduct, the possibility of such a plea agreement creates for him a
concurrent conflict of interest as to joint representation because he will be unable to
negotiate any such plea agreement on my behalf because of his ongoing representation
and duties to my co-defendants.
5. My attomey has further informed me that it is my right to waive this conflict of interest,

after being fully appraised of the existence of!hese potential and actual conflicts, ifI so
choose.
WHEREFORE, having been made fully aware of the actual and potential concurrent
conflict of interests that exist in this case, I hereby waive all such conflicts and exercise my

Ll3
App. 153

.

' , , ,.

right to continue with Mr. Riddell as my attorney, knowing foll well that he will also be
representing my co-defendants, Christina Lester and June Y\1dsh.

SIGNED:~d?fL,

~

cJ-

10 a

) _ _7_
1 __
DATE:_ _
'_1

I
I
I

App. 154

INFORMED CONSENT CONFLICT WAIVER
With my signature below, I acknowledge rny understanding of the following:
1. I, Chl'istina Lester, am aware that my co-defendants, June Yurish and Kristin Do\1ty, and

I have all retained the same lawyer, Christian J, Riddell, to defend us against chru:ges
brought by the Berkeley County Office of the Prosecutor for failure to repo1i under
W.Va. Code§ 49-2-803.
2. My attomey has infonned me that a potential conflict of interest may exist between my
co-defendants and I because it may, at some point, be to my advantage to defend
accusations against me by placing the blame at the feet of my co-defendants.
3. My attorney has further informed me that it is probable that the prosecutor will offer me a
plea agreement which requires my cooperation and testimony against rny co-defendants

in exchange for a more lenient sentence.
4. My attomey has informed me that, pursuant to Rule 1.7 of the West Virginia Rules of
Professional Conduct, the possibility of such a plea agreement creates for him a
concmrent conflict of interest as to joint representation because he will be unable to
negotiate any such plea agreement on my behalf because of his ongoing representation
and duties to my co-defendants.
5. My attomey has further infonned me that it is my right to waive this conflict of interest,
after being fully appraised of the existence of these potential and actual conflicts, ifI so
choose.
WHEREFORE, having been made fully aware of the actual and potential concUll'ent
conflict of interests that exist in this case, I hereby waive all such conflicts and exercise my

L\S
App. 155

right to continue with Mr. Riddell a.s my attomey, knowing full well that he will also be
representing my co-defendants, June Yurish and Kristin Douty.

App. 156

Berkeley County

Catie Wilkes Delligatti

P1vsec11ting Attornry

380 West South Street, Suite 1100
Martinsburg, WV 25401

Phone (304) 264-1971
Fax (304) 263-6092

Office of the Prosecuting Attorney
October 8, 2019
Christian Riddell, Esq.
329 S Queen Street
Martinsburg, WV 25401
RE:

State of WV v. June Yurish, formerly Magistrate Case 19-M02M-4010 and
recently removed to Circuit Court.

Mr. Riddell,
Thank you for discussing this case with me again by email. At this time, the State of
West Virginia is willing to agree to the following plea agreement to resolve this case. This offer
will be kept open only until October 18, 2019 at 4:00pm (16:00). This offer may be
withdrawn if it has not been accepted by that time. The State proposes that the Parties agree as
follows:
1. The Defendant, will plead guilty to misdemeanor Failure to Report, as charged in the
criminal complaint, in violation ofW.Va. Code §49-2-812. The crime is punishable by
imprisonment in jail for not more than ninety days.
2.

The Defendant will fully cooperate with the State in the prosecution of any codefendants in any charges pending them as of the date of this letter, including truthfully
debriefing and testifying at the trial of any co-defendants. After signing this agreement,
the Defendant will debrief with officers for the State, at the option of the State. Any
statements made by the Defendant pursuant to this paragraph may only be used against
the Defendant at trial, if the Defendant fails to fulfill, or withdraws from, the agreement.
Otherwise, if the agreement is rejected or nullified by a court, through no fault of the
Defendant, then the statements of the Defendant shall not be used against her in as
substantive evidence at her jury trial in this case.

,-ali!!E!!!'X!'!l!H~IB~IT........

I - - -(b- -

2019.10.8 Plea OfferYurish; Page 1 of3

App. 157

3. Sentencing shall be at the discretion of the Court. The Defendant will have the
opportunity to inform the Comt that she accepted responsibility and fully cooperated with
the State, at sentencing.

4. Should this plea be vacated, set aside, or overturned by any State or Federal Court, the
parties will be returned to their original positions and the State will be free to proceed on
the original charges. Further, should either the State or the defendant violate or fail to
fully comply with any provision of this agreement, this plea, conviction, and sentence
may be vacated and set aside by the Court upon the motion of the non-breaching party,
and the parties will be returned to their original positions before entry of the plea, and any
charges dismissed or reduced as a result of this plea will be reinstated.

5. If the Defendant fails to fully cooperate, or commits or is arrested for committing
any felony or misdemeanor, or commits violation of any term of bond, up to and
including the date of sentencing, then this agreement may terminate as null and void
at the option of the State, and the parties shall be returned to their original places,
including the reinstatement of any dismissed charges. If said failure/violation is
after the plea hearing but before the sentencing hearing, then in lieu of te1mination,
at the option of the State, upon such finding by the Court, the sentencing may go
forward with the Court being at full its full sentencing discretion, and the State
being relieved of any of the sentencing related requirements of this agreement such
as any agreed upon silence or recommendations at the sentencing hearing.

6. This agreement only applies to the above-listed charges in Berkeley County and is
expressly not applicable to any other matters which may exist. Further, this
agreement only binds the State of West Virginia and the Defendant, and expressly
does not bind any other governmental entity.

7. This writing is the entire agreement of the parties.

If you and your client are in agreement with this offer, please allow this letter to se1ve as our
written agreement by signing below and having your client do the same. Please respond to this
offer before the deadline listed above. Thank you for time and attention in this matter.
Best Regards,

Isl Kevin J. Watson
2019.10.8 Plea Offer Ymish; Page 2 of 3

App. 158

Kevin J. Watson
Assistant Prosecutor
Berkeley County, WV
As evidenced by my signature on this agreement, I have read and understand the
provisions of each paragraph herein and, hereby, fully approve of each and every provision.

Defendant

Date

Defense Counsel

Date

2019.10.8 Plea Offer Yurish; Page 3 of 3

App. 159

D~C 201990

fJ~:f&:tE~~
CLERK CIRCUIT COUBT

·r ,,,. .·

1

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA

2

STATE OF WEST VIRGINIA

3

vs.

-4

BRIAN K, MARKLEY

CRIMINAL NO. 87-F-104

5
6

STATE OF WEST VIRGINIA

7

vs.

8

LARRY MARKLEY

CRIMINAL HO, 87-F-103

9

10
,-..

The proceedings held ln the above-styled matter at the

11

Berkeley County courthouse, Martlnllburg, West Virginia,

12

before the Honorable Patrick G, Henry III, Judge of the

13

Circuit Court of Berkeley County, on the 4th day of

14

September, 19 90.

AP P E

15
16

17
18
19

20
21

22
23

--,

24
25

26

A

RANCE S

On behalf of the State of West Virginia,
Diana Risavi, Prosecuting Attorney
On behalf of the Defendant,

Steven M, Askin, Esquire·
Askin, Pill, Scales & Burke
and
David ff. sanders, Esquire
sanders and Speaker
and
Michael n. Lorensen, Esquire
Bowles, Rice, Mcoavid, Graff

App. 160

&

Love

,c

EXHIBIT

1

D

2
1

P R OC E E DI HGS

2

(WHEREUPON, Defendants present in person and by counsel.)

3

COURT1

4

87-F-103, Brian Markley, Case File 87-F-104.

5

the record reflect the appearance of the

6

Defendants in person toqether with Steven Askin,

7

current counsel.

9

Let

Also present, Mr, sanders, whom the court

8

I""'

In the matter of Larry Markley, Case File

designated to confer With Larry Markley, Mr.

10

Lorensen, whom the Court designated to confer with

11

Brian Markley with respect to the issue of the

12

oonfllot which previously arose durinq the

13

attempted trial of Brian Markley, upon the

14

appearance of the State by Diana Risavl,

15

Prosecuting Attorney for Berkeley county.
Mr. Sanders, have you had an opportunity to

16

17

confer with Larry Markley with respect to the

18

issues?

19

SANDERS1

Yes, your Honor, I have and Mr, Askin has

20

been very forthcoming with sharing his file and

21

I've had an opportunity to review the preliminary

22

hearing and other aspects of the case with Mr.

23

Askin.

App. 161

3

LJ

2

my office last Friday and we at that point

3

reviewed the possibility of conflict and the

4

possibility of harm to either Defendant if Mr.

5

Askin were to continue to proceed as their joint

6

counsel.

7
8

9

--

Mr, Askin met with Mr. Lorensen and myself in

1

COURT•

Did you have an occasion then to discuss these

matters with Larry Markley?
SANDERS•

I discussed them with Larry Markley, yes,

10

sir,

11

having Mr, Askin as his attorney and expreesed

12

confidence in the three year relationship that he

13

hae built with Mr. Askin in this case.

14

Mr. Markley expressed the desire to continue

And based upon the things that I have seen in

15

the file and based upon the possibility that

16

either Defendant would actually testify, it seems

17

to me that both Larry and Brian are beinq well

18

served by Mr. Askin at the present time and that

19

both could proceed to trial and continue in their

20

defense without prejudice to these two, to Larry

21

Markley, who I was appointed to confer with, and I

22

believe to either of them.

23

COURT•

Mr, Lorensen?

App. 162

4

0

1

LORENSEN•

2

apoloqize because of my travel schedule, I have

3

not consulted personally with Mr. Brian Markley as

4

of this time,

5

few moments to do that?

6

If I could beq leave of Court for a

I apoloqize for not havinq done so, but for

7

various reasons I haven't b~en able to.

8

throuqh no fault of his own, I haven't qotten in

9

touch with him.

10

,-.

In addition to what Mr, sanders has said, I

COURT,

In faot,

I believe last week I informed you at that

11

point in time it was my understandinq he was

12

incarcerated.

13

bond and that might have -- I don't believe I gave

14

you an alternative address or number to be able to

15

oontaot him,

16

Friday in talking with Mr. Askin.

17

LORENSEN,

18

COURT,

19

Since then apparently he has made

You miqht not have gotten that until

Rlqht,

All rlqht, I'll recess briefly to allow you a

ohanoe to oonfer with him.

20

LORENSEN•

21

COURT,

Do I understand the jury room is in use?

Yes.

You oan make use of the court reporter's

22

office or the conference room.

23

recess.

24

CLERK,

All rise.

App. 163

Take a brief

D

5

1

(WHEREUPON, a brief recess was held, after which the

2

Defendants were present in pereon and by counsel in the

3

Courtroom.)

4
5
6

COURT,

confer with Brian Markley?
LORENSEN,

Yes.

Mr. Brian Markley and I had an

7

opportunity to discuss the relevant risks and

8

benefits of havinq Mr. Askin continue to be his

9

attorney.

And after -- and he indicates to me

10

that he's been thinkinq about it since that issue

11

came up about a month aqo.
And, you know, havino given him the best

12

r'·

Mr. Lorensen, have you now had a chance to

13

advice I thought I could give him, it ls his

14

desire to have Mr. Askin remain his counsel

15

notwlthstandinq the risks that are· being posed

16

because of Mr, Askin's representation of Larry

17

Markley,

18

COURT•

Now, Mr, Sandere and Mr. Lorensen, I assume

19

each of you potentially has been privy to some of

20

the trial tactics anticipated possibly by Mr,

21

Askin to which neither the State nor the Court

22

would have had access, of course.

23
24

Is there anything with respect to possible
trial tactics or procedures Which the defense may

App. 164

6

CJ

1

wish to make use of which would indicate to you

2

from your point of view that a conflict question

3

has been either mlnlmlzed or may not again arise?

4

It all depends on the attack taken as far as

5

what's being done at trial.

6

has discussed that possibility with you.

7

,.-..,_

LORENSEN•

I assume Mr. Askin

Well, aqain, we did discuss that, your

8

Honor, last week.

9

matters with Mr. Markley.

I again discussed some of those
I think the way the

10

case ls qoing to be handled that the likelihood of

11

a confllot arlslng in the future has been

12

minimized.

13

problem.

I don't think that's going to be a

I would second that and aqree.

14

SANDERS,

15

COURT,

All right, Mr. Askin

16

ASKIN,

Yes, your Honor.

17

COURT,

against my better judc.,ment, I'm going to go

18

ahead and allow you to continue as counsel for

19

both of the D<;tfendants.

20

I generally try to afford the Defendants the

21

opportunity.

22

If that's what they want,

Brian Markley, before I allow this though,

23

you've had a chance to talk it over with another

24

attorney.

Do you still want Mr. Askin. to be your

App. 165

7

D

1

attorney in this aotion knowing that he also

2

represents Larry and the way he can handle your

3

trial because of that might be impaired beoause

4 '

both of you being ollents of Mr, Askin?

5

ASKIN,

I'm not sure if he understands.

6

COURT•

All right,

7

representing both of you, there may be oertain

8

things that oome up during the trial that he may

9

or may not be able to do because he is

10
11

,.-,

Simply because Mr, Askin ls

representing both of you.
In other words, he may decide that he can't

12

oall Larry as a witness beoause Larry's testimony

13

might he used against him in Larry's trial on

14

cross-examination if Larry were to decide to

15

testify.

16

may deoide that at an evident1ary suppression

17

hearing he may not want to call Larry.

18

so Mr. Askin in representing also Larry,

Do you understand that?

Juet as what came up

19

ln the last time,

He wanted to call Larry and

20

that's when lt came up that there was an issue.

21

Now, if he continues as Larry's attorney also,

22

that might come up again, that he might be

23

inclined or wish that he oould oall Larry, but he

24

can't do it.

App. 166

8

L]

r,

So you understand there are eome dangers or

1

2

inherent risks that are involved?

3

still want Mr. Askin to be your attorney, I can't

4

listen to you to come back later on and blame Mr.

5

Askin for it.

6

BRIAN MARKLEY•

7

COURT•

Okay.

And if you

Do you understand that?

Yes, sir.
And I can't listen to you come back and

8

blame me for it because I've been trying to talk

9

you out of it now for a year.

I'm not trying to

10

get you away from Mr. Askin but essentially to get

11

separate attorneys for the two of you.

12

understand you can't gripe about it later to me

13

either?

14

15

16

BRIAN MARKLEY•

Uh-huh,

So you

(Indicating an affirmative

response,)
COURT•

Okay.

Now, do you still want Mr. Askin to be

17

the attorney for you knowing that he's also going

18

to be representing Larry?

19

BRIAN MARKLEY•

20

COURT•

Yes, sir.

All right.

Larry, I'm going to ask you the

21

same things.

You understand that in Mr. Askin

22

handling you and also handling Brian, there may be

23

certain thinqs that will change the way he can

24

approach the case?

Sl
App. 167

D

,--,

9
1

LARRY MARKLEY,

2

COURT,

Yes, your Honor.

The same thlng holds true wlth you.

I've been

3

trying to qet -- to talk you into separate counsel

4

for over a year now and you stlll say you want Mr.

5

Askln,

6

Mr, Askin later on that you should have gotten out

7

of this case because it's been something that you

8

have sald you wanted,

9

to gripe to me about it.

You're not qolnq to be able to gripe to

You're not going to be able

10

Now, do you still want Mr. Askin as your

11

attorney knowing that he is representing also

12

Brian in this same case?

13

LARRY MARKLEY,

14

COURT•

Yes.

All right.

Now, Mr. Sanders and Mr. Lorensen,

1.5

at the time of the trials in these matters the

16

court ls going to request that you be available

17

for the purposes if it comes up of conferring wlth

18

these gentlemen as to any possible conflict simply

19

because l don't want to have to declare a mlstrlal

20

aqaln.

21

The case ls over three years old,

We've got

22

to get to it at some point.

23

sure that that imposition is minimized and

24

hopefully it won't come up at all, but just ln

App. 168

I will try to make

D

10
1
2

LORENSEN•

If I oould inquire, Judoe, by virtue of your

3

desire not to oall a mistrial, should we be ready?

4

I mean this is the kind of case that takes a

5

little preparation and I don't think I would be

6

doinq Mr. Markley a favor if I beoame substitute

7

oounsel and didn't know anything.

8

9

r,

oase,

COURT•

I would think the trial ls golno to proceed

with Mr. Askin in effect at the helm.

However,

10

simply to take care of the situation of an

11

attorney immediately being available to confer

12

with the Defendant not upon trial and allow him to

13

exercise lndependentlY,hls rights to testify or

14

not to testify perhaps.
Mr, Askin might not be in a position at that

15

16

point in time of being able to make that decision.

17

I would assume that that would be the extent of

18

it.

19

proceeding to trial with an absent witness because

20

I don't necessarily want the attorney imposing his

21

will upon his client insofar as whether to testify

22

in a co-Defendant's suppression hearinq.

23

24

Mr. Askin might be then put in a position of

That's essentially what I anticipate as being
the safeguard of having the two of you available.

App. 169

CJ

11

1

2

COURT,

4

LORENSEN•

5

COURT•

6

LORENSEN1

7

COURT•

9

10

And so what we would be oalled upon to do

should the need arise --

3

8

r'

LORENSEN,

Should the need arise,
-- would be to --

Confer with
-- present ourselves and to --

Be available to the olient with respeot to

independent leqal advice.
LORENSEN,

So if there ls a waiver to be had, it could

be done knowingly and intell!qently?

11

COURT,

12

SANDERS•

13

COURT•

Correct.

Any questions, Mr. Sanders?

Sort of a standby appointment?
sort of a standby appointment.

I don't believe

14

there's been any formal order with respect to your

15

appointment entered yet unless it's been throuqh

16

the mill since last week,

17

that with respect to the compensation at a later

18

time,

19

matter?

20

ASKIN•

No problem.

But we'll take oars of

Anythlnq further in this

There's one bther thinq.

I believe my file ls

21

probably still in the possession of one or bouth

22

counsel, I have in my file prepared to file

23

pend!nq, dependinq upon whether the State has

24

elected to proceed with an expert witness or

App. 170

01

2

12

witnesses reqardinq DNA evidence.
The court may recall when the trial was

3

scheduled for Larry Markley in the fall, I believe

4

lt was the fall of 1989, when the last time Larry

5

Markley was set for trial, they elected not to

6

oall -- formally they elected not to call an

7

expert from cellmark regarding DNA.

8

9

Brian's trial, which was the one that
resulted in a mistrial this summer, my

10

understandinq at that time was still they had not

11

elected to call,

12

call the witness, then it may be necessary in

13

particular since Larry ls now ln jail and not

14

working and bond has been taken away from him by a

15

surety, we may need to have the court consider

16

permittlnq State funds to be used to pay for an

17

Independent evaluation or an expert in the field

18

of DNA testing.

But if the State does intend to

19

If the State is not going to call an expert,

20

from Cellmark, of course, It ls a moot issue, but

21

I don't want to be caught at the last minute.

22

they change the posture, so notify me sometime

23

before the trial date in October, and I want to

24

have enough time to ask the Court to advance funds

vl
App. 171

If

13

L]

1

My motion has been filed and I believe it's

2
3

in the possession of Mr. Lorensen for his

4

examination over the weekend,

5

it to set another day prior to the October day

6

that's scheduled for arraignment scheduling so

7

that I can have this matter properly presented to

8

your Honor and you don't have to deal with it in

9

due consideration and submit a decision unless the

10

11

I",

for the purpose of it.

Maybe we could set

state elects now they're not going to do it.
COURT•

Mr. Askin, I understand that you previously

12

acknowledged that you're not doing this for the

13

money.

14
15
16

17
18

ASKIN•

I don't think I'm going to get any more money

in this case -COURT,

So essentially as I understand it, this ls a

retained counsel situation.
ASKIN,

•
I understand.

But I think, your Honor, as in

19

the prior case of, I think, Harold Sturdivant you

20

would agree, and I believe the court

21

Administrator's Office has approved it, even

22

though I will not look to the state for my money.

23

And if he has money to pay for this service, then

24

I won't expect you to pay for it,

App. 172

But I know from

r:J

1

2
3

,.-...

where he sits today -COURT,

Well, I don't pay for 1t under any

circumstance --

4

ASKIN•

I understand.

5

COURT•

-- any more than anybody else here does.

0

ASKIN•

I appreciate that,

What I'm saylnq ls I know

7

as he sits here today he's not qoing to have

8

funds.

9

And if he has any more money, we will use it for

I don't expect to be paid any more money.

10

that purpose,

11

funds sufficient to

12

evaluations.

13

COURT,

But I don't think he will have
pay

for those types of

Mr. Askin, as I understand it, that's in effect

14

administrative in nature.

The State really

15

doesn't have much of a posture in it.

16

got an expert that you anticipate securlnq, that's

17

a matter of discovery from the State and an

18

Affidavit with respect to the anticipated cost

19

together with an Order requesting advanced

20

authorization for payment can be submitted to the

21

Court without the necessity of hearing.

If you've

22

ASKIN•

Thank you,

23

COURT•

Mrs. Risavi, I don't know whether you want to

24

That's fine.

indicate at this point in time whether you do or

App. 173

D

15

1
2

do not antlolpate oalllng suoh an expert?
RISAVI•

I'm not aware of any

3

requirement that I make such an election under the

4

rules.

5

is that if the Court will recall, Mr. Askin sought

6

the DNA to be done by Cellmark, but what he got

7

was an unfavorable report for whioh there still ls

8

yet an outstanding bill at Cellmark for that

9

testing.

10

,,......,

No, your Honor.

But at the same time what I fall to grasp

Now, my understanding ls because that's an

11

unfavorable remark, we're going to permit at

12

taxpayers' expense for him to obtain a new

13

independent evaluation which ls what the old one

14

was supposed to have been, an independent.

15

evaluation?

16

ASKIN,

I don't get that.

Not lf it was a Defendant's evaluation, then I

17

would assume the State wouldn't be allowed to qet

18

it ln1 dealing with an attorney/client -- would be

19

a collateral arm.

20

impression that it was strictly for the Defendant.

21

Now, I wasn't under the

If it ls, then we would take the position,

22

your Honor, if anything was done in the pursuit of

23

my preparing for trial, would not be something

24

that the State could then turn around and use

App. 174

rJ

,.......

16

1

against the Defendant.

2

misimpression that it was something that was done

3

as part of an overall investigation ordered by the

4.

court.

But I was under the

If I'm wrono, then I would submit

5

COURT•

The Court doesn't do investigations.

6

ASKIN,

No, but you approved it because the evidence

7

had to leave the state.

It was done with the

8

Court's approval.

9

couldn't have it done as part of my investigation

But -- and, of course, I

10

until it was within the order of the Court to

11

leave the state because it was taken out of West.

12

Virginia and down to Maryland.

13

Now, if lt was done solely for the purpose of

14

preparation of the defense of Larry Markley

15

beoause the State at that time had oenetlc marker

16

evidence, genetic marker evidence alone, and

17

that's what they intend to offer through the State

18

Police Lab,. then I'm not concerned.

19

intend to offer DNA, then maybe the issue should

20

be raised because I would be of the opinion that

21

if those folks come in are going to be here as

22

part of the attorney/client privilege.

23
24.

But if they

If it's not part of the attorney/client
prlvileoe, if it, wasn't done just for my

vS
App. 175

17

rJ

1

preparation, it was done beoause of the State

2

investioation or the State rendered analysis that

3

we would then have an opportunity to bring in an

4

additional expert.
Now, if my olient wasn't indigent from the

5

-

6

standpoint that three years aoo he could afford to

7

hire a lawyer today, he really can't, and today he

8

can't hire forensic people, if he was with money,

9

reoardless of how many experts have previously

10

been involved in this case, he could obviously get

11

another expert,

But I was under the mlslmpresslon

12
13
14

15

He can't do that now.

COURT•

You're. ooinq to have to set this up for hearing

on another date if you want to oet into this,
ASKIN,

That's what I thought we needed to do beoause I

16

anticipate the State objecting, your Honor,

17

you like for us to get in touch with your

18

secretary?

19
20

COURT•

That's all we had today, your Honor.

Well, Mr. Askin, I'm not sure -- well, I'm

going to save it for the next hearing.

21

ASKIN•

Okay, thank you, your Honor.

22

COURT•

We'll stand at recess in this matter.

23

Would

(WHEREUPON, the proceedin9s were concluded.)

App. 176

18

STATE OF WEST VIRGINIA,
COUNTY OF BERKELEY, to-wit,
I, Mary K, Jones, Official Court Reporter for the
Circuit court of Berkeley county, West Virginia, do
hereby certify that the foregoing ls a true and correct
transcription of the proceedings requested to be prepared
ln the prooeedlngs of the matter of

state of West

Brian Markley, No. 87·F-104, and State of
West Ylrqlnia vs. Larry Markley, No. 87-F-103, held in
Vlrqinla vs.

this matter on the 4th day of September, 1990, as
reported by me.
I further certify this was prepared in accordance with
code 51/7/4.
Given under my hand this
1990,

l

;

!

Lo1
App. 177

.

I

West Virginia E-Filing Notice

CC-02-2019-M-9
Judge: Laura Faircloth
To:

Christian Riddell
stedmanriddell@gmail.com

NOTICE OF ELECTRONIC FILING
IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
State of West Virginia v. June Elizabeth Yurish
CC-02-2019-M-9
The following letter to judge was FILED on 11/5/2019 4:49:00 PM

Notice Date:

11/5/2019 4:49:00 PM
Virginia Sine
CLERK OF THE CIRCUIT
Berkeley
380 W. South Street
MARTINSBURG, WV 25401
(304) 264-1918
be1inda.parsons@cou1tswv.gov

App. 178

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA

STATE OF WEST VIRGINIA,
v.
KRISTIN L. DOUTY,
DEFENDANT

CASE CC-02-2019-M-7

CHRISTINA LESTER,
DEFENDANT

CASE CC-02-2019-M-8

JUNE YURISH,
DEFENDANT

CASE CC-02-2019-M-9

and

and

STATE'S REPLY TO DEFENDANT'S RESPONSE TO
THE STATE'S MOTION TO DISQUALIFY DEFENSE COUNSEL

The State of West Virginia, by Berkeley County Prosecuting Attorney Catie Wilkes
Delligatti and Assistant Prosecuting Attorney Kevin J. Watson, hereby moves reply to the
Defendant's Consolidated Response to State's Motion to Disqualify.

In the response Defense counsel admits that there is a conflict of interest here. See,
Response at 5 ("undersigned acknowledges that a concurrent conflict exists in his joint
representation of the defendants pursuant to Rule l.7(a)(2) insofar as his representation of each
Defendant is materially limited by the fact that he cannot broker a cooperation plea agreement
for any of the Defendants."). However, he somehow argues that the State's motion (and plea
offers) are somehow inappropriate and aimed at some nefarious "divide and conquer" strategy.
Nothing could be further from the truth: The State takes no interest in the Defendants' chosen
counsel, as long as it doesn't create a situation where if the State prevails the conviction is likely
to be overturned.

Pagel of8

App. 179

The State agrees that State ex rel. Blake v. Hatcher, 624 S.E.2d 844,850,218 W.Va. 407,
413 (2005), is the seminal case on point. Yet, defense counsel, in his response, carefully picks
items out of Hatcher and omits other items in a way that obfuscates its holding. In fact, State ex
rel. Blake v. Hatcher is clearly positive to the position of the State. In Hatcher, the prosecuting
attorney of Fayette County, West Virginia moved to disqualify defense counsel on the basis of
him having previously represented a state's witness and the witness's relatives in many civil and
criminal proceedings. The circuit court ruled that the State did not have standing to move to
disqualify defense counsel, and the State filed a writ of prohibition. The Supreme Court ruled
that the State does in fact have standing to move to disqualify defense counsel, and in certain
circumstances, after a hearing and record is developed, a circuit court should disqualify defense
counsel. The circuit court was reversed and the case was remanded to hold a hearing on the
issue. The relevant points oflaw from Hatcher are as follows:
2. "A circuit court, upon motion of a party, by its inherent power to
do what is reasonably necessary for the administration of justice,
may disqualify a lawyer from a case because the lawyer's
representation in the case presents a conflict of interest where the
conflict is such as clearly to call in question the fair or efficient
administration of justice. Such motion should be viewed with
extreme caution because of the interference with the lawyer-client
relationship." Syllabus Point I, Garlow v. Zakaib, 186 W.Va. 457,
413 S.E.2d 112 (1991).
3. The State of West Virginia, through a prosecuting attorney, has
standing to move for disqualification of defense counsel in a
criminal proceeding in limited circumstances where there appears
to be an actual conflict of interest or where there is a significant
potential for a serious conflict of interest involving defense
counsel's fo1mer (or current) representation of a State witness.
4. Where the State moves for disqualification of a criminal
defendant's counsel of choice due to counsel's former
representation of a State witness, the State bears a heavy burden of
proving disqualification is necessa1y and justified. A presumption
in favor of a defendant's choice of counsel exists. However, this
presumption may be overcome where the State demonstrates that

tO
App. 180

Page 2 of8

an actual conflict of interest exists or that there exists a significant
potential for a serious conflict of interest. In detennining whether a
conflict of interest should overcome the presumption in favor of
defendant's choice of counsel, the circuit court must balance: (1)
the defendant's right to be represented by counsel of choice; (2) the
defendant's right to a defense conducted by an attorney who is free
of conflicts of interest; (3) the court's interest in the integrity of its
proceedings; (4) the witness's interest in protection of confidential
information; (5) the public's interest in the proper administration of
justice; (6) the probability that continued representation by counsel
of choice will provide grounds for overturning a conviction; and
(7) the likelihood that the State is attempting to create a conflict in
order to deprive the defendant of his counsel of choice. Factors
which the circuit court should weigh in conducting this balance
include, but are not limited to: (1) the potential for use of
confidential information by defendant's counsel when crossexamining the State's witness; (2) the potential for a less than
zealous cross-examination by defendant's counsel of the State's
witness; (3) the defendant's interest in having the undivided loyalty
of his or her counsel; (4) the State's right to a fair trial; and (5) the
appearance of impropriety should the jury learn of the conflict.
These factors are to be considered in light of the individual facts
and circumstances of each case.
Also of note, Sy!. Pt. 5 requires a hearing to adequately develop a record on such a motion.
Finally, Defense counsel insinuates that the case says the Sixth Amendment allows the
Defendants to choose whoever they want. What the case actually says is:
the United States Supreme Court has stated "while the right to
select and be represented by one's preferred attorney is
comprehended by the Sixth Amendment, the essential aim of the
Sixth Amendment is to guarantee an effective advocate for each
criminal defendant rather than to ensure that a defendant will
inexorably be represented by the lawyer whom he prefers." Wheat
v. United States, 486 U.S. 153, 159, 108 S.Ct. 1692, 1697, 100
L.Ed.2d 140 (1988) (involving disqualification related to dual
representations)
Jd.(emphasis added). In fact, the Wheat v. US. case, from the United States Supreme Court,
specifically finds that a court disqualifying an attorney attempting to represent two co-defendants
does not violate the Sixth Amendment right to counsel. Wheat v. United States, 486 U.S. 153

11
App. 181

Page 3 of8

(holding that the district court not allowing codefendant representation was "within its discretion
and did not violate petitioner's Sixth Amendment rights").
Finally, our Court, relying upon Wheat and the Rules, found that. even when there is not
an actual conflict yet, disqualification is appropriate when "there is a significant potential for a
serious conflict of interest." That is the case here.
The Defendants' argument that the State is somehow attempting to deny the Defendants
their Sixth Amendment right is opposed to what the W.Va. Supreme Court and the U.S. Supreme
Court say, The only concern of the State in who represents the Defendants is whether there is a
fair proceeding that will not be likely to be overturned because of a conflict. The State believes at
this point there is very serious risk of a claim by a later-convicted defendant that she did not have
a fair shake because of her chosen lawyer. That is a problem with the fair administration of
justice.
The State must note also that the representat_ion by Defense Counsel that the initial plea
offers in this case are some untimely or inappropriate is wholly ertoneous. The State almost
always makes plea offers at the very first hearing on all misdemeanor cases. This is well beyond
the time for the first hearing in a typical magistrate court misdemeanor. Further, even in felony
cases in circuit court, the State makes offers at every stage of the litigation- magistrate court,
bound over, arraignment, during discovery, and sometimes even during trial. Defense counsel
states in his years of practice he has never seen a plea offer this early in the process - the State is
obliged to point out that official Court records prove this claim untrue. Defense counsel is listed
as counsel of record on the following cases that were resolved via a plea agreement made before
the first circuit court hearing: (1) State v. Wilover Bankhead, 17-F-205; (2) State v. Cherie

Sherrets, 18-F-l 7; (3) State v. Carl Braxton, 18-F-92; (4) Desmond Spence, 19-F-93. In addition,

Page 4 of 8

App. 182

Defense counsel is listed as counsel ofrecord on the following misdemeanor cases just from this
year wherein a plea offer was made at or before the first hearing: (1) State v. Tiffany Taylor, 19m02m-4308; and (2) State v. Troy Jason Phillips JR, 19-M02M-03940. This case was charged in
magistrate court and then removed to circuit court, where there was some delay due to technical
issues with the e-filing system. Judging by the standard practice, this plea agreement is late, if
anything. In any case, and despite defense counsel's misrepresentation about his experience, it is
not improper to offer a plea agreement at any stage of the proceedings.
In cases where a person on the inside of a conspiracy or criminal actions will make the
State's case stronger in some way, the State always explores early plea offers involving
cooperation. In some cases, this is not likely to occur, such as co-defendant spouses (because of
marital privilege) or co-defendants who don't have much to offer the State. In those cases joint
representation of co-defendants would likely not be an issue. So, all joint representation of codefendants is not prohibited, but looking at the Rules, comments, and the case law, some clearly
is. The question for the Court is whether this joint representation of co-defendants is improper
because it's a matter where the State will be seeking to explore cooperation during plea
negotiations.
Indeed, it is beyond doubt, and the Defense admits, that his co-representation presents a
conflict. In fact, the conflict is ofa serious, constitutional nature: Becton v. Hun, 516 S.E.2d 762,
763,205 W.Va. 139, 140 (1999), and its progeny require communication of the plea offer and a
discussion of the relative merits, as a minimum level of effective assistance of counsel under the
Sixth Amendment of the Constitution. (Holding in Sy!. Pt. 3 that "Objective professional
standards dictate that a criminal defense attorney, absent extenuating circumstances, must
communicate to the defendant any and all plea bargain offers made by the prosecution. The

13
App. 183

Page 5 of8

failure of defense counsel to communicate any and all plea bargain proposals to the defendant
constitutes ineffective assistance of counsel, absent extenuating circumstances.") The Court in

Becton, reviewing precedent from other jurisdictions on the issue noted the following: (1) "It
would seem that, in the ordinary case, a failure of counsel to advise his client of a plea bargain
would constitute a gross deviation from accepted professional standards," (2) "Objective
professional standards dictate that a defendant, absent extenuating circumstances, is entitled to be
told that an offer to plead guilty has been made and to be advised of the consequences of the
choices confronting him. For counsel to do otherwise amounts to less than reasonably
professional assistance.", (3) "Defense counsel has a duty to communicate to his client, not only
the terms of a plea bargain offer, but also the relative merits of the offer compared to the
defendant's chances at trial." Id. at 766-767 (internal citations omitted). Failure to communicate
and advise, and likely engage in further negotiations with the State, constitutes ineffective
assistance of counsel under the Law of this and every jurisdiction in the United States. That
could result in another Court overturning any convictions obtained by the State in this matter.
Defense counsel argues that a waiver cures everything, but Rule l.7(b) directly states
otherwise by the use of the word "and." All four of those elements must be met. The State's
position is that defense counsel is not able to provide competent representation to each effected
client because he cannot fulfill his duties under Becton. The State notes that it may be willing to
make different cooperation plea offers from those already made, but is unable to discuss them
with counsel because of the conflict.
The State notes that the Defendant's position on the admissibility of the recording is
mistaken. The Defense fails to recognize that West Virginia is a one-party consent state. See
W.Va. Code§ 62-ld-3(e), The State recognizes that this matter involves a factual determination

ll\,
App. 184

Page 6 of8

by the Court and is not yet ripe for consideration. Nonetheless, the admissibility of the recording
is a contested decision which the Court will have to make. Defense counsel cannot assume his
position is correct on a gray area of the Law and fail to consider that this Court may disagree.
Finally, the State notes that the Defendant's example of Mr. Askin 's representation from
1987 is wholly unpersuasive. It is undersigned counsel's understanding that Mr. Askin has lost
his license to practice law for unethical practices, and the modern Rules of Professional Conduct
were last updates in 2015 and not in place in 1987. Hardly a good example to follow.
At the end of the arguments on this issue, the Court must decide whether this conflict is
consentable; whether it affects the fair administration of justice by creating a high likelihood of a
conviction being overturned. Clearly, the law says that this is an appropriate motion for the State
to make, that certain conflicts are non-consentable, and that typically joint representation of codefendants is inappropriate. The State's position is that this case present one where Defense
counsel's joint representation of the co-defendants makes him unable to provide competent and
diligent representation. The State takes no interest in the Defendants' chosen counsel, as long as

it doesn't create a situation where if the State prevails the conviction is likely to be overturned.

WHEREFORE,
The State prays that this Honorable Court hold a hearing on the matter and order that
defense counsel is disqualified from further representation in each of these cases.
Respectfully Submitted By,
THE STATE OF WEST VIRGINIA,
BY COUNSEL,

Isl Kevin J Watson

Isl Catie Wilkes Delligatti

Kevin J. Watson (WVSB #11759)
Assistant Prosecuting Attorney

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney

1S
App. 185

Page 7 of8

CERTIFICATE OF SERVICE
I, Catie Wilkes Delligatti, do hereby certify that I have served the attached STATE'S MOTION TO
DISQUALIFY DEFENSE COUNSEL upon counsel ofrecord via the W.Va. E-file system.

Isl Catie Wilkes Delligatti

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney

Page8of8

App. 186

West Virginia E-Filing Notice

CC-02-20[9-M-9
Judge: Laura Faircloth
To: Christian John Riddell
stedmanriddell@gmail.com

NOTICE OF ELECTRONIC FILING
IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
State of West Virginia v. June Elizabeth Yurish
CC-02-2019-M-9
The following letter to judge was FILED on 11/14/2019 2:35:07 PM

Notice Date:

11/14/2019 2:35:07 PM
Virginia Sine
CLERK OF THE CIRCUIT
Berkeley
380 W. South Street
MARTINSBURG, WV 25401
(304) 264-1918
belinda. parsons@courtswv.gov

App. 187

IN THE CIRCillT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

Case No. 19-M-7

vs.

KRISTIN LYNN DOUTY,

Defendant.

DEFENDANT'S SUPPLEMENTAL CONSOLIDATED MEMORANDUM REGARDING
DISQUALIFICATION OF JOINT REPRESENTATION

Comes now the Defendants, Kristin Douty, June Yurish, and Christina Lester, by
counsel, Christian J. Riddell and provides additional relevant authority, based on the Court's
findings during the November 18, 2019 hearing and its subsequent Order ofNovember 19, 2019,
which should further guide the Court's determination on the matter of disqualification.
The Court, in its November 18, 2019 fmdings, found that while there was no actual
conflict in existence between the Defendants, one could, theoretically, emerge should case
proceed such that one of the codefendants developed knowledge of material confidential
information which she did not want shared with the other codefendants but which might aid in
the other codefendants case, and that this information might affect counsel's ability to cross
examine witnesses. During the hearing, undersigned noted that such was always a theoretical
possibility, and that such a development might necessitate a withdrawal, but that no such conflict
had arisen and the matter was therefore purely academic. The Court, like the State, also

App. 188

expressed a particular concern with the possibility that joint representation could work an
overturn of a conviction on habeas corpus grounds.

In State v. Haddix, 375 S.E.2d 435, 180 W.Va. 71 (YI.Va. 1988), the West Virginia
Supreme Court addressed exactly this issue. The Syllabus of the Court states expressly that:

The joint representation by counsel of two or more accused,jointly indicted and tried is
not impl'oper per se; and, one who claims ineffective assistance of counsel by reason of
conflict ofintel'est in the joint representation must demonstrate that the conflict is
actual and not merely theoretical or speculative.'

Ibid. (quoting Sy! pt. 3, State ex rel. Postelwaite v. Bechtold, 158 W.Va. 479, 212 S.E.2d 69
(1975) (emphasis added).

In Haddix, attorney Monis had represented two codefendants indicted on Burglary charges,
Haddix and Moore. The Court, in appointing Mr. Haddix on both cases, stated at the outset that,
"if it becomes apparent to you, at any time, that there is a conflict because of your previous
representation of a Mr. Haddix, or anyone else of any conflict, why, if you notify the Comt I will
release you from your representation." Id at 436. The codefendants were convicted in the matter
and Defendant Haddix filed a Petition for Writ of Habeas Corpus alleging ineffective assistance
of counsel by reason of a conflict. In addition to the holding above, further noted that, "As stated
in Postelwaite, "conjecture and surmise will not suffice to brand counsel, appointed or retained,
ineffective in the representration of one accused of crime." Id. at 437. Key to the Comt's
determination was that Haddix had maintained his innocence throughout the trial. Said the Court:
The appellant contends that he was harmed by an actual conflict, in that trial counsel's
choice of trial strategy was influenced by the dual representation. Appellate counsel
alleges that due to the dual representation, trial counsel selected the wrong theory of the
case. Apparently based upon the trial judge's comments concerning Moore's reputation,
appellate counsel views the proper theory of the case as focusing on the Older Moore's
manipulation of the young, semi-illiterate Haddix, and others.

App. 189

Haddix' trial counsel took the Moore case four days before Haddix' trial date. Haddix,
under oath, denied his presence at the burgla,y. Haddix continued to maintain his
innocence during the presentence investigation. Appellate counsel's retrospective theo1y
of the case simply does not correlate with the evidence available to trial counsel at the
time of trial. It is pure conjecture to assume that the dual representation caused Haddix
to testify as he did.
Haddix maintained his innocence, contrary to the testimony of his alleged coconspirators, Workman and Kennedy. Moore did not testify against Haddix, and in fact,
all evidence in the record suggests that during the investigation of the burglary, Moore
never implicated Haddix.

Ibid.
As the Court can see, central to the Court's determination that the case was not defective
for conflict reasons was that ( a) Haddix maintained his innocence throughout, (h) Moore did not
implicate or testify against Haddix any time, and ( c) that the proposed alternate theory of the
case, to wit, Moore's supposed manipulation of Haddix had been purely "conjecture," and did
"not correlate with the evidence available to trial counsel at the time of trial."
All of this is instructive to this Court in a couple vital ways: (1) we must base a
disqualification on actual facts in the record, rather than pure speculation or conjecture and (2)
that key to any analysis of a potential conflict is whether a co-defendant intends to testify and
whether the co-defendants maintain their innocence. The record in this case does contain any
facts which would support the wholly speculative theory of disqualification proffered by the
Court at the November 181h hearing. In fact, it does not even comport with the State's claimed
basis for conflict, to wit, their desire to negotiate cooperation plea agreements that joint
representation would preclude.
The Postelwaite case, supra, cited by the Supreme Court in Haddix, similarly inveighs
against overturning a conviction based on speculation and conjecture. However, Postelwaite
goes even :further insomuch as it upholds an attorney's decision to engage in joint representation

<3D
I

App. 190

I

even where an actual conflict developed during the middle of trial, if that actual conflict could
not have bee11 anticipated i11 pretrial strategy.
In Postelwaite, Postelwaite and his codefendant Frazier had been jointly indicted for the
crime of receiving stolen property, and attorneys Eugene Hague, Sr. and Jr., were retained to
represent them both at Postelwaite' s expense. 212 S .E.2d at 71. Defense counsels had found joint
representation appropriate, and had disregarded separate trials because "I didn't feel as a matter
of defending the case it would be to the best interests of our clients. I felt they could be defended
more readily in a joint effort, by having them together at trial." He also stated that he didn't think
severance was suggested because "they were innocent, so I didn't feel it was necessary." Ibid.
However, at trial, the prosecution elicited testimony from two witnesses which seriously
implicated both defendants in the offense, and that the joint representation caused the attorneys
to a "middle-of-the-road approach rather shifting responsibility from one to the other." Id. at 72.
Based on this, the Circuit level Habeas Court found that a prejudicial conflict of interest had .
evolved from the joint representation, resulting in ineffective assistance. The Supreme Court,
however, rebutted this notion as follows:
In our view the trial court's conclusion of ineffective assistance ofcounsel, by reason of
attempts to represent conflicting interests, was predicated upon defense counsel's failure
to attack the damaging inculpatory testimony given by the two car
thieves ... Retrospectively, Mr. Hague, Sr. would have movedfor a severance. With
hindsight both counsel might have vigorously cross-examined the State's witnesses to test
their strength and consistency. When damaging testimony developed in trtal, counsel felt
'hampered' and obliged to pursue 'a middle-of.the-road course,' so as not to prejudice
either client for the possible benefit of one. All these considerations could have been of
crucial significance if the defense strategy had been to place blame upon the other
codefendant. That, however, was not the game plan adopted and pursued by these
experienced trial counsel with the acquiescence oftheir clients. The following
summarized evidence appears to have been ignored or, at least, not given the
significance it deserves in the resolution of the charge of ineffective assistance of counsel.
Counsel prepared and executed the defense of this case based upon their clients' early
and continuing claims of total innocence of the charge ... If any general, overriding
observation can be gleaned.from the evidence, instructions and closing arguments [158

App. 191

I!

W. Va. 488} in the criminal trial, it is that the veracity and credibility of the witnesses-whether prosecution or defense--was determinative of the outcome. The prosecution
witnesses, if believed, clearly implicated; the defense witnesses, if believed, clearly
exonerated. In view of this, it becomes apparent that the various shades of Postelwaite's
as compared with Frazier's involvements in the criminal activity were relegated to
positions of no significance by the overall defense strategy. While it is, indeed,
conceivable that counsel could have isolated, refined and limited the respective
inculpatory accusations of witnesses Hall and Bennett, an achievement ofsuch in one
case would have been equally counter-productive in the other. On the other hand, it is
neither apparent Ji-om the evidence, nor suggested by trial counsel that separate trials for
the defendants would have resulted in a net benefit to either or both. We acknowledge
that Mr. Hague Sr. stated in the Habeas proceeding that had he represented only one of
the defendants, he would have requested a severance. But, absent some relevant
explanation for such observation, it is a patent Non sequitur in view of the trial strategy
pursued by defense counsel.
The courts have not been too receptive to retrospective appraisals ofh'ial stmtegy ..• A
total app1•aisal of the evidence in this case, we believe, clearly indicates a decisive and
informed choice to unify the defense against the prosecution along the defense lines of
credibility and veracity, giving no quarter to admission, defection, or consortium.
Under such circumstances, therefore, it is difficult if not impossible to perceive how,
other than by conjecture or surmise, defense counsel, by the dual 1·epresentation,
slighted the defense of one defendant in favor of the other. State ex rel. Postelwaite v.
Bechtold, 212 S.E.2d 69, 158 W.Va. 479 (W. Va., 1975).
Conjecture and sunitise will not suffice to brand counsel, appobtted or retained,
ineffective in the represe11tatio11 of one accused of crime. Conflict of interest precluding
effective counsel must be established by the proponent. As was recognized in United
States v. Paz-Sierra, 367 F.2d 930 (2d Cir. 1966). 'Thus there is no reason to depart Ji-om
our 'position 'with respect to the requirement that conflict of interest must be shown as a
foundation for any claim that joint representation was a deprivation of the right to
counsel.' Id., at 933.
Accord, United States v. Dardi, 330 F.2d 316, 335 (2d Cir. 1964); United States v.
Bentvena, 319 F.2d 916, 937 (2d Cir. 1963); Gonzales v. United States, 314 F.2d 750
(9th Cir. 1963). The 'conflict' to be established must be actual, and not merely
speculative or theoretical. See United States v. Lovano, 420 F.2d 769 (2d Cir. 1970),
where the rule was stated and applied:
'Tlte rule, , , is that some specific instance ofprejudice, some real conflict of interest,
resulting from a joint representation must be shown to exist before it can be said that
an appellant has been denied the effective assistance of counsel. (Citations omitted)'
Id., at 773.

Id. at 73-76 (emphasis added).
As such, the key determination that this Court mnst make, in order avoid a reversal on habeas
corpus for conflict related ineffective assistance claims, is that the trial strategy as proposed by

App. 192

Defendants is not likely to create a conflict. This inquiry is the direct purpose of West Virginia
adoption of Rule 44(c) of the West Virginia Rules of Criminal Procedure. Rule 44(c) states that,
Whenever two or more defendants have been jointly charged pursuant to Rule 8(b) or
have been joined for trial pursuant to Rule 13, and are represented by the same retained
or assigned counsel or by retained or assigned counsel who are associated in the
practice of/aw, the court shall promptly inquire with respect to such joint representation
and shall personally advise each defendant of the right to effective assistance of counsel,
including separate representation. Unless it appears that there is good cause to believe
no conflict of interest is likely to a,ise, the court shall take such measures as may be
appropriate to protect each defendant's right to counsel.

Thus, the Court was correct in noting at the November 1S'h hearing that the conflict need not be
actual. As indicated in Postelwaite, even the existence of an actual conflict might not be enough
to overturn a conviction if such a conflict arose unexpectedly in the course of trial. Instead, the
relevant inquiry is for the Court to look at what is likely, based on the record and the Defendant's
trial strategy, before trial commences, Such a determination, of course, must be based on the
record as it exists, and on the actual trial strategy and play, as indicated in Postelwaite and
Haddix, and cannot be based on naked speculation and conjecture. "The standard for taking some

affirmative action under subdivision (c) is the trial court's belief that a conflict of interest is
likely to arise." Cole v. White, 180 W.Va. 393 (1988), Moreover, "When a trial court fails to

follows the requirements of subdivision (c) the court will review the record to determine if any
conflict likely existed between the jointly represented parties rather than to determine whether
there was an actual conflict. If, after reviewing the record, the court determines no conflict likely
existed between the jointly represented parties, such representation will not be deemed reversible
error." State v. Mullins, 181 W.Va. 415 (1989).
In addition, the West Virginia Supreme Court has further pointed out that the utilization
of separate trials is a choice favored over disqualification where doing so can avoid a conflict

App. 193

which would otherwise likely arise from joint representation. "The utilization of separate trials
has been recognized in Cuyler as a technique that may "significantly reduce the potential for a
divergence in [codefendants] interests." Cole, supra, 180 W. Va. at 604.
Because our state rules were modeled, and in fact copied almost verbatim, on the federal
rules. It is instructive to look at the precedent which has developed around Federal Rule of
Criminal Procedure 44(c). Federal jurisprudence on this issue similarly requires a court to look at
what is likely (not speculative or conjectural, but likely) prior to trial to determine whether action
need be taken. "Although joint representation 'is not per se violative of Constitutional
Guarantees of effective assistance of counsel, Holloway v. Arkansas, supra, it would not suffice
to require the court to act only when a conflict of interest is then apparent, for it's not possible
''to anticipate with complete accuracy the course that a criminal trial may talce." Fryar v. United
States, 404 F.2d 1071 (10th Cir. 1968).

As such, the Court must make an inquiry of Defendants and of counsel regarding the
possibility of a conflict of interest developing based on the nature of the contemplated defenses.
Rule 44 Notes ofAdvisory Committee on Rule -1944. Whenever it is necessary to make a more

particularized inquiry into the nature of the contemplated defense, the court should "pursue the
inquiry with defendants and their counsel on the record but in chambers" so as to "avoid the
possibility of prejudicial disclosures to the prosecution." United States v. Foster, 469 F.2d 1 (1st
Cir. 1972). In doing so, "it is important that each defendant be "fully advised of the facts
underlying the potential conflict and is given an opportunity to express his or her views." United
State v. Alberti, 470 F.2d 878 (2d Cir. 1972) .

-

.

App. 194

Based on the above, Defendants aver that their trial strategy is not likely to create any
conflict of interest between them, and that the only conflict alleged by the State, to wit, the
State's desire to negotiate a cooperation plea agreement, is one which they are capable of
waiving, as they have a complete and total right to determine how they plead in the instant case.
The conflict contemplated by the Court in malcing its decision, to wit, that one of the Defendants
may at some point develop some confidential information which they do not wish to share with
codefendants, or which may in tum cause counsel to cross examine a witness less zealously to
the other codefendants detriment, is wholly and completely speculative and conjectural, and is
not based on anything which exists in the record.
Regarding the record in this case, Defendants note that, while they do at this time have a
preliminary strategy, they have not yet received discovery fmm the State, nor has the state
responded to their Requests for a Bill of Particulars. Defendants aver that both of these things
will have a material impact on their strategic plan, including any choice as to severance of the
trials and any witnesses they may plan to call. AB such, it appears to undersigned that a Rulle
44(c) dialogue at this point is premature, that the State should provide the requested information,
that Defendants should be permitted to review it and formulate their h'ial strategy, and that the
Court should only then engage in the Rule 44(c) colloquy in camera. Such a procedure would
provide this court with the best opportunity to determine whether a conflict was likely to arise in
the instant case.

AB a final note, Defendants wish to respond to claims made by the Court that no evidence
exists as to the State attempting to create a conflict through their early introduction of plea
agreements in the instant case. Undersigned should first state that he may have overstated the
case when he said that he has never seen a plea offered weeks before a Defendant's initial

App. 195

I

appearance before the Court. It would have been more accurate to say that he cannot remember
such a thing ever happening (after representing hundreds of criminal clients over the years,
undersigned must admit that his memory on this point is certainly not infallible). However, its
also worth noting that the State has engaged in a slight of hand by combining cases wherein
pleas were offered before or at the initial appearance. Undersigned would agree that it
sometimes happens that plea agreements are made on sight at felony preliminary hearings or at
the first status hearing in a misdemeanor case, and that, on occasion, those deals are delivered in
writing a day or two in advance. However, being offered a plea mnltipleweeks before a
Defendants first appearance is, indeed, highly unusual.
Perhaps even more suspicious, however, was the exact timing and context in which the
instant pleas were delivered. Said pleas were offered by the Prosecution in an email exchange in

direct response to undersigned's statement that he had obtained informed consent waivers and
that he would not be voluntarily withdrawing from the case. Prior to that, Assistant Prosecutor
Watson had mentioned that they intended to ultimately malce such offers, but no offers had been
made, Instead, he simply stated that" such representation will significantly hinder the State's
ability (and each of your client's ability) to adequately plea negotiate in this case". As such, it is
plain that the deals were offered at the time they were for the precise purpose of triggering what
the State believed to be a disqualifying conflict for undersigned in order to provide support for
the Motion to Disqualify they intended to file thereafter. In an October gth email, the day after
undersigned informed him that he would not be withdrawing, Assistant Prosecutor Watson
provided the plea agreements, and specifically stated "Also, I have attached our initial plea offer
to each of your clients. As you know, you are required by State v. Becton, and the Rules of
Professional Conduct, to provide a copy of these offers to your client and to competently advise .

App. 196

I!

them about the offer. Yet, your joint representation prohibits advising/assisting one of your
clients to the detriment of another one in this case." Defendants submit that the exchange quoted
above indicates a clear intent to place undersigned counsel in a conflict box from which the only
escape would be withdraw from at least two Defendants or outright disqualification. Defendants
attach the email exchanges in question as Defendants' Exhibit A.
WHEREFORE, for all the reasons stated above, Defendants request that this Court
reverse its ruling from the November 18, 2019 hearing, Order the State to provide discovery and
a bill of particulars, as requested by Defendants, and then, after delivery of the same and
sufficient time to review, hold a supplemental hearing to engage in the Rule 44(c) colloquy.
Respectfully,
Defendants Lester, Douty, and Yurish,

By Counsel:

Isl Christian J. Riddell
Christian J. Riddell (#12202)
Law Offices of Stedman and Riddell
329 S. Queen Street Martinsburg, WV 25401
(304)267-3949

App. 197

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

CaseNo. 19-M-7

vs.

KRISTIN LYNN DOUTY,

Defendant.

CERTIFICATE OF SERVICE
I, Christian J. Riddell, Attorney at Law, legal counsel for the Defendant, Kristin Lynn
Douty, do hereby certify that I have served a true and accurate copy of the attached Defendants'
Defendant's Supplemental Consolidated Memorandum Regarding Disqualification of Joint
Representation upon the Prosecuting Attorney for Berkeley County by filing the same with the
Court via WV E-File this

zoth

day of November, 2019

Isl Christian J. Riddell

Christian J. Riddell (#12202)
Law Offices of Stedman and Riddell
329 S. Queen Street Martinsburg, WV 25401
(304)267-3949

App. 198

IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,

V.

Hon. Laura V. Faircloth

KRISTIN L. DOUTY,
CHRISTINA LESTER,
JUNE YURISH,
Defendants.

Case No. CC-02-2019-M-7
Case No. CC-02-2019-M-8
Case No. CC-02-2019-M-9

STATE'S RESPONSE TO DEFENDANT'S SUPPLEMENTAL CONSOLIDATED
MEMORANDUM REGARDING DISQUALIFICATION OF JOINT
REPRESENTATION
The State of West Virginia, by Berkeley County Prosecuting Attorney Catie Wilkes
Delligatti and Assistant Prosecuting Attorney Kevin Watson, responds to Defendant':,
Supplemental Consolidated Memorandum Regarding Disqualification ofJoint Representation.

Case law and common-sense demonstrate that this Court made the right call by
disqualifying Counsel for the Defendants so that each Defendant may be represented by counsel
loyal only to her interests. The "additional relevant authority" that Defendants provided in their
Memorandum does not change the analysis that this Court conducted on the record when

disqualifying Counsel for the Defendant. Further, no binding West Virginia authority requires a
colloquy conducted pursuant to Rule 44 to be done privately, in chambers, and nothing in this case
warrants such a private meeting with the Judge that is both closed to the public and to the
prosecutor.
In their Memorandum, Counsel for Defendants first addresses the Court's concern that joint

representation could work to overturn a conviction on habeas grounds. Defendants rely upon State
v. Haddix, 375 S.E.2d 435, 180 W.Va. 71 (1988), for the proposition that joint representation is

App. 199

not improper per se, and one who claims ineffective assistance of counsel due to conflict of interest
must demonstrate that the conflict is actual and not merely theoretical or speculative.

Haddix is distinguishable on several grounds. The two individuals represented by the same
attorney were not, contrary to what Defendants' Memorandum states, "co defendants indicted on
Burglary charges." Id. at 436, 180 W.Va. at 72 ("appellant contends that he was denied effective
assistance of counsel due to the conflict interests of his appointed trial counsel who also served as
counsel for another individual who was separately indicted and separately plea bargained

regarding another crime." (emphasis added)). Haddix was indicted, along with two other
individuals, for burglarizing a dwelling. Id. Allen Lee Moore was separately indicted for receiving
the property stolen from the dwelling. Id. Counsel was appointed to represent Haddix in February
of 1986, and was appointed to represent Moore in April of 1986, sh01tly before Haddix went to
trial. Id. Haddix's codefendants accepted plea offers and testified against him. Id, Moore accepted
a plea agreement. Id. at 437, 180 W.Va. at 73. In reference to Haddix, the Court stated that "[t]here
is nothing in the record we have before us that suggests a plea arrangement was ever considered
or offered." Id. at 438, 180 W.Va. at 74.
So, in Haddix, the Court was presented with a situation where an attorney represented an
individual who exercised his right to go to trial, whose codefendants were represented by other
attorneys and accepted plea offers to testify against the Defendant. Haddix's attorney represented
a tangentially involved individual who was not charged with the same crime or indicted together
with Haddix. Haddix was never offered a plea. In fact, originally, the same attorney had been
appointed to represent both Moore, the individual charged with receiving stolen property, and
Kennedy, one of Haddix's testifying co-defendants. Because Moore implicated Kennedy, and

qo

App. 200

Kennedy was willing to enter into a plea agreement which required testimony concerning Haddix,
counsel withdrew from Moore's case. Id. at note 2.
These facts are directly counter to Counsel for Defendants' theory that "key to any analysis
of a potential conflict is whether a co-defendant intends to testify and whether the co-defendants
maintain their innocence." In Haddix, the actual co-defendants did testify, and did not maintain
their innocence. So, that is clearly not key to the Court's analysis.
Interestingly, Moore also appealed his conviction and raised conflict of interest as grounds
for appeal. State v. Moore, 179 W.Va. 288, 290, 367 S.E.2d 757, 759 (1988) (per curiam).
Specifically relying on the fact that the case was not jointly indicted, the Court found no error in
Moore. So, with the significant differences presented by the case at bar, including that the State is
proceeding against these Defendants jointly, the analysis and conclusion necessarily differ. Id.
Defendants next discuss State ex rel. Postelwaite v. Bechtold, 158 W.Va. 479,212 S.E.2d
69 (1975). In this case, two defendants were represented by a father-son duo who opted for a joint
trial. Retrospectively, counsel would have moved to sever. Id. at 486,212 S.E.2d at 73. The Court
held that joint representation is not improper per se, and a claim of ineffective assistance of counsel
must be supported by a demonstration that the conflict is actual and not merely theoretical or
speculative. Id. at Sy!. Pt. 3,479, 212 S.E.2d at 70.
Defendants are correct in asserting that if this Court were reviewing this matter as a habeas,
Defendants would have to show an actual conflict to obtain reversal, and not merely attack
Counsel's trial strategy. However, this is not a habeas proceeding and that is not the standard the
Court should use at this time. Further, Defendants conveniently ignore the Court's discussion that:

App. 201

i

I

The foregoing authorities serve to illustrate that actual conflict must
occur before a court is warranted in declaring a conviction void by
reason of ineffective assistance of counsel. Those authorities do not
minimize the law's or this Court's abhorrence of actual conflict
arising from joint representation. Where such is evident the modem

decisions are uniform in co11dem11i11g joint represe11tatio11 which
results ill conflict; when found, prejudice is presumed.
Postelwaite, 158 W.Va. at 491,212 S.E.2d at 76 (emphasis added).

Defendants state that the Court should detennine whether Counsel for Defendants' trial
strategy is not likely to create a conflict, pursuant to Postelwaite, and go on to discuss Rule 44(c)
of the West Virginia Rules of Criminal Procedure. Notably, Rule 44 was adopted effective October
1, 1981, six years after Postelwaite.
Defendants then state that it "is instructive to look at the precedent which has developed
around Federal Rule of Criminal Procedure 44(c)," and cite to several federal cases: Fryar v.
United States, 404 F.2d 1071 (JO'" Cir. 1968), United States v. Foster, 469 F.2d 1 (1'1 Cir. 1972),
and United States v. Alberti, 470 F.2d 878 (2d Cir. 1972). In fact, the 1972 Foster case is where a
federal court held that district courts must conduct a colloquy with defendants in chambers, This

and every case cited by Defendant was decided prior to the adoption of subsection (c) of Rule
44.
Rule 44 of the Federal Rules of Ciiminal Procedure was originally adopted in 1944, and
then amended several times. The notes to the 1979 amendment indicate that: "Rule 44(c)
establishes a procedure for avoiding the occurrence of events which might otherwise give rise to a
plausible post-conviction claim that because of joint representation the defendants in a criminal
case were deprived of their Sixth Amendment right to the effective assistance of counsel." The full
notes to the 1979 amendment are attached. Also of note is the following from United States v.
Mari, included in the notes:

App. 202

Trial court insistence that, except in extraordinary circumstances,
codefendants retain separate counsel will in the long run ... prove
salutary not only to the administration of justice and the appearance
of justice but the cost of justice; habeas corpus petitions, petitions
for new trials, appeals and occasionally retrials ... can be avoided.
Issues as to whether there is an actual conflict of interest, whether
the conflict has resulted in prejudice, whether there has been a
waiver, whether the waiver is intelligent and knowledgeable, for
example, can all be avoided. Where a conflict that first did not
appear subsequently arises in or before trial, . . . continuances or
mistrials can be saved. Essentially by the time a case ... gets to the
appellate level the harm to the appearance ofjustice has already been
done, whether or not reversal occurs; at the trial level it is a matter
which is so easy to avoid.

U.S. v. Mari, 526 F.2d 117, 121 (C.A.N.Y. 1975). While Foster is also discussed in the notes to
the 1979 amendment, stating that whenever a more particularized inquiry is to be made, the court
should pursue it in chambers, it notably was not made a requirement of the Rule that the inquiry
be made privately. Should the Defendants have confidential information they wish to submit for
the Court's consideration, such a submission may be.made in camera, in accordance with Sy!. Pt.
6, State ex rel. Blake v. Hatcher, 218 W.Va. 407, 624 S.E.2d 844 (2005). It is by no means
necessary for the Court in this case to have a private meeting with the Defendants in chambers.
This case is in its infancy; rather than permitting prosecution and defense counsel to develop
strategies and then determining whether a conflict has arisen, the far wiser course is to affum this
Court's ruling that there is a potential for conflict that requires disqualification. The Court can do
this on the record in open court without holding a private meeting, which could further raise the
appearance of impropriety.
The notes to the 1979 amendment also discuss extensively what measures the court may
take to protect each defendant's right to counsel. Ultimately, while the notes discuss that obtaining

App. 203

a knowing, intelligent, and voluntary waiver may be sufficient in some cases, it is clear also that
disqualification of the attorney may be required in some cases; in fact, that:
[F]ailure of the trial court to require separate representation may , .
, require a new trial, even though the defendants have expressed a
desire to continue with the same counsel. The right to effective
representation by counsel whose loyalty is undivided is so
paramount in the proper administration of criminal justice that it
must in some cases take precedence over all other considerations,
including the expressed preference of the defendants concerned and
their attorney.
Rule 44 of the Federal Rules of Criminal Procedure - Notes to 1979 Amendment (further citation
omitted).
The State also wishes to address Counsel for Defendants' contention that the State had "a
clear intent to place undersigned counsel in a conflict box from which the only escape would be
withdraw from at least two Defendants or outright disqualification." The State recognized that it
wished to enter into plea negotiations (which the State has the right to do at any stage- even prior
to a defendant being charged, as the State has done with target letters). Anticipating that entering
into such negotiations would create a conflict that could not be avoided, the State felt that it was a
better use of judicial resources to address this conflict early on, rather than down the road when an
actual conflict develops and the case must, in many ways, begin again. The State does appreciate
that Counsel for Defendants recognizes that joint representation of the three Defendants runs the
risk of placing him "in a conflict box," however. 1

1 The State also notes Rule I.A.8. of the West Virginia Standards of Professional Conduct: "Unless specifically
permitted or invited by the court, a lawyer should not send copies of cot1'espondence between counsel to the comi.
Counsel may copy the court when the con-espondence does not contain material which would infer that counsel or
witnesses have conducted themselves inappropriately."

App. 204

The State would be remiss in not pointing out that all authority relied upon by Defendants
was decided/adopted prior to the adoption of Rule 1.7 of the West Virginia Rules of Professional
Conduct, adopted in 1989. Prior to the Rules of Professional Conduct, lawyers were governed by
the Code of Professional Responsibility. The State was able to locate Disciplinary Rule 5-105( c),
which provides:
In the situations covered by DR 5-105(A) and (B), a lawyer may
represent multiple clients if it is obvious that he can adequately
represent in the interest of each and if each consents to the
representation after full disclosure of the possible effect of such
representation on the exercise of his independent professional
judgment on behalf of each.

Rule 1.7 of the West Virginia Rules of Professional Conduct was adopted January I, 1989, which
is similar to DR-105(C), with the additions that the representation is not prohibited by law, and the
representation does not involve the assertion of a claim by one client against another. While the
State was unable to find a full copy of the Code of Professional Responsibility in order to determine
if it contains similar comments, the State continues to rely upon Comment [23], which states, in
part, that "[t]he potential for conflict of interest in representing multiple defendants in a criminal
case is so grave that ordinarily a lawyer should decline to represent more than one codefendant."
There is a dearth of case law in West Virginia addressing the joint representation of
criminal codefendants decided after the adoption of Rule 1.7 in 1989, perhaps because the Rules
of Professional Conduct make clear that representation of codefendants in a criminal case is not
advisable. Regardless, the Court did consider disqualification of counsel in a juvenile proceeding
in State ex rel. Michael A.P. v. Miller, 207 W.Va. 114, 529 S.E.2d 354 (2000).
In State ex rel. Michael A.P., two juveniles were separately charged with possessing deadly

weapons on school property. Id. at 116-117, 529 S.E.2d at 356-357. Both were represented by the

G\S
App. 205

same counsel. Id. That counsel was disqualified from the first juvenile's case over counsel's
objection and upon motion of the prosecutor due to the conflict of interest that arose from counsel
representing co-defendants. Id. at 117,529 S.E.2d at 357. The prosecutor then moved for counsel's
disqualification from the second juvenile's case because counsel was believed to have discussed
the facts relating to both juveniles' cases with her first client, who was expected to testify at her
second client's hearing. Id. Counsel argued that both juveniles and their parents waived any
conflict and thus she should not be disqualified. Id. at 118, 529 S.E.2d at 358. The Court held that,
"in a juvenile proceeding, the decision whether to grant or deny a motion to disqualify a lawyer
due to conflict of interest is within the sound discretion of the circuit court, even where the
interested parties have waived any conflict." Id. at 121-122, 529 S.E.2d at 361-362. In a footnote,
unfortunately for this Court, the Court stated that "[w] hile we hold that the decision is within the
court's discretion, we decline to herein set forth guidelines for the court's exercise of that discretion.
We leave that question for a more appropriate case." Id. at note 10.
Nothing provided by the Defendants in their Supplemental Memorandum changes the
analysis set forth by the Supreme Court in State ex rel. Blake v. Hatcher, 218 W.Va. 407, 624
S.E.2d 844 (2005). In this case, where each Defendant's level of culpability differs, there exists a
significant potential for a serious conflict of interest, and any assertion that Counsel for Defendants
can appropriately counsel all three Defendants on the merits of their cases is wholly incredible.
The State did not create a conflict. The Defendants did when they jointly hired one attorney to
represent all three of them in a criminal case.
Case law and common-sense weigh strongly in favor of disqualification of Counsel for the
Defendants so that each Defendant may be represented by counsel loyal only to her interests. While
the State must meet a heavy burden to warrant disqualification, the State has met that burden by

App. 206

showing that each Defendant has interests adverse to the other. Further, it is in the interest of
judicial efficiency to address this now, rather than waiting until the case has developed. Finally, it
is clear that Counsel for Defendants cannot impartially weigh the merits of the case against each
individual co-Defendant, as, in his Infonned Consent Conflict Waiver attached as Exhibit A to
Defendants' Consolidated Response, he did not simply refer to a cooperation plea agreement but
rather indicated that "it may, at some point, be to my advantage to defend accusations against me
by placing the blame at the feet ofmy co-defendants." (emphasis added). How are co-defendants,
each represented by the same attorney, expected to speak up with any concerns they may have,
when it is clear that raising any concerns will be viewed by that attorney as "placing the blame at
the feet" of their co-defendants?
This Court has already made the appropriate ruling by disqualifying Counsel for
Defendants. The State asks this Court to proceed with a colloquy to the extent required by Rule
44, on the record, and then permit Defendants to obtain new counsel so that this case may proceed
without further delay.
Respectfully submitted,

STATE OF WEST VIRGINIA,
BY COUNSEL,
Isl Catie Wilkes Delligatti
Catie Wilkes Delligatti (WVSB# 11591)
Berkeley County Prosecuting Attorney
380 W. South Street, Suite 1100
Martinsburg, WV 2540 I
PH: (304) 264-1971
FX: (304) 263-6092

ls/Kevin J. Watson
Kevin J. Watson (WVSB# ll 759)
Assistant Prosecuting Attorney
380 W. South Street, Suite 1100
Martinsburg, WV 25401
PH: (304) 264-1971
FX: (304) 263-6092

App. 207

CERTIFICATE OF SERVICE
I, Catie Wilkes Delligatti, do hereby certify that I have served the attached STATE'S

RESPONSE TO DEFENDANT'S SUPPLEMENTAL CONSOLIDATED
MEMORANDUM REGARDING DIAOUALIFICATION OF JOINT
REPRESENTATION upon counsel ofrecord via the W. Va. E-file system.
Respectfully submitted,

STATE OF WEST VIRGINIA,
BY COUNSEL,

Isl Catie Wilkes Delligatti

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney
3 80 W. South Street, Suite 1100
Martinsburg, WV 25401
PH: (304) 264-1971
FX: (304) 263-6092

App. 208

i

West Virginia E-Filing Notice

CC-02-2019-M-9
Judge: Laura Faircloth
To:

Christian John Riddell
stedmanriddell@gmail.com

NOTICE OF ELECTRONIC FILING
IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
State of West Virginia v. June Elizabeth Yurish
CC-02-2019-M-9
The following letter to judge was FILED on 12/2/2019 4:44:20 PM

Notice Date:

12/2/2019 4:44:20 PM
Virginia Sine
CLERK OF THE CIRCUIT
Berkeley
380 W. South Stt·eet

MARTINSBURG, WV25401
(304) 264-1918

belinda.parsons@courtswv.gov

qq
App. 209

In the Circuit Court of Berkeley County, West Virginia
State of West Virginia,

Plaintiff,
vs.)

June Elizabeth Yurish,

Defendant

)
)
)
)
)
)
)
)

Case No. CC-02-2019-M-9

NOVEMBER 21, 2019, HEARING ORDER
On November 21, 2019, the State, by Berkeley County Prosecuting Attorney Catie
Wilkes Delligatti, and the Defendants June Yurish, Kristen Douty, and Christina Lester, in person
and by counsel, Christian Riddell, appeared before this Court for a hearing.
The original purpose of the hearing was to enter into a colloquy with the Defendants on
the record pursuant to Rule 44(c) of the West Virginia Rules of Criminal Procedure. However,
the Court noted that Defendants, by counsel, filed a lengthy Defendant's Supplemental

Consolidated Memorandum Regarding Disqualification of Joint Representation on the
immediately prior evening. The Court further noted that the Memorandum included a citation to

United States v. Foster, 469 F.2d 1 (1st Cir. 1972), which suggested that the Court should
"pursue the inquiry with defendants and their counsel on the record but in chambers."
Consequently, the Court will not take up the colloquy with Defendants until the State has
had sufficient time to respond to the Defendants' Memorandum.
Counsel for Defendants again requested that the Court order the State to provide
discovery and a Bill of Particulars. The Court again ruled that the State would not be ordered to
provide discovery or a Bill of Particulars until the issue of whether the Defendants may be
represented by the same counsel has been resolved.
Thus, this Court ORDERED that the State respond to Defendants' Memorandum within
ten (10) days of this hearing, and that this matter be reset for hearing on December 10, 2019, at

100

App. 210

3:00 p.m.

This Court further directed the parties to be prepared to argue whether the colloquy the
Court must undertake pursuant to Rule 44( c) should be conducted in open court or in chambers
without the State present.
The Clerk is directed to provide copies of this Order to counsel of record.
Prepared by:
ls/Catie Wilkes Delligatti

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney
380 West South Street, Suite 1100
Martinsburg, WV 25401
PH: (304) 264-1971
FX: (304) 263-6092

Isl Laura Faircloth

Circuit Court Judge
23rd Judicial Circuit

Note: The electronic signature on this order can be verified using the reference code that appears in the
upper-left corner of the first page. Visit www.courtswv.gov/e-flle/ for more details.

l DI

App. 211

In the Circuit Court of Berkeley County, West Virginia
State of West Virginia,

)
)
)
)
)
)
)
)

Plaintiff,
vs.)

Kristin Lynn Douty,

Defendant

Case No. CC-02-2019-M-7

ORDER SETTING HEARING

This matter shall come on for an arraignment/scheduling hearing on January 6, 2020, at
11:30 a.m. At that time, trial dates shall be set and discovery matters shall be addressed.

Defendants have until this hearing to retain new counsel.
The Clerk shall enter this Order and provide copies to all_ counsel, as well as to
Defendants individually by mail.
Prepared by:
ls/Catie Wilkes De/ligalli

Catie Wilkes Delligatti (WVSB #11591)
Berkeley County Prosecuting Attorney
380 W. South Street, Suite 1100
Martinsburg, WV 25401
PH: (304) 264-1971
FX: (304) 263-6092

Isl laura Faircloth

Circuit Court Judge
23rd Judicial Circuit

Note: The electronic signature on this order can be verified using the reference code that appears In the
upper-left corner the first page. Visit www.courtswv.gov/e-file/ for more details.

of

I

I
I

[Od

App. 212

'

West Virginia E-Filing Notice

CC-02-20 I 9-M-7
Judge: Laura Faircloth
To: Kristin Lynn Douty
11 Warren Clark Dr.
Martinsburg, WV 25403

NOTICE OF ELECTRONIC FILING
IN THE CIRCUIT COURT OF BERKELEY COUNTY, WEST VIRGINIA
State of West Virginia v. Kristin Lynn Douty
CC-02-2019-M-7
The following order· motion was FILED on 12/12/2019 3:05:50 PM

Notice Date:

12/12/2019 3:05:50 PM
Virginia Sine
CLERK OF THE CIRCUIT
Berkeley
380 W. South Street
MARTINSBURG, WV 25401
(304) 264-1918
belinda.parsons@courtswv.gov

103
App. 213

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No.

State of West Virginia, ex rel June Yurish, Kristin Douty and
Cluistina Lester
Case No: 19-M-7
Case No: 19-M-8
Case No: 19-M-9

v.

The Honorable Laura Faircloth
Sittings as Judge of the Circuit Coutt of Berkeley County

CERTIFICATE OF SERVICE
I, Christian J. Riddell, Esq., do swear that a copy of the Appendix to Petition for Writ of

r

l

Prohibition in this matter was served upon the Honorable Laura V. Faircloth, Circuit Court
Judge, by facsimile transmission to (305)267-3883 and to Kevin Watson, AssiBtant Prosecuting
Attorney be facsimile transmission to (304)263-6092 this 20th day of December, 2019.
ls/Christian J. Riddell
Christian J. Riddell (WV Bar #12202)
Stedman & Riddell
329 S. Queen Street
Martinsburg, WV 25401
(P): (304) 267-3949 (F) (304) 267-5411
Email: stedmamiddell@gmail.com

App. 214

'

Christian

J.

Riddell

The Riddell Law Group

Dylan Batten

June 29, 2020
Honorable Edyth Nash Gaiser
Office of the Clerk
West Virginia Supreme Court of Appeals
State Capitol Building, Room E317
1900 Kanawha Boulevard East
Charleston, WV 25305
Re:

State ex rel June Yurish, Kristin Douty and Christina Lester
DocketNo.: 19-1160

Dear Ms. Nash Gaiser:
Enclosed please find, herewith, for filing with the Court, the following:
1. An original and ten (10) copies of a Petition for Rehearing in the above
referenced matter.

I thank you for your kind consideration in this matter.
Sincerely,
Christian J. Riddell

CJR/jh
Enclosures as Stated
cc: Honorable Laura V. Faircloth
Patrick Morrisey, Esquire

329 South Queen Street
Martinsburg, WV 25401

App. 215

Phone: 304-267-3949 I Fax: 304-267-5411
stedmanriddell@gmail.com

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No. 19-1160
State of West Virginia, ex rel June Yurish, Kristin Douty and
Christina Lester
Petitioners,

v.
The Honorable Laura Faircloth
Sittings as Judge of the Circuit Court of Berkeley County, and
State of West Virginia,
Respondents.

PETITION FOR REHEARING

Christian J. Riddell
W.Va. Bar No. 12202
Riddell Law Group
329 South Queen Street
Martinsburg, West Virginia 25401
(304) 267-3949
(304) 267-5411 facsimile

App. 216

I.
I.

TABLE OF CONTENTS

The Comt's Holding Erroneously Elevates A State Rule of Criminal Procedure Above
The 6th Amendment of the U.S. Constitution ................................................ 1

II. The Court Misunderstands The Intended Use And Relevance of State v.Markley ........... 7
III. The Court Erroneously Uses A conflict Purposely Contrived By The State To Deprive
Defendants Of Their Choice of Counsel In Direct Violation Of State ex rel. Blake v.
Hatcher ............................................................................................7
IV. The Court Erroneously States That An Actual Conflict of Interest Existed .................. 9
V. The Comt Misapprehends Petitioners' Invocation of Postelwaite ...... ....................... 9
VI. The Circuit Court's Decision Should Be Reversed Because The State Lacked Standing
To Bring The Disqualification Motion At Issue ........................................... 11
VII.

Conclusion ...................................................................................... .12
Certificate of Service ...................................................................... 13

App. 217

II.

TABLE OF AUTHORITIES

WV Rules of Appellate Procedure:
Rule 25 ...................................................................................................... 1

WV Rules of Criminal Procedure:
Rule 44(c) ................................................................................ !, 3, 4, 5, 7, 9, 10
Cases:
Powell v. Alabama, 287 U.S. 45, 53 (1932) .......................................................... .1
US. v. Gonzalez-Lopez, 548 U.S. 140, 126 S.Ct.2557, 165 L.Ed.2d 409 (2006) ............. 1, 2
Arizona v. Fulminante, 499 U.S. 279 (1991) .......................................................... 2
Luis v. United States, 136 S.Ct. 1083, 1089, 194 L.Ed.2d 256 (2016) ............................. 2
State ex rel. Blake v. Hatcher, 624 S.E.2d 644,218 W.Va. 407 (W.Va. 2005) ............ .3, 4, 5,
6, 7, 8, 9, 10, 11
Cole v. White, 180 W.Va. 393 (1988) .................................................................. 5
Wheat v. United States, 486 U.S. 153,259 (1988) .................................................... 6
State ex rel. Abraham Linc. Corp. v. Bedell, 216 W.Va 99,602 S.E.2d 542 (W.Va 2004) ... 11

ii

App. 218

Comes now the Petitioners, Kristin Douty, June Yurish, and Christina Lester, and
Petitions this Honorable Comt, under Rule 25 of the West Virginia Rules of Appellate
Procedure, for Rehearing in the above styled case.
In support of said motion, Petitioners submit to the Court that the following points of law
and fact were misinterpreted or otherwise in error, and that this matter should therefore be
reheard and the Court's decision reversed.

I.

THE COURT'S HOLDING ERRONEOUSLY ELEVATES A STATE RULE OF
CRIMINAL PROCEDURE ABOVE THE 6TH AMENDMENT OF THE U.S.
CONSTITUTION

While the remainder of the points for reconsideration are identified chronologically in the
order that they appear in the majority's decision, Petitioners raise the instant issue first because
of its fundamental and primary Constitutional import. It appears that the majority has created a
precedent whereby Rule 44(c) of the West Virginia Rules of Criminal Procedure may be applied
in lieu and to the detriment of the case precedents established to determine whether a defendant's
6th Amendment Right to counsel of choice can be overcome. In doing so, the Court has
erroneously elevated a state rnle of procedure above the foundational Constitutional principles of
the Republic.
The United States Supreme Court has unequivocally held that the denial of a litigant's
counsel of choice amounts to a violation of the 6th Amendment. Powell v. Alabama, 287 U.S. 45,
53 (1932) ("It is hardly necessary to say that, the right to counsel being conceded, a defendant
should be afforded a fair opportunity to secure counsel of his own choice"). More recently, in

US. v. Gonzalez-Lopez, 548 U.S. 140, 126 S.Ct. 2557, 165 L.Ed.2d 409 (2006), the Supreme
Court held that a trial court's deprivation of a criminal defendant's choice of counsel is so
1

App. 219

fundamental that it entitles him to reversal of conviction, even where a defendant cannot show
that substitute counsel was not ineffective. The Gonzales-Lopez Court specifically stated that
"[The Sixth Amendment] commands, not that a trial be fair, but that a particular guarantee of
fairness be provided - to wit, that the accused be defended by the counsel he believes to be best."
Id. at 146. The Comi noted further that "The right to select counsel of one's choice, by contrast,
has never been derived from the Sixth Amendment's purpose of ensuring a fair trial. It has been
regarded as the root meaning of the constitutional guarantee ... Where the right to be assisted by
counsel of one's choice is wrongly denied, therefore, it is unnecessary to conduct an
ineffectiveness or prejudice inquiry to establish a Sixth Amendment violation. Deprivation of the
right is "complete" when the defendant is erroneously prevented from being represented by the
1

lawyer he wants, regardless of the quality of the representation he received." Id. at 147-48. Such
a violation amounts to a "structural error," which "def[ies] analysis by 'harmless error'
standards" because they "affect the framework within which the trial proceeds," and are not
"simply an error in the trial process itself." Id. at 148 (quoting Arizona v. Fulminante, 499 U. S.
279 (1991). As recently as 2016, the U.S. Supreme Court affirmed the fundamental importance
of the right to counsel of choice. See Luis v. United States, 136 S. Ct. 1083, 1089, 194 L.Ed.2d
256 (2016) ("We nonetheless emphasize that the constitutional right at issue here is fundamental:
'[T]he Sixth Amendment guarantees a defendant the right to be represented by an otherwise
qualified attorney whom that defendant can afford to hire.'")
Although Petitioners, of course, acknowledge that there are certain instances where a
Defendant's choice of counsel can be overcome by a disqualifying conflict of interests, such was

1

Ironically, the Court's decision, given the Gonzalez-Lopez language referenced, actually makes an overturning of
any conviction obtained in the case at bar more, rather than less, likely, in direct violation of the 61h Blake
interest/factor, infra.
2

App. 220

plainly not the case in the instant matter. As noted by Justice Workman in page three of her
dissent, "In the instant case, the sole ground on which the State moved to disqualify defense
counsel was that he would not be able to advise his clients as to the existence of, or the
desirability of, any proffered plea agreements. Under the facts and circumstances of this case, the
State's argument was woefully insufficient to raise a legitimate concern about the adequacy of
counsel's representation and, thus, to overcome the petitioners' Sixth Amendment right to select
counsel of their choice." Nevertheless, the majority disregards this logic without even
conducting an analysis under its own previously established standard for determining when a
Defendant's sixth amendment right to counsel of choice can be overcome. Said the Comt at page
17 of its decision:

Indisputably, the circuit court disqualified Mr. Riddell due to the likelihood that conflicts
of interest would arise due to his joint representation of Petitioners, not because he
formerly represented a State's witness. That is a critical distinction. It places Petitioners'
cases in the Rule 44(c) basket rather than the Blake basket. So, while our discussion of a
criminal defendant's right to effective counsel in Blake is informative, the particular
holdings relied upon by Petitioners are not applicable to their case and do not
demonstrate that the circuit court's order is a clear error law or a flagrant abuse of its
discretion.
By so holding, the Court implicitly disregards the framework it has previously established in

State Ex Rel. Blake v. Hatcher, 624 S.E.2d 844,218 W.Va. 407 (W. Va. 2005), for determining
when a defendants 6° amendment right to choice of counsel can be overcome. Instead, it now
1

appears to endorse using Rule 44(c) to confer upon circuit courts what is tantamount to absolute
discretion to disqualify joint counsels whenever the circuit comt subjectively thinks that a
conflict is likely - even where there is nothing in the record which would suggest that the
imagined conflict is any more likely than in any other case of joint representation - so long as the
circuit court has complied with the procedures of Rule 44(c). This is in en·or.

3

App. 221

It must be noted that the Court, at page 17 of the majority's decision, appears to
misconstrue the significance and applicability of both the Blake factors as well as Rule of
Criminal Procedure 44(c). Although the Court's opinion correctly cites to part of Blake's
Syllabus Point 3, to wit, "circumstances where there appears to be an actual conflict of interest or
where there is a significant potential for a serious conflict of interest involving defense counsel's
former (or current) representation of a State witness," it ignores the beginning of this sentence,
which provides that the quotation applies to when "[t]he state of West Virginia, through a
prosecuting attorney, has standing to move for disqualification." Blake at Syl. Pt. 3, As such,
Syllabus point three does not outline the situations wherein the Blake factors are to be applied,
but instead merely stands for the proposition that a prosecutor has standing to move for
disqualification.2 For an explanation of when the Blake factors are to be applied to a motion for
disqualification, we must look to Syllabus Point 4, which states, in relevant part, that:
111 determining whether a co11jlict of interest should overcome the presumption in favor
of defe11da11t's choice of co1111sel, the circuit court must balance: (]) the defendant's
right to be represented by counsel of choice; (2) the defendant's right to a defense
conducted by an attorney who is free of conflicts of interest; (3) the court's interest in the
integrity of its proceedings; (4) the witness's interest in protection of confidential
information; (5) the public's interest in the proper administration ofjustice; (6) the
probability that continued representation by counsel of choice will provide grounds for
overturning a conviction; and (7) the likelihood that the State is attempting to create a
conflict in order to deprive the defendant of his counsel of choice.

Id. at Syl. Pt. 4 (Emphasis added).
This language makes clear that these interests must be balanced in every case where a Court is
asked to decide "whether a conflict of interest should overcome the [6TH Amendment]
presumption in favor of defendant's choice of counsel." Ibid. Thus, although the facts in Blake
happen to involve a motion to disqualify based on a conflict with a potential state witness, the

2

This will be discussed in greater detail in subsequent arguments.
4

App. 222

Blake Comt by no means limited the factors to that specific situation, but rather applied them to
any situation where a court is tasked with "determining whether a conflict of interest should
overcome the presumption in favor of defendant's choice of counsel." Ibid. As such, Rule 44(c)
and the Blake factors are not mutually exclusive mies, but rather must be read and applied in
tandem.
Further proof on this point is that Rule 44(c) cannot be intended as a substitute or stand
alone test for disqualification because Rule 44(c) does not actually require disqualification where
a conflict is found, but rather authorizes the Comt, when discovering what it believes to be a
likely conflict, to "take such measures as may be appropriate to protect each defendant's right to
counsel." As discussed in Petitioners' brief, there are numerous alternatives here, including
appointment of separate counsels for the purpose of plea negotiation, the severance of trial, or a
simple colloquy advising a defendant of their rights to separate representation. In fact, The West
Virginia Supreme Comt has specifically held that the utilization of separate trial is favored over
disqualification. See Cole v. White, 180 W.Va. 393 (1988). Thus, Rule 44(c) cannot be
interpreted as an alternate process for determining whether the presumption in favor of
Defendant's choice of counsel should be overcome. Rather, that decision must, in all instances,
be made within the context of Blake.
More fundamentally, however, a thorough review of Blake makes plain that it was
intended as the definitive standard withiµ West Virginia courts for determining when a
defendants 61h amendment right to counsel can be overcome for disqualification purposes.
Specifically, Blake stands for the proposition that the way a defendant's 61h amendment right to
counsel of choice can be overcome is where the facts indicate that said choice of counsel cannot
be effective under the circumstances. Said the Comt in Blake:
5

App. 223

Further, when addressing a criminal defendant's right to counsel of choice in light of the
Sixth Amendment, the United States Supreme Court has stated "while the right to select
and be represented by one's preferred attorney is comprehended by the Sixth
Amendment, the essential aim of the Sixth Amendment is to guarantee an effective
advocate for each criminal defendant rather than to ensure that a defendant will
inexorably be represented by the lawyer whom he prefers."... Where representation is

affected by an actual conflict of interest, the defendant cannot be said to have received
effective assistance of counsel as required by the Sixth Amendment

Id. at 850-51 (quoting Wheatv. United States, 486 U.S. 153,259 (1988).
As such, the balance of interests which Blake attempts to resolve center almost completely on the
Defendant's 6'h amendment right to counsel of choice vs. its 61h amendment right to effective
assistance of counsel. 3 In further support of this point, the Blake Court notes that "Upon the
State's motion to disqualify counsel, a trial court 'must balance two Sixth Amendment rights: (1)
the right to be represented by counsel fo choice and (2) the right to a defense conducted by an
attorney who is free of conflicts of interests."' Id. at 852. Thus, there can simply be no doubt that
the Blake factors were intended to be weighed wherever a defendant's 6th Amendment right to
counsel must be balanced against its sixth amendment right to effective, conflict-free assistance
for the purposes of adjudicating a motion to disqualify. Such is exactly the case in the instant
matter, and it is plain that the heavy burden imposed by the state on this point cannot be
overcome, as Justice Workman's dissent noted "Under the facts and circumstances of this case,
the State's argument was woefully insufficient to raise a legitimate concern about the adequacy
of counsel's representation and, thus, to overcome the petitioners' Sixth Amendment right to
select counsel of their choice."
Yet, the Court's decision wholly dispenses with any attempt to reconcile the Blake
factors or otherwise overcome the State's Constitutional burden in the case at bar ("We do not
3

For the sake of completeness, it should be noted that the Blake court also discusses the Courts independent
interest in ensuring that criminal trials are conducted within the ethical standards of the profession, but this
consideration can readily be ascertained to be secondary to the 61h Amendment interests at play.
6

App. 224

find it necessary to recount the particulars of Blake"), and thereby wholly dispenses with this
case's fundamental Constitutional question in favor ofa basic Rule 44(c) analysis. By doing so,
the Court has effectively privileged Rule 44(c) over the United State's Constitution's 61h
Amendment.
II.

THE COURT MISUNDERSTANDS THE INTENDED USE AND
RELEVANCE OF STATE V. MARKLEY

The Court appears to misapprehend the relevance of the State v. Markley case out of the
Berkeley County Circuit Court, cited by Petitioners in their arguments before the Circuit Court.
The purpose of that case was to demonstrate the longstanding practice in the Berkeley County
Circuit Comt to appoint separate counsel for the purpose of discussing matters which the
Defendant's joint counsel would be prohibited from discussing. This is relevant to the case at bar
because, as noted in Petitioner's brief, there is a longstanding preference for the Court, because
of the Constitutional significance of a Defendant's choice of counsel, to choose other alternatives
in lieu of disqualification where such alternatives will suffice
III.

THE COURT ERRONEOUSLY USES A CONFLICT PURPOSELY
CONTRIVED BY THE STATE TO DEPRIVE DEFENDANTS OF THEIR
CHOICE OF COUNSEL IN DIRECT VIOLATION OF STATE EX REL. BLAKE
V. HATCHER.

The Comt holds, at page 15 of its decision, that Petitioners arguments must fail because
"Petitioners acknowledged that the joint representation arrangement in this case had the potential
to create a conflict of interest for Mr. Riddell, and, in fact, already had. There is no dispute that
the State offered cooperation plea agreements to Petitioners before October 21, 2019, when the
State first moved to disqualify Mr. Riddell. So, the State's offer of cooperation plea agreements
created an actual conflict of interest for Mr. Riddell because he could not advise one Petitioner
without violating his professional obligations to the other." However, this statement ignores one
7

App. 225

of the principle factors of State ex rel. Blake v. Hatcher, to wit, whether "the state is attempting
to create a conflict in order to deprive the defendant of his counsel of choice." 624 S.E.2d 644.
654 (W.Va. 2005). As such, the Comt has explicitly used as a basis to support disqualification a
factor which expressly weighs against disqualification per the seminal West Virginia case on
disqualification.
What's more, there can be no doubt that the plea agreements submitted in this matter
were proffered expressly within the context of removing undersigned counsel from the case, as
factually set forth in pages 4 and 5 of Petitioner's perfected appeal brief, and so amounts to a
prototypical example of a prosecutor attempting to create a conflict in order to deprive a
defendant of their counsel of choice. 4 To use such an action as a legitimate basis for a
disqualifying, unwavable conflict is manifestly against West Virginia's precedent as to
disqualification of counsel from joint representation. The Court then compounds this mistake of
law by noting that although "our cases provide that there is a presumption in favor of petitioners'
choice of Mr. Riddell as counsel," this presumption must be overcome because "Mr. Riddell's
joint representation of Petitioners had already created an actual conflict of interest, and
threatened additional serious conflicts in the future, we cannot say that the circuit court clearly
erred ... " This supposed "additional serious conflict" which was "threatened," was nothing more
than unrestrained speculation, on behalf of the Circuit Court, that one of the defendants might
eventually, at some unknown time in the future, desire to communicate material information
without it being shared amongst the other codefendants. Such a scenario never occurred and was
never "threatened," and it is an egregious error for the Court to use a concurrent conflict

4

Petitioners would note that the prosecutions obvious intention on this point is readily identified at page 4 of
Justice Workman's dissenting opinion, and can hardly even be considered a matter of debate under the facts of the

case.

8

App. 226

expressly created by the prosecution, in express violation of Blake v. Hatcher, and combine it
with a theoretical contingency which potentially exists in every single instance of joint
representation but which has not in any way manifested or threatened to manifest itself in the
case at bar. Petitioners would reiterate that, if these two facts are enough to warrant
disqualification of joint representation, then any potential scenario, regardless of its relation to
the actual facts ofthe case, is enough to grant a trial court the discretion to disqualify, thereby
nullifying the very concept of a 61h amendment presumption in favor of a defendants choice of
counsel.
IV.

THE COURT ERRONEOUSLY STATES THAT AN ACTUAL CONFLICT OF
INTEREST EXISTED.

The Court further errs at page 16 of its Decision when it claims that "Mr. Riddell's joint
representation of Petitioners had already created an actual conflict of interest, and threatened
additional serious conflicts in the future ... " In fact, the Circuit Court was very clear that no
actual conflict of interest had been identified. As the Circuit Court stated in its November 18,
2019 hearing, "there is not an actual conflict of interest at this early stage in the proceedings of
discovery ... " Transcript from November 18, 2019 proceedings, pp. 26-27. As such, the Court is
in error in finding, as a matter of fact, that an actual conflict existed.
V.

THE COURT MISAPPREHENDS PETITIONERS' INVOCATION OF
POSTELWAITE

Next, the Court misapprehends the purpose of Petitioner's invocation of the State ex rel
Postelwaite v. Bechtold language. The Court, at page 18 of its decision, disregards Petitioners'

references to Postelwaite on the theory that "[t]he Postelwaite standard applies in reviewing a
conviction of a criminal defendant on appeal. Pursuant to Rule 44(c) of the West Virginia Rules
of Criminal Procedure, a different standard must be applied by the trial court in initially
9

App. 227

determining whether joint representation is proper." However, Petitioners did not argue that the
Postelwaite standard should replace the Rule 44( c) standard. Rather, the significant of the

Postelwaite language, as articulated and elaborated upon by Petitioner during oral argument, is
that it speaks to the 6th Blake v. Hatcher interest, to wit, "the probability that continued
representation by counsel of choice will provide grounds for overturning a conviction". Blake at
Sy! Pt. 4. If a theoretical or speculative conflict is insufficient to overturn a conviction, then the
Court need not be concerned about the possibility of such under the grounds for disqualification
articulated in this matter by the Berkeley County Circuit Court because that ground, to wit, that it
may one day happen that one of the codefendants wants to relay material information to counsel
without disclosing to codefendants, has not happened and is entirely speculative and theoretical.
Additionally, the Postelwaite holding that "joint representation by counsel of two or more
accused, jointly indicted and tried, is not improper per se," is also important to Petitioners
arguments as a general matter, because it demonstrates, on a fundamental level, the circuit courts
are not to be empowered to disqualify joint counsels unless there is good cause to do so based on
the actual facts of the case. By creating a paradigm where a judge can disqualify joint counsel for
reasons which theoretically exist in every instance of joint representation (that the state may wish
to offer legitimate cooperation plea agreements or that one codefendant may, at some point,
demand confidentiality vis-a-vis the other jointly represented codefendants) the Court is
essentially authorizing a circuit court to disqualify a joint counsel in every instance of joint
representation regardless of the actual facts of the case. Such a paradigm, rather than being in
concordance with the notion that joint representation is not improper per se, instead suggests that
joint representation is improper whenever a circuit court says it is.

10

App. 228

VI.

THE CIRCUIT COURT'S DECISION SHOULD BE REVERSED BECAUSE
THE STATE LACKED STANDING TO BRING THE DISQUALIFICAITON
MOTION AT ISSUE.

In preparing the instant Petition, it has occurred to Petitioners that an additional
assignment of error was erroneously omitted from the prior Petition, to wit, that the State lacked
standing to bring the Motion to Disqualify because the matter did not involve a conflict with a
State's witness. Because this matter is jurisdictional, the Court is empowered to take it up at any
time, either upon the urging of a party or on its own, sua sponte, even if not raised at the lower
comt or in an assignment of error on appeal. State ex rel. Abraham Linc. Corp. v. Bedell, 216
W.Va. 99,602 S.E.2d 542 (W. Va. 2004) ("[s]tanding is a jurisdictional requirement that cannot
be waived, and may be brought up at any time in a proceeding.") (quoting Franklin D. Cleckley,
Robin Jean Davis & Louis J. Palmer, Litigation Handbook on West Virginia Rules of Civil
Procedure,§ 12(b), p. 21 (Supp.2004)).

The prosecution, in bringing the instant Motion to Disqualify, asse1ted its standing to do
so under Blake, supra. However, as previously discussed above, the Blake Court only conferred
standing upon a prosecutor to move for the disqualification of defense counsel under
"circumstances where there appears to be an actual conflict of interest or where there is a
significant potential for a serious conflict of interest involving defense counsel's former (or
current) representation of a State witness." Blake, supra, Syl. Pt. 3. Blake involved a Petition for
Writ of Prohibition following the circuit court had denied his motion to disqualify defense
counsel, who had previously represented a material state witness, for lack of standing. Blake,
supra, 624 S.E.2d at 849. The Comt, in granting the Writ, noted that standing to raise a conflict

of interest is "generally vested with the client," but made an exception in certain circumstances.
11

App. 229

Said the Court, "we now hold that the State of West Virginia, through the prosecuting attorney,
has standing to move for disqualification of defense counsel in a criminal proceeding in limited
circumstances where there appears to be an actual conflict of interest or where there is a
significant potential for a serious conflict of interest involving defense counsel's former (or
current) representation of a State witness." Id. at 852. The circuit court explicitly found that no
actual conflict exists, and the potential conflicts at issue - a plea bargain that it is in a defendants
best interest to take or a secret that one defendant wishes to tell their lawyer and not their
codefendants - do not involve a state witness. As such, the state has no standing the bring a
Motion to Disqualify, and the motion therefore should not have been granted.
CONCLUSION

For all the reasons stated above, Petitioners respectfully request that this Honorable Court
grant them a rehearing on the instant matter, and reverse its prior decision affirming the Circuit
Court's disqualification of counsel.
Respectfully,
Petitioners Yurish, Douty and Lester
By Counsel,

V

hristian J. Riddell, Esq.
W.Va. Bar No. 12202
Riddell Law Group
329 South Queen Street
Martinsburg, West Virginia 25401
(304) 267-3949
(304) 267-5411 facsimile
12

App. 230

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
Docket No. 19-1160

State of West Virginia, ex rel June Ymish, Kristin Douty and
Christina Lester
Petitioners,

v.
The Honorable Laura Faircloth
Sittings as Judge of the Circuit Court of Berkeley County, and
State of West Virginia,
Respondents.
CERTIFICATE OF SERVICE
I, Christian J. Riddell, Esq., do swear that a copy of the Petition for Rehearing in this
matter was served upon the Honorable Laura V. Faircloth, Circuit Court Judge, by facsimile
transmission to (304)267-3883 and to Patrick Morrisey, Esq., WV Attorney General, State
Capitol Complex, Building 1, Room E-26, Charleston, WV 25305 this 291h day of June, 2020.

Christian J. Riddell (WV Bar # 12202)
Riddell Law Group
329 S. Queen Street
Martinsburg, WV 25401
(P): (304) 267-3949 (F) (304) 267-5411
Email: stedmanriddell@gmail.com

13

App. 231

THE RIDDELL LAW GROUP
P : (304) 267-3949
F: (304) 267-5411

FACSDvIILE TRANSJ\1ITTAL SHEET
TO:

-Sud~}-

FROM:

COMPANY:

RE:

OURGENT

yu

r/,\Y) 1 ~OU 0J

OFORREVIEW

I

CJi if dde /!
V/ _$

UStiJC

0 PLEASE COMMENT

0 PLEASE REPLY

NOTES/COMMENTS:

329 S. QUEEN STREET MARTINSBURG, WV 25401

App. 232

* * *

Communication Result Report ( Jun. 29. 2020 12:59PM)

1l

* * *

P. 1

Date/Time: Jun. 29. 2020 12:53PM
Fi I e

No. Mode

1541 Memory TX

Reason

for

E. 1)

E. 3)

E. 5)

error

Hang

No

up

Destination

pg (s)

Result

3042673883

P. 18

OK

or

answer

1 ine

Exceeded max.

fail

E-mail

E. 2)
E. 4)
E. 6)

size

Busy
No facsimile connection
Destination does not support

THE RIDDELL LAW GROUP
P : (304) 267-3949
P : (304) 267-5411

FACSlMILB TRANSMITTAL SIIBBT

Ol'IBASRRBPLY

:i29B.QU8DNS'.lID!Bl'~URO,WV25401

App. 233

Page
Not Sent

IP-Fax

